<html>
<title> - NOMINATIONS OF BRENT JAMES McINTOSH, TO BE UNDER SECRETARY FOR INTERNATIONAL AFFAIRS, DEPARTMENT OF THE TREASURY; BRIAN CALLANAN, TO BE GENERAL COUNSEL, DEPARTMENT OF THE TREASURY; BRIAN McGUIRE, TO BE ASSISTANT SECRETARY FOR LEGISLATIVE AFFAIRS, DEPARTMENT OF THE TREASURY; AND TRAVIS GREAVES, TO BE A JUDGE OF THE UNITED STATES TAX COURT</title>
<body><pre>[Senate Hearing 116-438]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-438

                  NOMINATIONS OF BRENT JAMES McINTOSH,
                     BRIAN CALLANAN, BRIAN McGUIRE,
                           AND TRAVIS GREAVES

=======================================================================

                                HEARING

                               BEFORE THE
                               
                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                 ON THE

                             NOMINATIONS OF

BRENT JAMES McINTOSH, TO BE UNDER SECRETARY FOR INTERNATIONAL AFFAIRS, 
  DEPARTMENT OF THE TREASURY; BRIAN CALLANAN, TO BE GENERAL COUNSEL, 
 DEPARTMENT OF THE TREASURY; BRIAN McGUIRE, TO BE ASSISTANT SECRETARY 
    FOR LEGISLATIVE AFFAIRS, DEPARTMENT OF THE TREASURY; AND TRAVIS 
         GREAVES, TO BE A JUDGE OF THE UNITED STATES TAX COURT

                               __________

                             JULY 24, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           

                                                                         

            Printed for the use of the Committee on Finance
            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-390  PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                          COMMITTEE ON FINANCE

                     CHUCK GRASSLEY, Iowa, Chairman

MIKE CRAPO, Idaho                    RON WYDEN, Oregon
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island
STEVE DAINES, Montana                MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada

             Kolan Davis, Staff Director and Chief Counsel

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Portman, Hon. Rob, a U.S. Senator from Ohio......................     3
Grassley, Hon. Chuck, a U.S. Senator from Iowa, chairman, 
  Committee on Finance...........................................     5
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     6

                        CONGRESSIONAL WITNESSES

Blackburn, Hon. Marsha, a U.S. Senator from Tennessee............     2
McConnell, Hon. Mitch, a U.S. Senator from Kentucky..............     3

                        ADMINISTRATION NOMINEES

McIntosh, Hon. Brent James, nominated to be Under Secretary for 
  International Affairs, Department of the Treasury, Washington, 
  DC.............................................................     9
Callanan, Brian, nominated to be General Counsel, Department of 
  the Treasury, Washington, DC...................................    10
McGuire, Brian, nominated to be Assistant Secretary for 
  Legislative Affairs, Department of the Treasury, Washington, DC    11
Greaves, Travis, nominated to be a judge of the United States Tax 
  Court, Washington, DC..........................................    13

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Blackburn, Hon. Marsha:
    Testimony....................................................     2
Callanan, Brian:
    Testimony....................................................    10
    Prepared statement...........................................    31
    Biographical information.....................................    32
    Responses to questions from committee members................    38
Grassley, Hon. Chuck:
    Opening statement............................................     5
    Prepared statement with attachments..........................    44
Greaves, Travis:
    Testimony....................................................    13
    Prepared statement...........................................    51
    Biographical information.....................................    51
    Responses to questions from committee members................    58
McConnell, Hon. Mitch:...........................................
    Testimony....................................................     3
    Prepared statement...........................................    60
McGuire, Brian:
    Testimony....................................................    11
    Prepared statement...........................................    61
    Biographical information.....................................    62
McIntosh, Hon. Brent James:
    Testimony....................................................     9
    Prepared statement...........................................    70
    Biographical information.....................................    71
    Responses to questions from committee members................    80
Portman, Hon. Rob:
    Opening statement............................................     3
Wyden, Hon. Ron:
    Opening statement............................................     6
    Prepared statement...........................................    88

 
                  NOMINATIONS OF BRENT JAMES McINTOSH,
                       TO BE UNDER SECRETARY FOR
                  INTERNATIONAL AFFAIRS, DEPARTMENT OF
                  THE TREASURY; BRIAN CALLANAN, TO BE
                   GENERAL COUNSEL, DEPARTMENT OF THE
                     TREASURY; BRIAN McGUIRE, TO BE
                  ASSISTANT SECRETARY FOR LEGISLATIVE
                  AFFAIRS, DEPARTMENT OF THE TREASURY;
                  AND TRAVIS GREAVES, TO BE A JUDGE OF
                      THE UNITED STATES TAX COURT

                              ----------                              


                        WEDNESDAY, JULY 24, 2019

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:15 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Chuck Grassley (chairman of the committee) presiding.
    Present: Senators Crapo, Roberts, Thune, Portman, Scott, 
Cassidy, Young, Wyden, Cantwell, Carper, Cardin, Brown, Casey, 
Whitehouse, Hassan, and Cortez Masto.
    Also present: Republican staff: John Schoenecker, Senior 
Investigative Counsel; Delisa Ragsdale, Chief Investigative 
Counsel; Mark Warren, Chief Tax Counsel; Jeffrey Wrase, Deputy 
Staff Director and Chief Economist; and Nicholas Wyatt, Tax, 
Infrastructure, and Nominations Policy Advisor. Democratic 
staff: Chris Arneson, Tax Policy Advisor; Michael Evans, Deputy 
Staff Director and Chief Counsel; Sally Laing, Senior 
International Trade Counsel; Ian Nicholson, Investigator; Greta 
Peisch, Senior International Trade Counsel; and Tiffany Smith, 
Chief Tax Counsel.

    The Chairman. Today, the Finance Committee will hear from 
four nominees, three from the Treasury Department and one for 
the U.S. Tax Court.
    Before I give my opening statement, I am going to call on 
Senator Blackburn to give her statement. But if you have a 10-
minute statement, I am going to interrupt you and let Senator 
McConnell give his statement, because he is busy. But he is not 
here, so would you proceed, please?

              STATEMENT OF HON. MARSHA BLACKBURN, 
                 A U.S. SENATOR FROM TENNESSEE

    Senator Blackburn. Thank you, Mr. Chairman; I will proceed 
with pleasure. And I can assure you, it is not a 10-minute 
statement.
    It is really such a pleasure for me to present to the 
committee my fellow Tennessean, Travis Austin Greaves. He is 
President Trump's nominee for the U.S. Tax Court.
    Travis was born in Texas, but he got to Tennessee as fast 
as he could. He and his family moved to Knoxville, TN when he 
was 11. And he received his B.A. from the University of 
Tennessee, and that is where he met his wife Holly. And she is 
a native of Cookeville, TN. He and Holly are the proud parents 
of two children, and they are expecting their third child, a 
little boy, in November. And I told Holly I am pushing for a 
November 21st delivery date, even though that would be past her 
delivery date, but is when my daughter was born.
    Travis attended South Texas College of Law, where he 
received his law degree. He earned his LL.M. with distinction 
from Georgetown. He went on to serve as an attorney advisor to 
the U.S. Tax Court.
    After his time at the Tax Court, he practiced law here in 
Washington, DC, where he specialized in tax controversy and 
litigation. He eventually co-founded a law firm that advised 
individuals and businesses on Federal and State tax disputes.
    Travis is now serving our country as a Deputy Assistant 
Attorney General in the Justice Department's Tax Division. In 
this role, he oversees all Federal tax appellate matters for 
the U.S., including all appeals from the Tax Court. Travis also 
teaches and mentors students as an adjunct professor on tax law 
at Georgetown University's Law Center.
    Mr. Chairman, I am so honored to present him today and am 
absolutely thrilled to see him nominated for this position. In 
talking with Travis and those who have known him for years, it 
is clear that he has the competency and the temperament to 
excel as a judge on the Tax Court.
    His past experiences have taught him to treat each litigant 
fairly and to impartially approach and to respect the rule of 
law. And I would expect nothing less from my fellow Tennessean. 
You may know that Tennessee is nicknamed ``The Volunteer 
State.'' And that is a nickname that we Tennesseans accept with 
pride. And it is not just for UT sports, it is because people, 
Tennesseans like Travis, answer the call to serve our 
communities, our State, and our country.
    I hope that you will move Travis through the committee 
expeditiously and get him confirmed promptly. And we are going 
to look forward to seeing him seated on the Court.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much. And we usually do not 
ask questions of our colleagues, so you can leave if you want 
to. [Laughter.]
    I am going to open up with my statement, and I am going to 
interrupt my own statement when Senator McConnell gets here.
    This morning we will first hear--Senator McConnell has 
arrived, and we will, if he is ready, take his statement.
    Senator McConnell, I recognize you.

              STATEMENT OF HON. MITCH McCONNELL, 
                  A U.S. SENATOR FROM KENTUCKY

    Senator McConnell. Well, thank you very much, Mr. Chairman. 
I am going to ask that my remarks about Brian McGuire appear in 
the record, but I do want to make a few observations.
    The Chairman. They will be taken into the record.
    [The prepared statement of Senator McConnell appears in the 
appendix.]
    Senator McConnell. I have been fortunate over the years to 
have a number of outstanding young men and women work on my 
team. I am hard-pressed to think of anybody more outstanding 
than Brian McGuire.
    I met him in 2007. He was somewhere in the Bush 
administration and was recommended to me as a speech writer. 
And I have had a few speech writers over the years, none better 
than Brian McGuire. And he was there during challenging times 
in the Republican leader's office that included the Iraq War, 
the financial meltdown--a whole lot of other tense and high-
profile moments--and never lost his cool. He always had good 
advice. And so, when an opening came up to be Chief of Staff in 
my personal office, I put him in a totally different role from 
the one he had been in prior to that.
    He was not from Kentucky. He had heard of Louisville, but 
within a short period of time, he knew every county. He made 
sure he knew all the things that were important to our State 
that we were dealing with in my personal office. And I must 
say, I was deeply saddened when he decided to go into the 
private sector.
    I could not be more grateful for the decade we worked 
together on behalf of the Nation and Kentucky. I am really 
proud of him. I think he will make a fabulous addition to the 
Treasury Department, and I wanted to come by and say that to 
all of you, that this is a top-flight nominee. I think the 
President was wise to select him. I am enthusiastically in his 
corner, and I hope you will be as well.
    So thank you, Mr. Chairman, for the opportunity to be here 
today.
    The Chairman. Thank you, Leader, and we will let you go 
now. We do not generally have questions of members.
    Senator Portman, you wanted to introduce somebody. I have 
not given my opening statement, but I think it would be 
appropriate if you go ahead at this point.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                    A U.S. SENATOR FROM OHIO

    Senator Portman. Great. Thank you, Mr. Chairman, very much. 
I appreciate you letting me introduce two distinguished 
individuals before the committee today. They are on the left 
part of the panel there: Brent McIntosh and Brian Callanan. I 
appreciate their willingness to step forward and to serve in 
these two important public service roles. They have dedicated 
much of their lives to public service, and I hope that the 
committee will support their nominations.
    Brent McIntosh has been nominated to be Under Secretary of 
the Treasury for International Affairs, filling the role 
vacated by David Malpass. As you know, he was sent over to the 
World Bank recently. Currently he serves as General Counsel at 
Treasury and is well qualified for it. He graduated from 
Michigan Law--University of Michigan undergraduate, which we 
will not hold against him--and then earned his law degree from 
Yale.
    He clerked for both Judge Dennis Jacobs on the Second 
Circuit Court of Appeals and Judge Laurence Silberman on the DC 
Circuit Court of Appeals. Smart guy.
    Afterwards, he continued to establish himself as a 
dedicated public servant. I got the pleasure to work with him 
in the Bush administration and got to know him, actually, when 
he served as Deputy Assistant Attorney General during my time 
as U.S. Trade Rep. And then, when I moved over to become OMB 
Director, Brent moved over to the White House, where I saw him 
a lot and worked with him. He was Associate Counsel to the 
President, and then Deputy Staff Secretary and Deputy Assistant 
to the President.
    After serving at Sullivan and Cromwell, Brent once again 
stepped back into public service when he was nominated to serve 
at Treasury as General Counsel. He has been there for the last 
2 years, and a number of us have worked with him in that 
capacity as well.
    I commended Brent at his last nomination a couple of 
summers ago on his honesty, intelligence, and integrity that I 
saw when I worked with him in the Bush administration. I can 
safely say he has lived up to that reputation during his time 
as Treasury General Counsel, Mr. Chairman, and I am pleased to 
see him continue now in this new role.
    The other gentleman is Brian Callanan. He has darkened the 
doors of this committee many times, because he worked for me as 
my counsel. He worked a lot on tax reform back in the day, and 
also worked on a bipartisan basis on some difficult issues as 
we dealt with the budget issues. The President has nominated 
Brian to be the General Counsel to fill Brent's role. He 
currently serves as the Deputy General Counsel. He attended 
Claremont McKenna College and got a J.D. at Harvard. In 2008 he 
clerked for Judge Raymond Randolph on the DC Circuit Court of 
Appeals and worked as an associate at Gibson Dunn. And again, 
in 2011, I had the pleasure of having him on my team as my 
General Counsel before he returned to private practice.
    He then returned to my team in 2015, where he became Staff 
Director and General Counsel of the Permanent Subcommittee on 
Investigations, which I chair. During his time in both my 
office and at PSI, Brian showed a strong commitment to 
oversight and a thorough grasp of some of the most important 
and complex policy issues that we worked on, including again 
the budget discussions from the supercommittee, the tax issues.
    He briefly worked as a partner in the law firm of Cooper 
and Kirk before returning to public service again, this time at 
Treasury. So it has been a pleasure to work with Brian over the 
last 2 years on a variety of issues in his new role at 
Treasury, and I know he will approach the role of General 
Counsel with the same level of expertise, integrity, and 
respect for Congress that he exemplified during his time 
working for me.
    So these nominees are exceptional public servants, Mr. 
Chairman, and great people. They have the experience and the 
qualifications to do these jobs, and do them well. If 
confirmed, I know they are going to serve our country with 
honor, and I am proud to support their nominations before the 
committee.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
              IOWA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. Thank you, Senator Portman.
    The portfolio for Treasury Under Secretary for 
International Affairs is broad, including working with many 
multinational organizations such as the World Bank and the IMF. 
Given that this position is related to international affairs, I 
would like to take a moment to stress again that the Treasury 
and the administration should use all available tools under 
U.S. law to encourage other countries to stop efforts to 
implement unilateral digital service taxes like the ones in 
France and under consideration in the UK. Instead, our trading 
partners should be focusing on the multilateral efforts 
underway by the Organisation for Economic Co-
operation and Development.
    I was pleased to see Secretary Mnuchin's reported comments 
after the G7 finance ministers' meeting last week indicating a 
two-track process with respect to these issues--meaning the 
continuation of section 301 investigations of the French 
Digital Services Tax, while also negotiating with the OECD 
Inclusive Framework members on a consensus solution to the tax 
challenges of the digital economy.
    Through multiple letters and other communications, Senator 
Wyden and I together have expressed our bipartisan interest in 
Treasury continuing its active participation in the OECD 
negotiations and using all tools available to prevent 
unilateral measures. I look forward to any comments our 
Treasury witnesses would like to provide on that matter.
    Next is Brian Callanan, who is nominated to Mr. McIntosh's 
current position as Treasury General Counsel. Since the tax act 
of 2017, the Treasury Department has done a very good job of 
developing regulations and other guidance to implement that 
law. The office of General Counsel has been an indispensable 
part of that process, while also fulfilling all other legal 
responsibilities at Treasury.
    Next we will hear from Brian McGuire, nominated to be 
Assistant Secretary for Legislative Affairs. I have talked many 
times about how important it is that members of this committee 
are able to get their questions answered and responses to their 
inquiries. I am heartened that Mr. McGuire has worked so many 
years in Leader McConnell's office, so I expect he has learned 
how important it is to this Senator for the executive branch to 
cooperate and work with those of us here in the legislature on 
our constitutional responsibilities on oversight.
    Finally, we will hear from Travis Greaves, nominated to a 
term of 15 years on the U.S. Tax Court. The Tax Court is where 
taxpayers can turn to settle a disputed liability with the 
government, and without having to pay the disputed tax before 
their case is heard. If Mr. Greaves is confirmed, along with 
two other nominees who have already been reported from this 
committee in this Congress, 18 of the 19 positions on the Tax 
Court will be filled.
    So I thank all of you for your willingness to serve the 
people of this country, and for your public service generally.
    [The prepared statement of Chairman Grassley appears in the 
appendix.]
    The Chairman. And now it is Senator Wyden's turn.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    We are talking about four important nominations this 
morning. Mr. Brent McIntosh is nominated to be Treasury Under 
Secretary for International Affairs. Mr. Brian Callanan is 
nominated to be Treasury General Counsel. Mr. Brian McGuire is 
nominated to be Deputy Under Secretary of the Treasury for 
Legislative Affairs. And Mr. Travis Greaves is nominated to be 
a judge in the United States Tax Court.
    I am going to start my comments with the Treasury nominees. 
There has been a pattern among some of the Trump nominees who 
have come before the committee--an unfortunate pattern. In this 
room, these nominees swear up and down that they are going to 
serve with independence on behalf of all Americans. But after 
they are confirmed, somehow you just seem to see blind loyalty 
to Donald Trump taking precedence over following the law.
    The nominees before the committee today are experienced. 
There is no debate about that. But with the Trump 
administration defying virtually all congressional oversight, 
the right resumes are just not enough. The Finance Committee 
ought to be able to have confidence that nominees will resist 
pressure to make politically expedient decisions that help 
Donald Trump personally at the expense of typical American 
families.
    In that vein, I am going to turn to a couple of specific 
items, starting with the Treasury Department's handling of the 
Ways and Means Committee's request for Donald Trump's tax 
returns under section 6103 of the tax code. From where I sit, 
the Treasury Department has tossed aside the law and decades of 
precedent to protect the President from congressional scrutiny.
    In May, I began investigating whether there was political 
interference in the decision to withhold the tax returns. I 
asked the Treasury a series of questions about the involvement 
of political appointees, and the initial response was 
misleading and inaccurate--and sometimes both. I went back and 
then said, ``I have got to have concrete answers.'' After 
working with the Treasury to get them, the set of facts the 
Department agreed upon shows the unprecedented nature of its 
actions.
    The type of inquiry I am talking about has never, over 
years and years, been political. Now, the Trump Treasury 
Department is politicizing it, and in effect using a process 
for Donald Trump that breaks with decades of precedent.
    The Treasury Secretary has never before been involved in 
responding to a request for tax returns under section 6103. 
Secretary Mnuchin is in fact the first.
    Second, the Treasury Department has never before formally 
consulted the Office of Legal Counsel on whether to comply with 
a specific request in this area, 6103. The OLC's opinion to me 
reads like it was written by Rudy Giuliani to justify the 
decision the Treasury had already made. The analysis put 
forward by the Justice Department has already been laughed out 
of court by judges who have noted that the Congress has broad 
investigative authority.
    And third, the Treasury Department has never before 
formally considered whether there is a legitimate legislative 
purpose behind a 6103 request. Not even for the chairman's 
investigation into ACORN.
    Taken together, it is just impossible to conclude that any 
of what the Treasury Department did was on the level. That is 
why I have deep concerns about the nomination of Brent McIntosh 
and Brian Callanan, who played central roles in the 
Department's response.
    They were also right in the middle of the Trump 
administration's decision to allow more foreign money and dark 
money groups like the NRA to buy their desired outcomes in 
American elections. I think that was a horrible decision, and 
the damage was compounded when the Treasury Department then 
made a frivolous argument to attempt to thwart congressional 
review of the rule.
    I just do not think you can ignore those facts. Mr. 
McIntosh and Mr. Callanan are currently the top lawyers at the 
Treasury Department. It appears that Treasury's leadership is 
more interested in protecting Donald Trump and party interests 
than guaranteeing the Department follows the law. So in my 
judgment, that is not the kind of conduct that gets you a 
promotion.
    Let me switch gears now for a moment to the Tax Court. 
Travis Greaves has been nominated to serve a 15-year term and 
would help ensure that taxpayers get a fair shake in resolving 
tax disputes. The nominee does have 2 years of experience at 
the Justice Department's Tax Division, as well as time in the 
private sector.
    I am struck, however, by the fact that Mr. Greaves's 
nomination to the committee is not accompanied by a 
recommendation letter from the Bar Association, particularly 
the Tax Section of the Bar Association. This is the first time 
in many years such a letter was not included with the required 
paperwork of a Tax Court judge.
    Now we will examine what this is all about. It could be 
that Mr. Greaves's experience is more limited than other 
nominees to the Tax Court, but that is the point of a hearing: 
to examine those kinds of issues and to hear from the nominee 
why he believes he is qualified for this important role.
    Mr. Chairman, thank you, and I know we look forward to 
hearing from our witnesses and our questions.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. I still have two or three things to do before 
we start with Mr. McIntosh.
    First of all, I would like to recognize the following 
judges who are in the audience, I am told. They are here from 
the Tax Court. We have Tamara Ashford, Ronald Buch, Albert 
Lauber, Joseph Nega, Cary Douglas Pugh, Patrick Urda, special 
trial judge Diana Leyden, and Alina Marshall, counsel to the 
Chief Judge, who I understand clerked for Judge Greaves from 
2010 to 2011. Finally, 38 professionals who have worked with 
Mr. Greaves wrote the committee to highlight his experience and 
recommend his appointment to the Tax Court. So I would ask 
unanimous consent that their letter be printed in the record.
    [The letter appears in the appendix beginning on page 45.]
    The Chairman. Also, in the case of Mr. McIntosh, I want to 
mention a letter received from 91 of your colleagues who have 
worked with you at various places like the White House, the 
Department of the Treasury, Department of Justice, the letter 
of strong recommendation for your confirmation, and I quote, in 
part: ``We believe that Brent has the judgment, acumen, the 
integrity, and temperament necessary to serve our Nation with 
distinction in the role of Under Secretary,'' end of quote. And 
the letter is signed by 91 people, including former Under 
Secretary Tim Adams, former counsel to the President Fred 
Fielding, former Secretary of Interior Dirk Kempthorn, former 
chairman of the Council of Economic Advisors Kevin Hassett, 
among other notable public servants. And so that will be put in 
the record, without objection.
    [The letter appears in the appendix beginning on page 47.]
    The Chairman. And then, since Senator Wyden has brought up 
a letter that we receive about qualifications, I want to make 
sure that the record fully reflects his background. While it is 
true that the ABA Tax Section did not issue a letter rating 
this nominee, the Tax Section did not rate him as not 
qualified, which they could have done.
    My staff was informed by representatives of the ABA Tax 
Section that no inference should be drawn from the absence of 
the letter. Mr. Greaves currently serves a Deputy Assistant 
Attorney General, Tax Division, Department of Justice. In the 
past, he has worked at the firm of Caplin and Drysdale, as an 
attorney advisor at the Tax Court, and as an adjunct professor 
at Georgetown University Law School.
    I mention these roles to show that Mr. Greaves has academic 
and private-sector experience in addition to his current role 
at the Tax Court.
    Senator Wyden. Mr. Chairman, if I could just briefly?
    The Chairman. Go ahead, please. Yes, you may.
    Senator Wyden. The chairman is absolutely right, and that 
is why I look forward to hearing from Mr. Greaves so he can 
talk us through why he is qualified. Thank you.
    The Chairman. Okay; now we finally get to the purpose of 
this meeting, and that is to hear from our nominees.
    We are going to start with you, Mr. McIntosh. And for all 
of you, so I do not repeat it again, I will just call on you, 
but you can give any opening statement, and you can introduce 
or refer to family members and friends who are here to support 
you, or for any reason that they are here.
    So, proceed.

 STATEMENT OF HON. BRENT JAMES McINTOSH, NOMINATED TO BE UNDER 
    SECRETARY FOR INTERNATIONAL AFFAIRS, DEPARTMENT OF THE 
                    TREASURY, WASHINGTON, DC

    Mr. McIntosh. Chairman Grassley, Ranking Member Wyden, 
members of the committee, thank you for the opportunity to 
appear here today before you. I am honored to be the 
President's nominee to be Under Secretary of the Treasury for 
International Affairs, and I am grateful to the Secretary for 
the confidence in recommending me for this position.
    I also want to sincerely thank my friend Senator Portman 
for that generous introduction. Working with you, Senator, both 
in the White House and more recently, has been a privilege and 
a pleasure.
    Before proceeding, I would like to take a moment to 
acknowledge my family. Here with me today is my beloved wife of 
18 years, Laura, who graces my life, as well as my parents Carl 
and Shirley McIntosh, who have always brought a quiet ethic of 
community service to all that they do. Both of my parents grew 
up on farms in the thumb of Michigan, as we discussed, Mr. 
Chairman, and they have driven in from that great State for 
today's hearing.
    My wonderful children, Mia, Rhys, and Ethan, could not be 
here today as they are enjoying summer camps in New England, 
and I am not heartless enough to tear them away from that.
    As Treasury's General Counsel for the past 2 years, I have 
appreciated the opportunity to work with many of you and your 
staffs. Since being nominated to be Under Secretary, I have met 
with several of you, and I am grateful for the courtesies you 
afforded me in those meetings.
    I take seriously the priorities that committee members 
outlined during our visits, and those meetings only reinforced 
to me the importance of a close working relationship with the 
Congress. Over the past 2 years, I have endeavored to foster 
that relationship, and I look forward to working with you and 
your staffs to strengthen and deepen it, should I be confirmed 
as Under Secretary.
    When I appeared here 2 years ago, I observed that the 
challenges Treasury confronts are daunting in both breadth and 
complexity. My service as General Counsel has driven home just 
how true that is. It has been a privilege to confront these 
challenges, standing arm-in-arm with the immensely talented and 
dedicated career attorneys and staff of Treasury's Legal 
Division. Their work and insight benefit our Department and our 
Nation every day.
    I have seen firsthand that many of Treasury's most pressing 
challenges manifest themselves in our economic and financial 
relationships with foreign countries and with various 
international institutions. These issues run the gamut: 
ensuring our Nation's voice is clearly heard in coordinating 
international financial regulation; negotiating economic 
agreements with foreign countries; advancing U.S. interests in 
multilateral bodies such as the World Bank and the IMF; and 
providing valuable technical assistance to developing 
countries.
    Treasury's International Affairs Division has a special 
responsibility to effectively implement last year's bipartisan 
legislation modernizing the CFIUS investment security regime, a 
task that has profound implications for both our economy and 
our national security. Serving as General Counsel has afforded 
me the opportunity to work toward solving these challenges 
alongside former Under Secretary David Malpass and his team, 
especially the hardworking experts who make up IA's career 
staff.
    It is an honor to be nominated to lead IA's continued 
efforts on behalf of the American people. The international 
issues in Treasury's remit may at times seem esoteric or far-
flung, but as David Malpass said during his confirmation 
hearing, and as I have consistently seen during my government 
service, those issues have significant, real-world impacts on 
the citizens of every State in the Union. That reality demands 
unwavering focus on the effects that international matters have 
on individual Americans, and it must be a guiding principle for 
those who are charged with advancing our Nation's interests 
abroad.
    I pledge that, if confirmed, it will guide my every action.
    Thank you again for the opportunity to appear today, and I 
look forward to your questions.
    [The prepared statement of Mr. McIntosh appears in the 
appendix.]
    The Chairman. Mr. Callanan?

 STATEMENT OF BRIAN CALLANAN, NOMINATED TO BE GENERAL COUNSEL, 
           DEPARTMENT OF THE TREASURY, WASHINGTON, DC

    Mr. Callanan. Chairman Grassley, Ranking Member Wyden, 
members of the committee, thank you for the opportunity to 
appear before you today. I am honored to be the President's 
nominee to serve as General Counsel for the Treasury 
Department, and I am grateful to Secretary Mnuchin for his 
confidence.
    I am pleased to be joined today by my extraordinary wife 
Amanda, who wisely warned me that our 10-month-old son Charlie 
may not have the deportment required for a Senate hearing. So 
he is at home eating Cheerios instead.
    I am also joined by my mother, who was a public school 
teacher for many years and my first teacher. I only regret that 
my late father, whom we lost to cancer in May, cannot be here 
today. My dad was a career civil servant. He devoted his entire 
professional life to public service--starting out as a juvenile 
probation officer in the court system of our home State of New 
Jersey and concluding his career working for the U.S. Agency 
for International Development to improve the civil and criminal 
justice systems of other nations across four continents. Both 
of my parents encouraged my early interest in public service.
    It is a particular honor to come as a nominee before this 
committee, where I had the opportunity to sit, on occasion, on 
the other side of the dais when I was working for Senator 
Portman. I learned a lot from his steady example of integrity 
and civility, and I am very grateful for his generous words 
today.
    My time as a lawyer in the U.S. Senate was a formative 
experience for me. It taught me a great deal about the 
legislative process, the significant role of congressional 
oversight, and the importance of mutual trust and respect 
between the executive branch and Congress. Should I be 
confirmed, I will strive to ensure that Treasury continues to 
be responsive to congressional needs and inquiries.
    Government lawyers are, in a special way, stewards of the 
institutions that we serve. Every agency of our government--
even one with a seal that reads 1789, as Treasury's does--is 
ultimately a creature of legislative enactment. As I see it, 
the role of the Treasury General Counsel is to ensure that the 
Department acts in fidelity to law and fulfills the statutory 
responsibilities entrusted to us, ever mindful that the laws we 
implement will long outlast us.
    Treasury's responsibilities are vast and varied. From 
implementing our tax code to administering our Nation's 
finances, from protecting the integrity of our Nation's 
financial system to deploying America's financial might to 
combat global threats, the Treasury Department is engaged every 
day in work that is vital to the security and prosperity of our 
Nation. And that work generates no shortage of complex, 
difficult legal questions.
    Fortunately, the Department is home to some of the finest, 
most dedicated lawyers anywhere in the country--the Treasury 
Legal Division. Under one roof, we have a legal team with deep 
and wide expertise in areas of law as diverse as tax, economic 
sanctions, financial regulation, international development, 
trade, public finance, and much more.
    It has been a distinct privilege to work shoulder to 
shoulder with these serious and skilled lawyers throughout my 
service as Deputy General Counsel and as Acting General Counsel 
during a critical transition period. If confirmed, I would be 
honored to lead this remarkable group of public servants and to 
continue to work closely with them on the important issues in 
which Treasury is engaged. If confirmed, I commit to perform my 
responsibilities with integrity and humility--and always with a 
devotion to the Constitution and laws under which all of us 
serve.
    I look forward to your questions.
    [The prepared statement of Mr. Callanan appears in the 
appendix.]
    The Chairman. Mr. McGuire?

STATEMENT OF BRIAN McGUIRE, NOMINATED TO BE ASSISTANT SECRETARY 
     FOR LEGISLATIVE AFFAIRS, DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Mr. McGuire. Chairman Grassley, Ranking Member Wyden, 
distinguished members of the committee, I am honored to appear 
before you this morning and grateful to the President and to 
Treasury Secretary Mnuchin for recommending me for the position 
of Assistant Secretary for Legislative Affairs.
    I am conscious as I sit here of the great responsibility 
and privilege that being nominated for this position 
represents, and I am humbled to stand in the company of those 
who have served in this role before me.
    I am grateful to be joined this morning by my parents, 
David and Veronica McGuire, who made the trip from Albany, NY 
to be here. Without their generous support and example of 
service, I would not be sitting here this morning.
    My father moved to Capitol Hill after graduating from 
college in 1958, but almost immediately returned home at the 
urging of his older brother to, quote, ``get a real job.'' He 
went on to spend nearly 4 decades as a public, middle, and high 
school principal in Albany, NY. I often reflect that I am 
living vicariously the life he dreamed of when he moved here 61 
summers ago.
    My mother, meanwhile, spent nearly 3 decades working full 
time as a secretary at Albany's only VA hospital. True 
partners, together they raised four children on a tight budget, 
making many sacrifices along the way for each of us. They will 
be married 55 years next month.
    I am also grateful to be joined by my sister, Annemarie, 
who also made the trip from Albany; the oldest of my three 
children, Stella, who is playing hooky from music camp to get a 
civics lesson this morning; and by my wife Ashley, an author 
and native Coloradan whose encouragement and many sacrifices 
have made it possible for me to consider a return to public 
service.
    I would like to take a moment to thank the Senators and 
staff who have given of their time to meet with me in 
preparation for today's hearing and to share with me their 
priorities and concerns. If I am fortunate enough to be 
confirmed, I pledge to continue the dialogue we have begun and 
to be as available and responsive to members and staff from 
both parties and both chambers as I can possibly be.
    As a former Senate staffer, I believe I am uniquely alert 
to the perspective, the demands, and the deadlines of Senators 
and their staffs, and I commit to you this morning that, if 
confirmed, my door and my mind will always be open. It is my 
sincere intention, if confirmed, to spend far more time 
listening than talking and to be an accessible and dependable 
source of prompt and honest feedback.
    In reflecting on the decade I spent working in both the 
Senate Republican leadership office and in the personal office 
of Leader McConnell, I cannot help but acknowledge the debt I 
owe to him. I cherish the memory of my years in both offices 
and am grateful for the mentorship and the opportunities that 
Leader McConnell gave to this native New Yorker in the midst of 
so many other pressing responsibilities. And I am grateful for 
his comments this morning.
    Treasury is a special place with a storied past and a vital 
role in ensuring the growth and stability of an increasingly 
complex domestic economy; in reinforcing our Nation's central 
role in the international financial system; and, crucially, in 
developing and aggressively implementing complex policies and 
strategies to combat terrorist financing and financial crimes 
both here and around the globe.
    I have long admired the work of the Department and the many 
remarkable career and non-career professionals who have carried 
out this complicated work and who have brought their creativity 
to bear on the various crises and challenges of our day.
    As a graduate student in Manhattan in 2001, I watched as 
Treasury grappled with the post-9/11 order; and as a Senate 
staffer in 2008, I watched from a slightly closer vantage point 
as Treasury wrestled with a terrible financial crisis that few 
saw coming.
    If confirmed, I cannot promise to bring the same 
intellectual gifts as many of these heroic public servants, but 
I pledge to bring the same seriousness and sense of purpose to 
my job that so many others have brought to the Department 
before me.
    Thank you again for your consideration. I look forward to 
your questions.
    [The prepared statement of Mr. McGuire appears in the 
appendix.]
    The Chairman. Now, Mr. Greaves?

  STATEMENT OF TRAVIS GREAVES, NOMINATED TO BE A JUDGE OF THE 
            UNITED STATES TAX COURT, WASHINGTON, DC

    Mr. Greaves. Thank you, Mr. Chairman, Ranking Member Wyden, 
and distinguished members of the committee. And thank you, 
Senator Blackburn, for your kind introduction and for your 
tireless work for all Tennesseans.
    It is a great privilege to be here today, and I appreciate 
all the care that the committee members and staff have put 
towards my nomination and for preparing for today's hearing.
    I am honored and grateful to have been nominated by 
President Trump to be a judge on the U.S. Tax Court, the place 
where I began my career as a tax attorney. I learned early on 
the important role the Tax Court plays in our society, serving 
as the primary prepayment forum for taxpayers challenging IRS 
determinations.
    Most taxpayers appearing in the Tax Court are pro se and 
have little if any legal background. During my time at the 
Court, I witnessed firsthand how daunting appearing in court 
can be for pro se litigants. If I am confirmed, I assure the 
committee that I will make every effort to balance the need to 
help these taxpayers understand the Court's rules and 
procedures, while remaining independent and impartial.
    Over my career, I have worked on almost every side of a tax 
controversy matter, and I have had the good fortune to learn 
from many great tax practitioners. As an attorney adviser at 
the Tax Court, judges, including some here today, taught me the 
importance of keeping an open mind in each case and of 
adjudicating cases in a fair and timely manner.
    If confirmed, these are lessons that I will take with me to 
the bench. In private practice, I worked at firms ranging in 
size from 1,500 attorneys to 2 attorneys, and I represented all 
types of clients. No matter the firm or client, I learned 
something every day from my colleagues. I would like to thank 
the attorneys at Reed Smith, Caplin and Drysdale, and my former 
law partner Josh Wu for constantly challenging me to be a 
better attorney.
    I now serve in government as Deputy Assistant Attorney 
General in the Department of Justice's Tax Division. In this 
role, I work with dedicated lawyers and professionals in our 
Appellate Section and Office of Review, as well as with 
Division and Departmental leadership. It has been a true honor 
and privilege to work with such an amazing group of public 
servants, including the Tax Division's Principal Deputy 
Assistant Attorney General Richard Zuckerman, my counsels Julie 
Avetta, Jacob Christiansen, and Nate Pollock, who are all here 
today.
    On a personal note, the Lord has blessed me with amazing 
family and friends. First, I would like to thank my wife Holly, 
who is here with us and brought our third child, a baby boy who 
is due in November. Our daughter Catherine, who is one, chose a 
nap over dad's hearing, and our son Fisher was initially 
intrigued by the offer but declined once he realized that it 
would interfere with his recess time. As a husband and father, 
you all have taught me patience, humility, and compassion.
    I also want to introduce my mother, Jan Fisher Greaves, who 
is the best judge I have ever known. She was the first female 
judge in Ector County, TX and the only judge when it came to 
resolving disputes between me and my siblings. Though I am 
constantly amazed at her legal acumen, it is her love for her 
family that impresses me the most.
    I also welcome my sisters Amber and Shelby, both joining me 
from Texas; my brother Jackson; and my in-laws Larry and Alice 
Sweeton, joining me from Tennessee. To all of my family, thank 
you for all your support.
    Finally, I have some of the best friends in the world, some 
of whom are in attendance today. From DC to Texas, you all mean 
so much to me, and I would not be here today without you.
    Thank you again to the committee for holding today's 
hearing, and I look forward to answering your questions.
    [The prepared statement of Mr. Greaves appears in the 
appendix.]
    The Chairman. There are four questions we ask everybody 
before individuals get into the subject matter. Is there 
anything that you are aware of in your background that would 
present a conflict of interest with the duties of office to 
which you have been nominated? Mr. McIntosh?
    Mr. McIntosh. No.
    The Chairman. Mr. Callanan?
    Mr. Callanan. No, Senator.
    The Chairman. Mr. McGuire?
    Mr. McGuire. No, Senator.
    The Chairman. Mr. Greaves?
    Mr. Greaves. No, Mr. Chairman.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office for 
which you have been nominated? Mr. McIntosh?
    Mr. McIntosh. No, Mr. Chairman.
    The Chairman. Mr. Callanan?
    Mr. Callanan. No, Mr. Chairman.
    The Chairman. Mr. McGuire?
    Mr. McGuire. No, Mr. Chairman.
    The Chairman. Mr. Greaves?
    Mr. Greaves. No, Mr. Chairman.
    The Chairman. Okay. The next question: do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed? So, Mr. McIntosh?
    Mr. McIntosh. Yes, Mr. Chairman.
    The Chairman. Mr. Callanan?
    Mr. Callanan. Yes, Mr. Chairman.
    The Chairman. Mr. McGuire?
    Mr. McGuire. Yes, Mr. Chairman.
    The Chairman. Let me ask my staff: does that apply to the 
judge too? Mr. Greaves?
    Mr. Greaves. Yes, Mr. Chairman.
    The Chairman. Okay. And finally, do you commit to providing 
prompt responses in writing to any questions addressed to you 
by any Senator of this committee? Mr. McIntosh?
    Mr. McIntosh. Yes, Mr. Chairman.
    The Chairman. Mr. Callanan?
    Mr. Callanan. Yes, Mr. Chairman.
    The Chairman. Mr. McGuire?
    Mr. McGuire. Yes, Mr. Chairman.
    The Chairman. And does that apply to--it applies to the tax 
judge as well.
    Mr. Greaves. Yes, Mr. Chairman.
    The Chairman. Thank you. Now let me remind you that 
everybody says ``yes'' to this question, but we do not often 
get the answers that are promised. So I always facetiously say, 
maybe you should have said ``maybe.'' But I think it would be 
better if you keep to what you said: that you will respond--and 
hopefully the first time, not after we have to write five or 
six letters to get an answer to us.
    So I am going to start--should I go vote? Okay, I will call 
on Senator Wyden, and I will go vote. Senator Portman will be 
taking over. And then I will vote and immediately come back.
    Senator Wyden. Is it all right if I start, Mr. Chairman?
    The Chairman. Yes.
    Senator Wyden. Great. I am going to start with you, Mr. 
McIntosh, if I could. The President said that as part of 
ongoing trade negotiations with China, he would agree to allow 
Huawei to buy U.S. products, despite the Department of 
Commerce's determination that Huawei is involved in activities, 
and I quote, ``contrary to the national security or foreign 
policy interests of the United States,'' unquote.
    As I said before, Huawei and other companies have been 
placed on this Bureau of Industry and Security Entity List 
because their structure, financing, and controlling powers are 
a danger to America's long-term security. In addition to 
serving on this committee, I am on the Intelligence Committee. 
Continuing to trade with these companies as part of the trade 
deal sacrifices the safety of American families for a quick 
buck and political points.
    Do you think it is appropriate to put national security on 
the table when negotiating trade agreements?
    Mr. McIntosh. Senator, thank you for that question. The 
touchstone of our work on Huawei is national security. National 
security is the foremost and only value we consider with regard 
to national security.
    The presence of Huawei on Commerce's Entity List is a 
result of the national security threat that Huawei poses. Now 
the contours of our policy regarding Huawei, I believe, are 
being shaped by the Commerce Department's consideration of 
possible licenses to certain American companies based on the 
actual contours of the national security threat that Huawei 
poses.
    And so the extent, for example, an American company 
provides generic parts to Huawei that could be sourced from the 
United States or South Korea or any number of other places, I 
understand that that may not touch the national security threat 
in the same way that, for example, having Huawei routers here 
at the Senate or in the Treasury Department would.
    And so I can assure you, based on my conversations with 
those who are handling this matter, that national security is 
the guiding principle here that we are shaping the policy 
around.
    Senator Wyden. You have said that it is, but the 
President's statement says he would allow Huawei to buy U.S. 
products, despite the Department of Commerce saying that this 
is a company involved in activities detrimental to our national 
security; those two are in conflict. I know you are kind of 
parsing some words to try to reconcile them, but I do not think 
it works.
    Let me turn now for my second question to Mr. McIntosh and 
Mr. Callanan, and I have colleagues here--Senator Casey, 
Senator Whitehouse--who are experts on this matter as well, 
which is the dark money rule, the IRS dark money rule.
    On July 16th of last year, the IRS issued a new rule saying 
that dark money groups no longer needed to tell the IRS who 
their major donors are. On the same day, the Federal Government 
arrested Russian agent Maria Butina for using the NRA dark 
money organization to illegally influence the political 
process. And right-wing organizations have been pushing this 
for years, and we know that State tax administration officials 
who are experts on this and supporters of campaign finance 
transparency opposed the change.
    Now, Senator Casey earlier this year learned that the IRS 
deviated from its standard process and did not even check with 
its Criminal Investigations division before issuing the rule. 
We also know that Montana and New Jersey--and we have 
colleagues on this committee from those States--are challenging 
the Treasury Department's decision to circumvent notice and 
comment requirements in Federal court.
    So my question for Mr. McIntosh and Mr. Callanan is, why 
did the Treasury Department decide that officials in Montana 
and New Jersey should not get a chance to comment, should not 
be afforded an opportunity for notice and comment? And why 
would the Department not give tax-exempt experts, law 
enforcement, and campaign officials an opportunity for notice 
and comment?
    These are people who are knowledgeable in the field. This 
is a big change that is a big win for secret government and 
dark money, and they did not even get a chance to comment--I 
mean, just the opportunity to be heard. Now, how is that in the 
public interest, Mr. McIntosh and Mr. Callanan?
    Mr. McIntosh. Senator, thanks for that question. I had a 
good discussion of this topic with Senator Whitehouse in my 
meeting with him. The standard that the IRS uses to determine 
collection of information is whether it is necessary to the 
efficient administration of the Internal Revenue laws. So, for 
example, the Federal election laws are not a subject of their 
collection process.
    The IRS has also--this is a longstanding IRS proposal to 
require 501(c)4s and (c)6s to maintain the information, but not 
to submit it immediately to the IRS without a request. And that 
request has been one that has been pending from the IRS for 
some time. And the Commissioner made a determination that, 
having that information available but not immediately collected 
was sufficient for the Internal Revenue laws.
    Senator Wyden. Look, this makes it easier for dark money 
groups to be able to do their business in secret, and there is 
no parsing or legalese that can in any way undermine that 
judgment. I think you are going to hear from my colleagues 
about it.
    This, at a minimum--at a minimum--is something where there 
should have been an opportunity for people who thought 
differently than you all to have a chance for notice and an 
opportunity to be heard. And I want to thank my colleagues, 
both Senator Casey and Senator Whitehouse, for their good work 
on this. Thank you, Mr. Chairman.
    Senator Portman [presiding]. We have about 8 minutes left 
on this vote, and I think what is going to happen is, Senator 
Grassley is going to come back so we can continue the 
conversation, and then there are two more votes after that. So 
we will have to take a break probably after that return. But in 
the meantime, hopefully we will have a chance quickly to get 
through some of our questions.
    Let me ask you a little about the digital services tax, 
because this is one that you have already had to deal with as 
General Counsel, and I want to hear from Brian on it as well. 
But you are going to be much more steeped in this.
    I notice that USTR recently decided to pursue a 301 
investigation regarding the digital services tax, which I think 
is a good idea, and I generally commend it. Can you talk a 
little about why USTR and Treasury have such a strong interest 
in this, what the fairness aspects are, and what the likely 
resolution is?
    Mr. McIntosh. Senator, thank you for that question, and I 
appreciated the chairman's comments on this as well. The 
interest and concern that the Senate has shown on this topic 
have not gone unnoticed at the Treasury.
    The advent of these unilateral digital service taxes in 
countries like France, which is at the forefront of this 
movement, is deeply troubling to us. We all recognize that the 
digitization of commerce has led to challenges to the 
traditional system of taxation and allocation of taxing rights 
among countries.
    But the idea that the solution to that is to impose a 
unilateral digital services tax by individual countries that 
is--when you look at the formulation and effect that we would 
expect to have as deeply discriminatory against the U.S. 
companies, and in particular large United States tech 
companies, indeed, it is impossible to look at that tax without 
believing that it is targeted directly at them.
    That to us is deeply troubling. And so we are, as the 
chairman referenced, pursuing a two-track strategy here. One is 
that all available actions, all available authorities that we 
and the U.S. Trade Representative have, are on the table, 
including the 301 investigation of France's attacks.
    So we are willing to pursue those sorts of punitive 
measures. Separately, we are working with the OECD, and there 
was some encouraging movement I think at the G7 ministerial 
last week, to ensure that we, on a global basis, come to a 
consensus-based solution for taxation of digital services.
    And we would be hopeful that that sort of solution, 
although it takes time to get lots of countries on board, would 
obviate the need and the urge of these countries to move 
forward with unilateral taxes, as I think we have seen, for 
example, Australia step back in favor of the multilateral 
effort.
    Senator Portman. Well, I think it is very important that 
you are well-versed on this as you go into this position, and I 
think that is going to give us a big advantage. Because I think 
you are right: putting it in a multilateral context, including 
the G20 context, probably makes sense for us, OECD as well. You 
know, it is difficult to get a consensus among all the parties, 
but the United States, I think, needs to be willing to promote 
that multilateral approach. And that will be, as you said, 
something that otherwise will target our tech companies where 
we have a comparative advantage.
    I have also heard--and Brian, you can comment on this--that 
it may not be just tech companies, that there is talk about 
targeting consumer goods companies as well. That tends to, 
again, prejudice our interests and our exports and our 
investments.
    Any thoughts on that, Mr. Callanan, and your interests on 
this issue?
    Mr. Callanan. Sure, Senator; sure. From a legal 
perspective, I think the effort that we have undertaken on an 
interagency basis is to ensure that policymakers, the 
Secretary, and others understand and have access to the full 
range of legal tools that Congress has given us to deal with 
efforts targeting any sector of the U.S. economy on a 
unilateral basis for discriminatory tax treatment.
    I think, as my colleague described, the Secretary has been 
encouraged by some discussions last week, but we remain focused 
on ensuring that we have all the legal tools we need to prevent 
targeting of U.S. businesses unilaterally by foreign tax 
authorities. And we have explained, I think, to Chairman 
Grassley and Senator Wyden that we are reviewing all of those 
options on an interagency basis, and it is a high priority.
    Senator Portman. Again, these are complicated issues in the 
global economy--increasingly complicated and digitized, as Mr. 
McIntosh said--and I am delighted that both of you are going to 
be so engaged and involved, because you do understand it, and 
it is complicated. China as well creates huge challenges right 
now, even outside of the ongoing negotiations with regard to 
the trade disputes on some of these tough issues on a non-
market economy basis that really do not fit neatly into our 
existing trade laws.
    So I am glad both of you are well-versed in that and are 
capable of jumping right into it.
    To my colleagues, we now have just a couple of minutes for 
the vote. I am going to go to Senator Casey, who is next, and 
then again I think Senator Grassley is going to come back and 
will continue this, and then we will take a break for the next 
two votes.
    Senator Casey?
    Senator Casey. Thank you, Mr. Chairman. I want to thank the 
panel for being here, for your willingness to put yourself 
forward for public service. I know that is true of several of 
you for more than one occasion.
    I wanted to start with Mr. McGuire, in particular regarding 
a letter which I think staff raised with you in preparation for 
the hearing. This is a letter dated April the 1st of this year 
from Senator Wyden and from me. This was directed to the 
Treasury Secretary.
    This is an issue of responsiveness or, more accurately, 
lack of responsiveness. I do not know if you want to have the 
letter in front of you before answering a question. We can 
provide that to you.
    Mr. McGuire. Yes.
    Senator Casey. Yes, and I will have the letter passed down 
to you. Here is the first sentence of the letter. It says 
``Dear Secretary Mnuchin, we write to request clarification on 
recent and past sworn testimony to the Finance Committee.'' And 
then it goes on to describe statements that he made regarding 
the impact of the 2017 tax bill. We refer to two dates and two 
instances of testimony.
    One was February 14, 2018, on the fiscal year 2019 budget. 
And then almost, right around a year later, March 14, 2019, 
regarding the fiscal year 2020 budget. So we asked for a 
response, because I believe--and I think an objective observer 
would believe as well--that there is a conflict for sure 
between his testimony at those two dates, testimony under oath, 
and I believe there is a misrepresentation.
    So my question to you is based upon a couple of concerns. 
One is the potential misrepresentation under oath. Two, a 
failure by him to correct the record. And then third, the 
response which was provided on April the 18th by the Deputy 
Assistant Secretary of the Office of Legislative Affairs.
    Now that you are seeking this post, I would ask you to 
commit and assure us--not only assure me and assure Senator 
Wyden--that Secretary Mnuchin will correct the record as it 
relates to either his responses to Senator Wyden or to me. And 
I think that is a reasonable request, when two members of the 
committee of jurisdiction ask for a direct response regarding 
testimony under oath, and not testimony about a trivial matter. 
So I would ask for your assurance to work with us to get that 
response directly from the Secretary.
    Mr. McGuire. Senator, you have my assurance that I will 
take this concern back to the building. There are a couple of 
offices within Treasury that we work with on questions like 
this, and I will take your concerns back and our staff will be 
in touch with yours on the topic.
    Senator Casey. Would you agree with me that the response so 
far has been inadequate?
    Mr. McGuire. I would have to study the issue more closely, 
but I am not the expert on this. The Office of Tax Analysis and 
the Office of Economic Analysis would be better-suited to 
answering that question.
    Senator Casey. Well I hope, apart from the substance, I 
would hope you would agree that when two members of the United 
States Senate committee of jurisdiction send a letter to the 
Secretary, that the Secretary in fact responds. I hope that 
would be your policy going forward.
    Mr. Chairman, I know you asked a number of questions at the 
outset about responsiveness, and I will catch up with you 
regarding the exact nature of this, but I hope you will work 
with us on the responsiveness of the Treasury Secretary to a 
letter sent to him in April by both Senator Wyden and me. So I 
am just asking for that consideration.
    Second, I know we are almost out of time. I can submit some 
questions for the record. This is for Mr. Callanan. This is 
regarding the so-called dark money revenue procedure 2018-38. 
Two weeks ago on the 9th of July, roughly 2 weeks ago, my staff 
asked you to provide information as to whether Treasury's 
Financial Crimes Enforcement Network, so-called FinCEN, was 
consulted prior to this change in disclosure to the IRS of 
large donors to dark money organizations and other nonprofits.
    We have not received a response. I should say, we had not 
until today we received a response. But I would ask you this: 
we just got the response today. We are studying that. I do not 
think it is adequate. That is my initial impression. But was 
FinCEN consulted prior to making this change in disclosure 
requirements for large donors to dark money groups?
    Mr. Callanan. Senator, thanks for that question. I think 
the letter you are referring to dealt with IRS CI, and I know 
the IRS responded on that yesterday, that the lawyers for the 
criminal tax function and the Office of Chief Counsel were 
consulted. They did review Revenue Procedure 2018-38. And the 
conclusion was reached from a tax administration perspective 
that no component of IRS needed the information affected by 
that revenue procedure to be reported on the annual return for 
tax administration purposes.
    With respect to FinCEN, I can tell you that it is my 
understanding that FinCEN does not make use of 6103 information 
in general, and that the legal path for FinCEN to access and 
use that information is exceedingly narrow.
    Senator Casey. So FinCEN was not consulted?
    Mr. Callanan. I actually do not know whether FinCEN was 
part of the agency-clearing process, but we can certainly look 
into that.
    Senator Casey. Thanks very much.
    The Chairman. I am going to delay my questioning so I can 
go to Senator Cortez Masto. But, Senator Hassan, have you voted 
yet?
    Senator Hassan. I just voted.
    The Chairman. Okay. Go ahead, and then you can go vote.
    Senator Cortez Masto. Thank you, Mr. Chairman; I appreciate 
that. Let me reiterate, Mr. McGuire, the concerns I think we 
have heard with a lack of response from the administration. So 
I just want to make sure that, on the record, I have similar 
concerns and appreciate your commitment and all of your 
comments to responding to the requests from the committee, 
making sure that they are appropriate, professional, and timely 
responses. So thank you.
    I think you already did that at the very beginning. Let me 
just say ``congratulations'' to all of you on your nominations. 
Congratulations to all the family that is here. It is okay to 
smile. We are not that bad. [Laughter.]
    But let me ask a couple of things. Mr. McIntosh, the office 
you are nominated for leads Treasury's engagement on trade 
negotiations, as we have heard, and heads up Treasury's role in 
bilateral discussions with China.
    To your knowledge, is the administration discussing Chinese 
Internet censorship and the challenges it poses for U.S. 
businesses operating in China, as part of its current talks?
    Mr. McIntosh. Senator, thank you for that question. I am 
afraid I do not know the answer to that. Treasury's role is to 
lead negotiations with regard to financial services, 
including--except as to insurance and as to currency. The 
question you raised is not one that is within our----
    Senator Cortez Masto. Jurisdiction to be involved with?
    Mr. McIntosh. Our jurisdiction's bailiwick, if you will.
    Senator Cortez Masto. Okay; thank you.
    Let me ask Mr. Callanan, and this may be for both of you--
and jumping back to the Treasury Department's issue of the 
revenue procedure on 2018-38, I am curious. Can you tell me, 
prior to issuing that, as the Treasury Department prepared this 
analysis and research and moving forward, can you identify for 
us, was the Department lobbied at all by anybody on the outside 
for that change?
    Mr. Callanan. Senator, I am aware of a public letter or two 
that was received----
    Senator Cortez Masto. A public letter that was received 
from the outside in response to the change?
    Mr. Callanan. I believe there was a public letter that I am 
aware of. Maybe I should begin by just being clear. The role of 
the Office of General Counsel is one that is a review of 
guidance documents for consistency with statutory authority. 
This revenue procedure you have described was a tax 
administration decision that is committed to the Commissioner.
    But with respect--I do know from the public record that 
there was a public letter from a number of 501(c) organizations 
on this issue, which I believe has been provided in response to 
at least one letter from a member of this committee.
    In addition, I do know that there were inquiries on this 
issue from other members of Congress, including Senator 
Johnson.
    Senator Cortez Masto. Okay. Thank you, very much.
    And, Mr. Greaves, I do not want you to be left out. Let me 
ask you this. There was discussion with respect to the ABA and 
the lack of a response from the ABA. Do you care to address 
that?
    Mr. Greaves. I cannot comment on why the ABA did not send a 
letter. But I can tell you, I have more than a decade of tax 
controversy experience as an attorney advisor at the U.S. Tax 
Court, as a private practitioner, as an adjunct faculty member 
at Georgetown University Law Center, and now as the Deputy 
Assistant Attorney General at the Department of Justice in 
charge of all appeals from the United States Tax Court. And 
through these experiences, working at the Court and in private 
practice, I became very familiar with the rules and procedures 
of the Court.
    I also learned the types of cases that are filed at the 
Court. And I gained really an understanding for the level of 
patience and respect that judges must show litigants before the 
Court.
    Senator Cortez Masto. And I am assuming the judges who are 
in the audience, all the judges you have worked with over the 
years, have come here in support of you?
    Mr. Greaves. Some I have worked with, and some have been 
friends in the tax community, and I have a great, great, great 
deal of respect for them.
    Senator Cortez Masto. Wonderful. Thank you. Thank you; 
congratulations.
    The Chairman. I have not had my first round, so I will do 
that, and then of people who are here, it would be this order: 
Mr. Whitehouse, and then Cassidy, and then Hassan.
    Mr. McIntosh and Mr. Callanan, Treasury and IRS have 
released a significant amount of guidance over the past 18 
months to help the taxpayers comply with the Tax Cut and Jobs 
Act. In some instances, agencies have released guidance that 
some have argued has been unfavorable to the taxpayers, while 
others have argued that certain guidance has been too favorable 
to taxpayers.
    I would like to give you both an opportunity to describe 
your current role in reviewing the draft guidance prepared by 
IRS and Treasury's Office of Tax Policy and the process that 
you followed in analyzing the agency's rulemaking. 
Specifically, I would like you to comment on how the statute's 
legislative history and other factors, including stakeholder 
input, entered into the equation for analyzing the authority to 
issue regulatory and other guidance. Either one can start.
    Mr. McIntosh. Mr. Chairman, thanks for that question. I 
should begin by saying that the task of drafting the regulatory 
guidance resulting from the tax reform bill has been a 
Herculean effort undertaken by the IRS Chief Counsel's office 
and the Office of Tax Policy at Treasury, which are constituted 
from some of the best tax lawyers anywhere in the country.
    Our role in the Office of General Counsel is to assure 
ourselves that we believe there is statutory authority to 
undertake the guidance that they put out. And when we think 
about that question, our goal is to carry out congressional 
intent as it is manifested in the text and structure of the 
statute.
    So when the policy folks at the IRS and at the Office of 
Tax Policy look at the question of what guidance is necessary, 
they hear from stakeholders--whether it is taxpayers--they hear 
from members on the Hill. We undertake our own analysis as to 
where guidance is necessary.
    And then, once the policy offices determine that the 
guidance is necessary, we then look at the text of the statute, 
which is the best evidence of congressional intent, and the 
structure of the statute, because the tax code is sufficiently 
complex that it never makes sense in the tax code to read a 
provision in isolation. You always need to understand where it 
interacts with other parts of the tax code.
    We look at the explanations that members have given as to 
what the purpose of the provision was, and we look at the 
grants of authority that the IRS has and that Treasury has to 
promulgate guidance--because there are often explicit grants of 
authority--to assure ourselves that what we are doing is both 
sufficient to facilitate the efficient administration of the 
tax code, and consistent with our statutory authorities.
    The Chairman. Mr. Callanan?
    Mr. Callanan. Mr. Chairman, I am not sure I can improve on 
my colleague's description. I would just add to that that the 
notice and comment process is very valuable. You know, we have 
issued 28 NPRMs; 11 of those have gone to final.
    The comment process allows us to get the best input on 
legal and policy questions presented. And I think one virtue of 
the approach that Treasury has taken is we do not--we go 
through this with an open mind. And we are always open to 
finding ways to refine and improve from proposed to final rule. 
And an important part of that process is hearing from members 
of this committee. We receive many comment letters from members 
of this committee, including some of the architects of TCJA--
also a very valuable part of both the policy and legal process.
    The Chairman. Mr. Greaves, as a Tax Court judge you will 
preside over many cases that involve unsophisticated taxpayers 
with few resources to deploy while making their case. What 
lessons do you take from your prior professional experience to 
ensure that you treat these taxpayers with respect and 
understanding, while stopping short of awarding them an 
advantage?
    Mr. Greaves. Mr. Chairman, I believe that all parties, 
taxpayers and the government, should be treated with courtesy 
and respect in the courtroom, and that judges should act 
promptly in addressing issues that are brought before the 
Court.
    Now, in my experience working at the Tax Court and in 
private practice representing pro bono clients, I know that 
most of these folks have never stepped foot in a courtroom and 
lack any legal education.
    So I would make sure that they know--if confirmed, I would 
make sure that they know that they have opportunities for pro 
bono counsel. The Tax Court has done an excellent job working 
with low-income taxpayer clinics. And I would also inform them 
of the Court's rules of practice and procedures, many of which 
are designed with pro se litigants in mind.
    And I would assure them that I would keep an open mind, 
that I would be attentive to each party's arguments, and that I 
would diligently work to apply the laws enacted by Congress to 
the facts established in the case.
    The Chairman. Senator Whitehouse?
    Senator Whitehouse. Thank you, Mr. Chairman. The chairman 
and I have legislation in the Judiciary Committee to try to put 
a little bit of sunlight into the problem of U.S. shell 
corporations. It enjoys the super-tedious nomenclature of 
``beneficial ownership,'' but I recall from our conversations 
and assume both Mr. Callanan and Mr. McIntosh still agree that 
these shell corporations provide shelters for tax evasion. 
Correct?
    Mr. McIntosh. Senator, we do believe that, in many 
instances, that is the case.
    Senator Whitehouse. For money laundering?
    Mr. Callanan. I think the Secretary has made clear that he 
agrees we need additional financial transparency into shell 
companies for precisely some of those concerns.
    Senator Whitehouse. For hiding assets, including proceeds 
of criminal activity?
    Mr. Callanan. I think those are among the illicit finance 
concerns that are driving our interest in reform here.
    Senator Whitehouse. And for kleptocrats who loot their 
countries and then hide the proceeds of their looting overseas, 
correct?
    Mr. McIntosh. That is another of the reasons why we support 
reform in this space.
    Senator Whitehouse. And I think you all understand that 
this involves America's national reputation if you are, as I 
believe we are, a city on a hill. It is hard, also, to be a big 
sleazy Cayman Islands in which the worst people in the world 
can hide their looted assets. Correct?
    Mr. McIntosh. That is correct, Senator.
    Senator Whitehouse. One of the things that shell 
corporations can get up to is to be involved in political 
influence efforts. Facebook, Mr. Zuckerberg, testified recently 
in the Judiciary Committee that his vaunted new and improved 
regime for figuring out who was buying political ads on 
Facebook would stop at the first nominal buyer.
    So if that were the case, is it not true that a foreign 
actor could be behind that U.S. shell corporation and be the 
true beneficial owner and the true party in interest with 
respect to that political influence buying?
    Mr. McIntosh. Senator, I am not familiar with Mr. 
Zuckerberg's testimony, but that sounds----
    Senator Whitehouse. The logic of it is pretty apparent, is 
it not?
    Mr. McIntosh. It does seem correct to me, Senator.
    Senator Whitehouse. And if an avenue allows anonymity to 
somebody seeking to buy political influence, is there any way 
that you can protect that avenue from being used by foreign 
influencers?
    Mr. McIntosh. Senator, certainly the transparency work that 
we have been working on collaboratively, we think, is a way of 
stopping that problem.
    Senator Whitehouse. And my point here is that, if you allow 
a regime of political influence for anonymous actors, there is 
by definition no way to know that foreign actors are not taking 
advantage of that anonymous channel. Correct?
    Mr. McIntosh. Senator, I would hesitate to say there is no 
way, given our very robust law enforcement and intelligence 
services. But certainly it makes it more difficult.
    Senator Whitehouse. Well, let us just say that there is 
certainly no way to know from looking at the channels.
    Mr. McIntosh. I believe that is correct.
    Senator Whitehouse. So you would need to have, say, 
intelligence in the foreign country that revealed to the 
intelligence community a scheme to buy influence. But, at a 
minimum, it is true that allowing channels for anonymous 
political spending into America's political system creates a 
problem and a challenge both for law enforcement and for 
protecting our system from foreign influence.
    Mr. McIntosh. Senator, I am not an expert in the election 
laws, but that certainly seems a reasonable conjecture to me.
    Senator Whitehouse. It is almost indisputable, is it not?
    Mr. McIntosh. Yes.
    Senator Whitehouse. Mr. Callanan?
    Mr. Callanan. I am--I too am not an expert in Federal 
election law. I know with respect to cross-border transactions 
that of course FinCEN is a repository of reports about 
suspicious transactions, including cross-border transactions. 
But I really could not comment on the Federal election law 
aspect of this. It is not within Treasury's remit.
    Senator Whitehouse. But you do not disagree with the 
principle that once you allow anonymous means of influence--
which frankly does not have to be election law--once you allow 
for anonymous political influence, you cannot keep out foreign 
anonymous political influence. You do know it is foreign by 
virtue of it being anonymous. Is that not a logical sequitur?
    Mr. Callanan. Having not studied the issue, I am sort of 
limited in being able to opine on it. But there is a logic to 
what you have described. All that I am pointing out is, I am 
also aware that there is, in addition to affirmative reporting 
by organizations, there is of course financial intelligence 
work that is done by agencies such as FinCEN to track 
transactions.
    But I do not question the logic of the point you have made.
    Senator Whitehouse. Yes. And the point I would conclude 
with, Mr. Chairman, is--and this is an equal opportunity 
criticism, because the Obama administration was equally weak 
and helpless on this point. But the fact that we are 
maintaining, under the IRS in the U.S. Government, means 
through which entities can become anonymous channels for 
political influence, with no provision for keeping foreign 
influence out of it by virtue of--I guess we love the anonymity 
for the sake of big special interests when they are domestic, 
but it is really wrong, and it is really dangerous, and we have 
to clean it up. And that is the point that I wanted to make.
    Thank you, Mr. Chairman. I am sorry I went over.
    The Chairman. I agree with you.
    Senator Hassan?
    Senator Hassan. Well, thank you, Mr. Chairman. And I want 
to thank you and Ranking Member Wyden for holding this hearing. 
To all four of our nominees, congratulations on your 
nominations, and thank you and your families for your 
willingness to serve. To the families here, thank you for 
sharing your loved ones with the people of this country in the 
work that they do.
    Mr. McIntosh and Mr. Callanan, I want to follow up on a 
line of questioning you have heard from some of my colleagues. 
I would like to ask you about the Treasury Department's 
decision to roll back disclosure requirements for donations to 
nonprofit lobbying groups.
    I want you to understand the context that I am coming at 
this from. Big pharma fueled the opioid crisis in New Hampshire 
and across this country by funding nonprofits that then spread 
fraudulent misinformation about addiction. Now, because of 
Treasury's decision, many of these nonprofits no longer have to 
disclose who their donors are to the IRS.
    In effect, the Treasury has hamstrung law enforcement's 
ability to follow the money and hold pharma accountable for 
fraud. However, despite these serious concerns, Treasury issued 
this decision without any public notice or comment period.
    So let me start by asking you, Mr. McIntosh, is it correct 
that, as Treasury General Counsel, you signed off on issuing 
this decision without any public notice or comment period?
    Mr. McIntosh. Senator, that was a determination made at the 
Internal Revenue Service. I was aware that it was going to be 
issued, but it ultimately was not my decision as to whether to 
do it, pursuant to the Commissioner's authority to relieve 
reporting requirements by form or regulation.
    Senator Hassan. So I am finding it a little bit hard to 
believe that you were not consulted or asked to sign off, but I 
take it from your answer that you think the Treasury acted 
within its authority in issuing this decision without public 
notice?
    Mr. McIntosh. Senator, that is a subject that is currently 
in litigation, so I am hesitant----
    Senator Hassan. Right.
    Mr. McIntosh [continuing]. To go beyond the bridge. But 
there is a long tradition of the Commissioner of the Internal 
Revenue Service relieving reporting requirements without notice 
and comment, and indeed the regulation in question explicitly 
gave him that right. And there is a long tradition in the Obama 
and Clinton administrations of doing the same.
    So this is a longstanding authority of the Commissioner.
    Senator Hassan. And I understand that, but to your point 
about it being in litigation, there are two States represented 
by colleagues of mine on this committee who are suing the 
Treasury for violating the law by failing to provide public 
notice of this decision. And I understand Treasury is 
contesting that. But I just want it on the record that two 
States are suing because of this decision.
    Mr. McIntosh. That is correct.
    Senator Hassan. Now, Mr. Callanan, as Deputy General 
Counsel at Treasury, did you sign off on issuing this decision 
without any public notice?
    Mr. Callanan. Senator, thank you for the question. The 
analysis on this regulatory action, like all tax regulatory 
actions, is done in the first instance by our Office of Tax 
Policy and by the Office of IRS Chief Counsel.
    I reviewed the analysis that they did on both the 
substantive and procedural issues associated with this guidance 
document--again, as I do with respect to dozens of IRS tax 
actions. And I was comfortable with the substantive and 
procedural legal considerations that it was within the 
statutory authority.
    I think the concerns you are describing, Senator, are 
questions of policy and tax administration, which are committed 
by law to the Commissioner and really are not a question for 
the Office of General Counsel.
    Senator Hassan. I thank you for the answer. I will note 
that when this decision was made and the change was made, it 
was both Treasury and the IRS that put out a press release that 
said this was significant reform.
    So I also just want to bring you both to focus on the fact 
that there is a reason that Congress requires public notice. It 
is so that rules cannot be changed behind closed doors to favor 
special interests.
    If you all had followed the law, or even if you do not 
think it was legally required, had exercised caution and 
perhaps a little bit of restraint here, you would have heard 
concerns about holding big pharma accountable in tracking down 
dark money donations, and perhaps you all might have made a 
different decision. That is the whole purpose of public 
comment.
    And now I am faced, like so many others all across this 
country, with the fact that it is now going to be much harder, 
when these kinds of interest groups are funded, to catch the 
bad actors and hold them accountable.
    I want to move on to one other issue. Mr. McIntosh, as head 
of the Office of International Affairs, you would be 
responsible for Treasury's efforts to strengthen U.S. economic 
ties with other countries to investment and trade agreements. 
That includes advancing our economic dialogue with China.
    I have heard from many New Hampshire businesses about the 
important economic issues we need to resolve with China, 
including intellectual property protection, competition from 
state-owned enterprises, and forced technology transfer. At the 
same time, many small businesses in my State are hurting from 
the administration's tariffs on Chinese goods and the 
uncertainty about the White House's strategy on China.
    As the Treasury Under Secretary for International Affairs, 
what would be your strategy for working with China to resolve 
economic issues while providing certainty to small businesses? 
What immediate steps would you take to implement this strategy?
    Mr. McIntosh. Thank you, Senator. It is a terribly 
important question. I should note that my role as Under 
Secretary, were I to be confirmed, is limited to certain 
aspects of those trade negotiations, which are primarily led by 
the United States Trade Representative.
    I think that the key aspect of our negotiations with China, 
as the Secretary and others have said, is that there are a 
series of 
market-distorting practices you have described: non-market 
practices, forced technology transfer, forced joint ventures, 
the lack of respect for intellectual property rights. And 
ensuring that those aspects of any trade negotiation are 
captured in an agreement in a way that is transparent and 
enforceable, would be the substantive priority.
    Procedurally, we would want to be pushing forward 
aggressively, as the Secretary and Ambassador Lighthizer are 
doing, on securing the agreement. It has to be the primary 
priority we face.
    And also I would note that a key aspect of this effort is 
ensuring that our foreign partners understand our concerns and 
are willing to stand up in multilateral forums and in their 
bilateral negotiations with the Chinese and highlight the same 
concerns that we have.
    Because I can tell you that, quietly in the background, 
they share these concerns. We need to present a unified front 
against the practices in question.
    Senator Hassan. Well, I thank you for that answer. I raised 
some of these same issues with our Trade Representative when he 
was here a few weeks ago. I just want to reiterate how 
important it is that the administration take into account the 
impact of trade uncertainty on small businesses. And, if 
confirmed, I hope you will remain focused on promoting economic 
dialogue with China, but in particular making sure that there 
is some level of predictability and certainty for our small 
business community during what is a turbulent time.
    Mr. McIntosh. Thank you, Senator.
    Senator Hassan. Thank you.
    The Chairman. This is how we are going to end this meeting. 
I am going to go vote. Senator Cassidy is the last person to 
ask questions, and he will close the meeting down. But I want 
to thank all of you for your attendance and participation 
today. I thank the panel for their willingness to serve in 
their respective roles. And, as is usual practice, I ask that 
any members who wish to submit questions for the record to 
please do so by close of business Friday, July 26th. And you 
folks who are nominees should try to answer those questions as 
quickly as you can so we can take action on your nominations. 
So I thank you all for participating, and I thank Senator 
Cassidy for the willingness to close down the meeting so I can 
go vote.
    Senator Cassidy [presiding]. I thank you all, gentlemen. 
This is Irish Day. As one Irish guy to a bunch of other Irish 
guys, congratulations on escaping the Island. [Laughter.]
    Mr. McIntosh. Senator, candor requires me to disclose that 
I am Scottish. [Laughter.]
    Senator Cassidy. Well, there is hope for you. [Laughter.]
    So, listen, Mr. McIntosh, I am very concerned about trade-
based money laundering. I have been speaking to folks from 
England or Britain who are similarly concerned. And if you 
will, cartels are moving tens of billions of dollars out of our 
country through Latin America, sometimes to West Africa, then 
to Lebanon, to subvert democratic institutions, to fund Boko 
Haram, to support Hezbollah and their activities, et cetera.
    There is evidence that the Iranians are using trade-based 
money laundering to circumvent the sanctions that we have 
placed upon them as a source of capital. I could go on, but 
now, any thoughts about what can be done to address this?
    Mr. McIntosh. Senator, thanks for that question. It is a 
very important issue and one that we at Treasury are focused 
on.
    My colleagues in the Terrorism and Financial Intelligence 
Under Secretariat are focused in particular on using sanctions 
to shut down many of these avenues that you discuss.
    It is not--trade-based money laundering in particular has 
not been a topic that has been in my bailiwick as General 
Counsel, but I would expect that, if I were confirmed as Under 
Secretary, it would be an important part of my early engagement 
with our foreign partners to ensure that they see the threat 
and are willing to work with us on sanctions and other 
financial intelligence tools.
    Senator Cassidy. So let me, just in the interests of time, 
let me say that I am not sure that it is our foreign partners. 
I speak to foreign partners. They are into it. I have spoken to 
the Guatemalans, the Mexicans, the Argentines, the Brits--they 
all recognize this as an issue.
    But you know, to channel Pogo, we have met the enemy, and 
he is us. It seems as if--and I am told, whenever I say this, 
and I cannot believe it is true, but I am always assured that 
it is true--that there is so limited communication between 
Treasury and CBP that when there is a trade deal that occurs, a 
legitimate trade deal or an illegitimate trade deal, there is 
no coordination between the manifest and the invoice.
    Now whenever I say that, I am thinking, ``This cannot be 
true.'' But whenever I say it, people say, ``Yes, it is true.'' 
So, okay, I am shipping a container of rice and getting dollars 
back. But it might be a double invoice, a triple invoice, a 
misinvoice, it may not be rice. It may be sawdust. So there is 
no value in it. But the absence of a connection means that it 
is the way that $60 billion to $100 billion are allegedly moved 
out through trade-based money laundering.
    Now I do not know if anyone else--obviously this is a tax 
issue, but it is a tax issue that has to be brought before the 
Tax Court, I suppose, and probably more of a criminal case, but 
I do not know if any of the others have thoughts, but this is 
what I have been focused on.
    And I mention this, but also in the Senate, it is 
transjurisdictional. It is Banking, Homeland Security, it is 
Treasury, it is Judiciary, it is Finance, and maybe one or two 
others.
    So just to toss that to you, to say that this will be 
something that is related to the beneficial ownership that 
Senator Whitehouse raised, but not limited to that. And we do 
think that it is a way to advance our foreign policy objective 
of stabilizing Central American governments.
    One more point, just for reference. If there is a shipment 
of goods going from the U.S. to Guatemala, the invoice goes 
through Panama, and the invoice is marked down by 50 percent, 
then Guatemala misses out on that duty it would have received 
and therefore has less money to invest in infrastructure, 
therefore less attraction for foreign direct development, 
therefore fewer jobs, therefore more people joining a caravan 
coming to McAllen, TX.
    So you see the kind of----
    Mr. McIntosh. I do, Senator. And that is a topic on which I 
would be eager to work with you and your staff and other 
members of the committee to address. It is, as I said, not one 
that has confronted us in the Office of General Counsel during 
my time here, but it is a terribly important issue, and it is 
one on which we do need to get our house in order.
    Senator Cassidy. But this would be part of your 
jurisdiction, if you are confirmed?
    Mr. McIntosh. Part of it would fall within the Terrorism 
and Financial Intelligence Under Secretary that is ably led by 
my colleague Sigal Mandelker. But I expect, as well, that when 
we are negotiating with foreign countries over these and 
raising our concerns, whether it is bilaterally or in 
multilateral forums, that would fall within my 
responsibilities, and I would be eager to work with you on it.
    Senator Cassidy. That sounds good. I think we have a mutual 
friend. He has already doxed you. And so we will be able to 
track you down and make sure we have your cooperation. 
[Laughter.]
    We are through. The hearing is now adjourned.
    [Whereupon, at 12:18 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


         Prepared Statement of Brian Callanan, Nominated to be 
              General Counsel, Department of the Treasury
    Chairman Grassley, Ranking Member Wyden, members of the committee, 
thank you for the opportunity to appear before you today. I am honored 
to be the President's nominee to serve as General Counsel for the 
Treasury Department, and I am grateful to Secretary Mnuchin for his 
confidence.

    I am pleased to be joined today by my extraordinary wife Amanda, 
who wisely warned me that our 10-month-old son Charlie may not have the 
deportment required for a Senate hearing. I'm also joined by my mother, 
who was a public school teacher for many years and my first teacher. I 
only regret that my late father, whom we lost to cancer in May, is not 
here today. My dad was a career civil servant. He devoted his entire 
professional life to public service--starting out as a juvenile 
probation officer in the New Jersey court system, and concluding his 
career working for the U.S. Agency for International Development to 
improve the civil and criminal justice systems of other nations across 
four continents. Both of my parents encouraged my own early interest in 
public service.

    It is a particular honor to come as a nominee before this 
committee, where I had the opportunity to sit on the other side of the 
dais when I worked for Senator Portman. I learned a lot from his steady 
example of integrity and civility. My time as a lawyer in the U.S. 
Senate was a formative experience for me. It taught me a great deal 
about the legislative process, the significant role of congressional 
oversight, and the importance of mutual trust and respect between the 
executive branch and Congress. Should I be confirmed, I will strive to 
ensure that Treasury continues to be responsive to congressional needs 
and inquiries.

    Government lawyers are, in a special way, stewards of the 
institutions that we serve. Every agency of our government--even one 
with a seal that reads 1789, as Treasury's does--is ultimately a 
creature of legislative enactment. As I see it, the role of the 
Treasury General Counsel is to ensure that the Department acts in 
fidelity to law and fulfills the statutory responsibilities entrusted 
to us--ever mindful that the laws we implement will long outlast us.

    Treasury's responsibilities are vast and varied. From implementing 
our tax code to administering our Nation's finances, from protecting 
the integrity of our financial system to deploying American's financial 
might to combat global threats, the Treasury Department is engaged 
every day in work that is vital to the prosperity and security of our 
Nation. And that work generates no shortage of complex, difficult legal 
questions.

    Fortunately, the Department is home to some of the finest, most 
dedicated lawyers anywhere in the country--the Treasury Legal Division. 
Under one roof, we have a legal team with deep and wide expertise in 
areas of law as diverse as tax, economic sanctions, financial 
regulation, international development, trade, public finance, and much 
more.

    It has been a distinct privilege to work shoulder to shoulder with 
these serious and skilled lawyers throughout my service as Deputy 
General Counsel and as Acting General Counsel during a critical 
transition period. If confirmed, I would be honored to lead this 
remarkable group of public servants and to continue to work closely 
with them on the important issues in which Treasury is engaged. If 
confirmed, I commit to perform my responsibilities with integrity and 
humility--and always with a devotion to the Constitution and laws under 
which all of us serve.

    I look forward to your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Brian Richard Callanan.

 2.  Position to which nominated: General Counsel, Department of the 
Treasury.

 3.  Date of nomination: May 23, 2019.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: January 18, 1981; Willingboro, NJ.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Harvard Law School (2005-2008), J.D., May 2008.

        Claremont McKenna College (1999-2003), B.A., May 2003.

        Palmyra Public High School (1995-1999), high school diploma, 
        June 1999.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Deputy General Counsel, U.S. Department of the Treasury, 
        Washington, DC (March 2017-present); Acting General Counsel 
        (March 2017-August 2017).

        Litigation partner, Cooper and Kirk PLLC, Washington, DC 
        (January-March 2017).

        Staff Director And General Counsel, U.S. Senate Permanent 
        Subcommittee on Investigations, Washington, DC (March 2015-
        January 2017).

        Litigation associate, King and Spalding LLP, Washington, DC 
        (2013-2015).

        General Counsel, Office of Senator Rob Portman, Washington, DC 
        (2011-2013).

        Litigation associate, Gibson, Dunn, and Crutcher LLP, 
        Washington, DC (2009-2011).

        Law clerk, Hon. A. Raymond Randolph, U.S. Court of Appeals for 
        the DC Circuit, Washington, DC (2008-2009).

        Summer associate, Cooper and Kirk PLLC, Washington, DC (Summer 
        2008).

        Summer associate, Gibson, Dunn, and Crutcher LLP, Washington, 
        DC (Summer 2007).

        Summer associate, Cooper and Kirk PLLC, Washington, DC (Summer 
        2006).

        Speech writer and legislative assistant, Senator Olympia Snowe, 
        Washington, DC (2003-2005) (with separation in service 
        September 2004-November 2004).

        Press Secretary, New Jersey Republican State Committee, 
        Trenton, NJ (September 2004-November 2004).

        Legislative correspondent, Representative Jim Saxton, 
        Washington, DC (2003).

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        Administrative Conference of the United States, Government 
        member (2017-present).

        Informal advisor to Romney-Ryan Readiness Project (2012).

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partners, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        Partner, Cooper and Kirk PLLC.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, business, charitable, and other organizations dating back to 
college, including dates for these memberships and offices):

        To the best of my recollection, I am or have been a member of 
        the following organizations:

        American Bar Association, Section on Administrative Law and 
        Regulation, member (approx. 2012-2016); Legislative Branch 
        Liaison for the Section on Administrative Law and Regulation 
        (2012-2013); co-chair of the Rulemaking Committee (approx. 
        2014-2015).

        Federalist Society, member (approx. 2008-present); 
        Administrative Law and Regulation Practice Group, Executive 
        Committee member (2013-2017).

        St. Peters Church on Capitol Hill, Washington, DC (approx. 
        2015-present).

        Cathedral of St. Matthew, Washington, DC (approx. 2010-2015).

        University Club of Washington, DC (approx. 2007-2009).

        Harvard Journal of Law and Public Policy (approx. 2005-2008); 
        articles editor (2007-2008).

        Harvard Federalist Society (2005-2008).

        Winston Churchill Society of Claremont McKenna College (approx. 
        2001-2003).

        Bar admissions: State of New York Bar (admitted 2009); State of 
        New Jersey Bar (admitted 2009); District of Columbia Bar 
        (admitted 2010); U.S. Court of Appeals for the DC Circuit 
        (admitted 2010); U.S. Court of Appeals for the Third Circuit 
        (admitted approx. 2014); U.S. District Court for the District 
        of Columbia (admitted approx. 2013); Supreme Court of New 
        Jersey (admitted 2009); Court of Appeals of New York (admitted 
        2009); DC Court of Appeals (admitted 2010).

        13.  Political affiliation and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       None.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.

       Based on a search of my records and public records, I have made 
the following such contributions:


------------------------------------------------------------------------
                    Recipient                        Date       Amount
------------------------------------------------------------------------
Elise Stefanik for Congress                        12/30/13        $250
------------------------------------------------------------------------
Tom Cotton for Senate                              10/29/13        $500
------------------------------------------------------------------------
Tom Cotton for Congress                             9/19/12        $250
------------------------------------------------------------------------
Tom Cotton for Congress                             9/20/11        $250
------------------------------------------------------------------------
Adam Laxalt for Attorney General (NV)               7/16/14        $250
------------------------------------------------------------------------


        In addition, I believe I made a small contribution to Governor 
        Tim Pawlenty's presidential campaign in 2012 and to Senator 
        Marco Rubio's presidential campaign in 2016, but I have been 
        unable to locate any record of those contributions.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        McKenna Scholar, Claremont McKenna College (1999-2003).

        McKenna International Fellowship, to participate in summer 
        service project in Uganda, East Africa (2002).

        Harrison Fellowship, Claremont McKenna College (2002-2003).

        First in class in major--government, Claremont McKenna College 
        (2003).

        Phi Beta Kappa, Claremont McKenna College (2003).

        Harvard Cravath International Fellowship (2008).

        Lincoln Fellowship, Claremont Institute (2009).

        High school valedictorian (1999).

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        To the best of my recollection, the following is a complete 
        list of my published writings:

        Written interview with Politico Playbook, ``Birthday of the 
        Week,'' January 18, 2018, https://www.politco.com/story/2018/
        01/18/playbook-birthday-brian-call
        anan-345497.

        ``Justice League International,'' The Claremont Review of 
        Books, Summer 2016 (review of ``The Court and The World,'' by 
        Justice Stephen Breyer) (title supplied by editor), https://
        www.claremont.org/crb/article/justice-league-international/.

        ``The Regulatory Budget Revisited,'' The Administrative Law 
        Review, Fall 2015 (with J. Rosen), https://www.americanbar.org/
        content/dam/aba/events/administrative_law/2017/10/
        009_regulatory.pdf.

        Executive Branch Review Blog, ``D.C. Circuit Tackles 
        Constitutionality of Regulatory Disclosure Mandates'' (approx. 
        April 2014). (This blog post, which I wrote for the Federalist 
        Society, no longer appears to be online.)

        ``A Legal Poison Pill for the Affordable Care Act,'' The Wall 
        Street Journal, January 13, 2014 (title supplied by headline-
        writer), https://www.wsj.com/articles/a-legal-poison-pill-for-
        obamacare-1389660359.

        ``When Nudge Comes to Shove,'' The Claremont Review of Books, 
        Summer 2013 (review of ``Simpler'' by Cass Sunstein), https://
        www.claremont.org/crb/article/when-nudge-comes-to-shove/.

        I also co-authored several staff reports (or portions thereof) 
        issued by the Permanent Subcommittee on Investigations:

        PSI Joint Staff Report, Backpage.com's Knowing Facilitation of 
        Sex Trafficking (2017).

        PSI Joint Staff Report, Combatting the Opioid Epidemic: A 
        Review of Anti-Abuse Efforts in Medicare and Private Health 
        Insurance Systems (2016).

        PSI Joint Staff Report, Protecting Unaccompanied Alien Children 
        From Trafficking and Other Abuses: The Role of the Office of 
        Refugee Resettlement (2016).

        PSI Majority Staff Report, Failure of the Affordable Car Act 
        Health Insurance CO-OPs (2016).

        PSI Joint Staff Report, Review of U.S. State Department Grants 
        (2016).

        PSI Joint Staff Report, Recommendation to Enforce a Subpoena 
        Issued to the CEO of Backpage.com, LLC (2015).

        PSI Joint Staff Report, Impact of the U.S. Tax Code on the 
        Market for Corporate Control (2015).

        Links to each of these reports can be found on page 19-20 of 
        this document: https://www.hsgac.senate.gov/imo/media/doc/
        LINKS%20TO%20PSI%20HRG
        S-RPTS%20(106-114)%20Updated%202016-12-20.pdf.

        In addition, I wrote a few items for which I have no records. 
        From 2010-2011, I co-wrote a series of client alerts for 
        Gibson, Dunn, and Crutcher titled ``Supreme Court Round-up,'' 
        which summarized pending and recently decided Supreme Court 
        cases. The firm does not appear to maintain an archive of these 
        alerts for that time period. I also wrote two articles as a 
        college student: one article about a college chaplain for a 
        campus paper, The Claremont Independent, that does not appear 
        to maintain an archive before 2012, and one article concerning 
        patriotism for a quarterly campus magazine, The Claremont 
        Review of Politics, that is out of print and has no archive.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates):

        I have not delivered a formal speech or presentation in the 
        past 5 years.

        I have participated in several panel discussions that may be 
        considered relevant to the position for which I have been 
        nominated--listed below for the committee's reference:

            American Bar Association, The Use and Abuse of Agency 
        Guidance (panel discussion), July 18, 2014. I served as 
        moderator.

            American Bar Association, Effective Congressional 
        Oversight (panel discussion), March 15, 2016. As one of four 
        panelists, I participated in a Q&A-style discussion.

            The Federalist Society and Claremont Institute, The 
        Jurisprudence of Justice Thomas (panel discussion), October 24, 
        2016. I served as moderator.

            Center for the Study of the Administrative State, 
        Constitutional Problems in Financial Regulation (panel 
        discussion); December 9, 2016. I served as moderator.

            New York University Journal of Law and Liberty, The 
        Administrative State Meets the Tech Economy (panel discussion), 
        February 28, 2019. As one of five panelists, I participated in 
        Q&A and summarized Treasury's 2018 report on financial 
        technology.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I believe my prior service in the executive, legislative, and 
        judicial branches and my private-sector experience in complex 
        litigation and administrative law matters have prepared me for 
        the responsibilities I would undertake, if confirmed, as 
        General Counsel of the Department of the Treasury. As Deputy 
        General Counsel since March 2017 and Acting General Counsel 
        during a critical 5-month transition period, I have had the 
        privilege of helping lead a highly skilled team of lawyers in 
        the Treasury Legal Division dedicated to carrying out the 
        Department's statutory mission. That experience has deepened my 
        understanding of the important programmatic and policy 
        responsibilities that Congress has entrusted to Treasury. In 
        addition, my more than 4 years as a lawyer in the U.S. Senate 
        gave me a valuable understanding of the legislative process, a 
        fluency in several areas of public policy, and an appreciation 
        for the congressional oversight function. Much of my work in 
        private practice centered on litigation concerning governmental 
        actions and policies, and that experience has also proven 
        valuable in my role as an in-house agency lawyer. Finally, I 
        have had the opportunity to manage large teams of professionals 
        on a variety of matters.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        Yes, with the exception of the Department of the Treasury and 
        the Administrative Conference of the United States.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by letter to Brian Sonfieid, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by letter to Brian Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
Government need not be listed.

        From 2014-2015, as a lawyer at King and Spalding, I provided 
        legal services and public policy advice to Howard and Jean 
        Somers, the parents of an Iraq War veteran who took his own 
        life after suffering from post-traumatic stress disorder and 
        traumatic brain injury. For this pro bono matter, I served as 
        the lead associate on a team that assisted our clients with 
        translating their personal experience into legislative advocacy 
        concerning reform of the Veterans Administration health-care 
        system. I also joined the clients for a meeting with then-
        Representative Kyrsten Sinema.

        In 2010, as a lawyer at Gibson Dunn, I provided legal services 
        to the Coalition for Derivatives End-Users concerning the 
        regulatory implementation of title 7 of the Dodd-Frank Wall 
        Street Reform and Consumer Protection Act of 2010, including 
        participating in meetings with career officials from the 
        Securities and Exchange Commission, the Commodity Futures 
        Trading Commission, and the Federal Reserve Board.

        In addition, throughout my time in private practice, I drafted 
        or assisted in drafting legal briefs and legal memoranda for 
        firm clients in the context of litigation or administrative 
        agency actions concerning various Federal laws, including the 
        Dodd-Frank Act; the Sherman Act; the Food, Drug, and Cosmetic 
        Act; the National Traffic and Motor Vehicle Safety Act; the 
        Rail Safety Improvement Act; the National Labor Relations Act; 
        the Federal Power Act; the Interstate Wire Act; and the Defense 
        Production Act.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by letter to Brian Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        Copies have been provided.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        In January 2009, I received a speeding ticket in Virginia for 
        driving 82 mph on a 70 mph interstate highway, which is 
        classified as reckless driving in Virginia. The citation was 
        reduced to a lesser charge, and I paid the required fine.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5:  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
          Questions Submitted for the Record to Brian Callanan
             Question Submitted by Hon. Benjamin L. Cardin
    Question. Section 179D of the internal revenue code provides a 
deduction for the cost of providing energy efficient commercial 
building investments that meet specific energy standards. This 
deduction results in lower building costs for developers, lower energy 
costs for building occupants, and a reduced impact on the environment.

    In the case of government-owned buildings, the tax deduction is 
allowed to be allocated to the person primarily responsible for 
designing the property--commonly the architect, engineer or 
contractor--in lieu of the government owner of the property, 
recognizing that the government generally does not have a tax liability 
(IRC 179D(d)(4)). The allocation of the 179D tax deduction is achieved 
by a letter from the responsible government official to the designer.

    The allocation letter serves a purpose similar to third party 
reporting requirements--to inform the IRS as to whether the designer 
qualifies for the deduction. It was meant to be administrative in 
nature. Congress's decision to allow allocation of the tax deduction to 
the designer reflects the policy goal of encouraging the construction 
of energy efficient government buildings.

    I am troubled by a growing number of complaints I am hearing about 
small business owners being required to make payments to State and 
local government entities in order to receive this allocation letter. 
This practice weakens oversight by the government that ensures that the 
correct designer receives the intended benefit for providing energy 
efficient services to the government. Even more concerning, in some 
cases, these small business owners are being told that if a payment is 
not made, the government entity may rescind the allocation letter that 
has already been issued and on which the small business owner has 
relied upon to file their taxes. Small business owners shouldn't have 
to pay a toll to a government entity to receive an allocation letter 
for a tax deduction for which they qualify and for which they provided 
the services under section 179D. This goes against the longstanding 
understanding of the administration of section 179D and congressional 
intent.

    I ask for you to make it a priority that within 90 days of being 
confirmed that Treasury and the IRS will put forward public guidance to 
make clear that it is inappropriate for government entities to request, 
seek or accept payments for providing an allocation letter under 26 
U.S.C. 179D(d)(4).

    Answer. Thank you for describing your concerns regarding how the 
allocation of the deduction under section 179D(d) has been used to 
negotiate for a return benefit to a government entity. Although I have 
not had the opportunity to work on this issue, the deduction under 
section 179D should be used to fulfill its intended purpose of 
encouraging investment in energy efficient commercial property and the 
procedures in our existing guidance, Notice 2008-40 and Notice 2006-52, 
should be followed to ensure that this intended purpose is properly 
extended to government-owned buildings. If confirmed, I will work with 
Treasury and IRS staff to evaluate our authority under section 179D to 
address the serious concerns you have described.

    In addition, I have raised this issue with our Assistant Secretary 
for Tax Policy, and he would be pleased to discuss it with you or your 
staff if that would be helpful.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. As you know, the Trump tax bill gutted the State and 
local tax deduction that 1.8 million New Jerseyans relied on to avoid 
being double taxed. New Jersey and other States created State and local 
tax incentives for making charitable donations to select non-profits. 
These non-profits were created to fill the gaps created by the Trump 
tax bill by funding our public schools and universities, rebuilding our 
roads and bridges, assisting survivors of domestic abuse, and helping 
middle-class families.

    State and local programs that award tax credits in exchange for 
donations to public and private-sector entities have existed for 
decades without interference from the Treasury/IRS. For years, programs 
that supported conservative causes were marketed by CPAs in certain 
States as a way to reduce a taxpayer's Federal tax liability by 
avoiding the Alternative Minimum Tax (AMT). One accountant even boasted 
``The reason this [State tax credit charitable] program is worthy of 
mention for tax planning purposes is . . . shifting itemized deductions 
away from State income tax and to charitable deductions will lower 
their Federal income tax bill.''\1\ The IRS and Treasury only began 
targeting States like New Jersey after implementing their own State tax 
incentives.
---------------------------------------------------------------------------
    \1\ Strike, Brian, ``Charitable Donation and State Tax Credit,'' 
2016, https://www.
scottkays.com/article/2016/09/20/charitable-donation-state-tax-credit.

    Could you describe why the Trump administration took no action and 
permitted these State programs that supported conservative causes to 
---------------------------------------------------------------------------
operate and taxpayers to avoid the Federal AMT?

    Answer. As a native New Jerseyan with a large extended family in 
New Jersey, I share your interest in treating all taxpayers across all 
States fairly.

    The preamble to the final regulations, issued in June 2019, 
explains why the Treasury Department and the IRS did not previously 
issue formal guidance regarding the interaction between section 170 and 
State tax credit programs: ``The limitation under section 164(b)(6) 
[adopted by Congress in the Tax Cuts and Jobs Act] is the impetus for 
the Treasury Department's and the IRS's consideration of the tax 
treatment of contributions made in exchange for State and local tax 
credits. Prior to enactment of that limitation, the proper treatment of 
such contributions was of limited significance from a Federal revenue 
perspective and tax administration perspective and was therefore never 
addressed in formal guidance.''\2\ The final regulations prevent the 
use of any State program, no matter the State and no matter the 
purpose, to circumvent limitations on Federal tax deductions.
---------------------------------------------------------------------------
    \2\ Department of the Treasury, Final Regulations: Contributions in 
Exchange for State and Local Tax Credits, 84 Fed. Reg. 27513 (June 13, 
2019), https://www.govinfo.gov/content/pkg/FR-2019-06-13/pdf/2019-
12418.pdf.

    Question. The IRS's finalized guidance released in June wrongly 
ended the ability for States to establish tax incentives for making 
charitable donations in New Jersey and other States. To add insult to 
injury, the Treasury Department added an exemption in the regulations 
to keep existing State tax credit programs that support conservative 
---------------------------------------------------------------------------
causes virtually unchanged.

    Do you agree that the tax code needs to be implemented fairly 
without partisan bias?

    Answer. Yes.

    Question. If so, if confirmed to the position of the General 
Counsel at Treasury, do you commit to reversing course of this 
Department's previous bias and apply the tax code equally across the 
country?

    Answer. I do not believe partisan bias has any place in the 
interpretation of our tax laws, and I do not believe partisan bias has 
played any role in the promulgation of any tax regulations or other 
guidance issued in connection with the Tax Cuts and Jobs Act. If 
confirmed, I can commit to do all that is within my authority to ensure 
that no interpretation of the Internal Revenue Code is influenced by 
partisan bias.

    Title 26 of the U.S. Code generally entrusts regulatory authority 
to the Secretary of the Treasury. The Secretary has delegated tax 
regulatory policy responsibilities to the Assistant Secretary for Tax 
Policy under a longstanding Treasury Department order. The General 
Counsel is responsible for reviewing proposed regulations for questions 
of law, but the General Counsel does not possess tax regulatory policy 
authority under title 26. Consequently, if confirmed, it would not be 
within my authority to rescind or revise a final regulation promulgated 
under title 26.

    Question. Thirty-two members of the House Ways and Means 
Committee--Republicans and Democrats--sent a letter to the Treasury 
Department last Congress asking it withdraw IRS Notice 2007-55, which 
was issued over a decade ago and continues to deter foreign investment 
in the United States. The notice relates to the Foreign Investment in 
Real Property Tax Act, or FIRPTA. In short, the notice treats certain 
distributions from REITs as the sale of REIT assets rather than the 
sale of REIT stock. The result is that the distributions are subject to 
tax rates as high as 54 percent. The practical effect is to raise the 
tax burden on investors in U.S. commercial real estate and 
infrastructure to levels that are punitive and prohibitive. Cal-
Berkeley professor and economist Ken Rosen recently estimated that 
FIRPTA costs the United States between $65-125 billion in lost 
investment and between 147,000-284,000 in lost jobs.\3\ Repealing IRS 
Notice 2007-55 is a simple and immediate thing that the administration 
could do to boost private investment in U.S. real estate and 
infrastructure.
---------------------------------------------------------------------------
    \3\ Rosen, Kenneth T., ``Unlocking Foreign Investment in U.S. 
Commercial Real Estate'' (2017).

    Please review this matter and provide a written response as to 
whether you will repeal section two of the Notice and restore prior 
---------------------------------------------------------------------------
law, as dozens of members of Congress have encouraged.

    Answer. This question concerns a policy issue, which is best suited 
to be addressed by the outstanding staff of the Treasury Department's 
Office of Tax Policy (OTP) and the Internal Revenue Service (IRS). It 
is my understanding that Treasury and the IRS recently issued proposed 
regulations to address certain ambiguities in the FIRPTA legislation. 
If confirmed, I look forward to working with my colleagues in OTP and 
IRS Chief Counsel's office to achieve the shared goal of encouraging 
foreign investment in U.S. infrastructure while protecting the U.S. tax 
base.

    Question. The rum excise tax cover-over, which allows excise taxes 
on rum produced in Puerto Rico and U.S. Virgin Islands be refunded back 
to these islands, is an essential source of revenue that supports home-
grown industry and self-reliance. The cover-over program is subject to 
biennial extension, and in Congress, we are considering how to 
encourage the program to continue driving economic development in these 
territories.

    In your position at Treasury, would you support lifting the caps on 
cover-overs to Puerto Rico and the U.S. Virgin Islands and making the 
temporary extension permanent?

    Answer. This is not an issue that I have studied or worked on in my 
current role as Deputy General Counsel. However, if confirmed, I will 
work with the Office of Tax Policy and the Alcohol and Tobacco Tax and 
Trade Bureau to better understand the issue and try to address your 
concerns.

                                 ______
                                 
           Questions Submitted by Hon. Catherine Cortez Masto
    Question. On July 16, 2018, the Treasury Department issued Rev. 
Proc. 2018-38, which eliminated the requirement for tax-exempt ``dark 
money'' organizations to report the identities of major donors. This 
rule change will significantly hamper the ability of the IRS, law 
enforcement, and intelligence organizations to police the laundering of 
funds through our political system. The Office of General Counsel 
provides legal and policy advice to the Treasury Secretary, and Sec. 
Mnuchin decided he would no longer collect donor information for 
certain nonprofit organizations that may engage in political 
activities. The Treasury Secretary relied on General Counsel's legal 
analyses to justify these actions.

    Please provide me with exactly and specifically what role you had 
in that decision and the drafting of the legal justification.

    Answer. The tax law experts of the IRS Office of Chief Counsel and 
the Treasury Department's Office of Tax Policy (OTP) have primary 
responsibility for legal analysis and review of tax rules and guidance. 
The Office of General Counsel relies heavily on their analysis and 
expertise in the review of tax matters. With respect to Rev. Proc. 
2018-38, I recall being briefed informally by OTP concerning the 
statutory and regulatory authority underlying the IRS Commissioner's 
grant of limited information reporting relief under section 6033 of the 
Internal Revenue Code. I recall discussing the same subject with the 
IRS Office of Chief Counsel. I also reviewed a draft of Rev. Proc. 
2018-38 for legal issues--as I have reviewed many dozens of tax 
regulatory actions and guidance documents for legal issues during my 
service at Treasury.

    The Treasury Office of General Counsel is responsible for questions 
of legal authority, not analysis of tax administration needs and 
policies. The issuance of Rev. Proc. 2018-38 was based on the IRS's 
determination that the collection of personally identifiable donor 
information on Form 990 is ``not necessary for the efficient 
administration of the internal revenue laws,'' Rev. Proc. 2018-38 
(quoting 26 CFR Sec. 1.6033-2(g)(6)), and the reasons for that 
determination are outlined in the revenue procedure.

    Question. Who lobbied or engaged the Department for Rev. Proc. 
2018-38? Please provide me and this committee a list of organizations 
and interest groups that the Department met with, either publicly or 
privately, before the decision was released?

    Answer. I am aware that the Treasury Department and IRS received 
correspondence on this issue from members of Congress and a coalition 
of individuals and organizations in May and June of 2018. I have asked 
the Treasury Office of Legislative Affairs to promptly provide your 
office with copies of those letters. I did not attend any meetings with 
outside parties concerning this issue.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. The 2017 Republican tax law partially paid for massive 
tax cuts for corporations, the wealthy, and pass-through businesses by 
limiting the deduction for State and local taxes to $10,000.

    This was a rifle-shot at constituents in high cost-of-living States 
like Oregon, Washington, New York, New Jersey, and others.

    While I wasn't a fan of the SALT cap, I am even more concerned 
about recent Treasury regulations that reach far beyond what was 
contained in the 2017 Republican tax law. These regulations effectively 
extend the $10,000 SALT cap to include State tax credit programs.

    These regulations reversed the long-standing IRS position that 
taxpayers are entitled to a full charitable deduction, even if they 
receive State tax credits in return for their contribution.

    Could you please tell me where in the 2017 tax law it instructs the 
Treasury Department to limit charitable deductions for donations for 
State tax credit programs?

    Answer. The Tax Cuts and Jobs Act did not amend section 170 of the 
Internal Revenue Code. The proposed and final regulations to which your 
question refers are based on the application of longstanding Federal 
income tax principles under section 170. Specifically, under section 
170, any benefit received or expected to be received by a donor in 
return for making a donation to a charitable organization reduces the 
amount of any Federal charitable contribution deduction for such 
donation.

    Question. On September 5, 2018 Secretary Mnuchin announced these 
regulations wouldn't apply to businesses that make donations to private 
school voucher programs, with the strong backing of Republican 
Senators.

    Could you tell me where in the 2017 tax law it said that school 
voucher programs should get a special deal?

    Answer. The Tax Cuts and Jobs Act does not make distinctions among 
State tax credit programs. Likewise, Treasury and IRS regulations and 
guidance on this issue apply equally to all such programs.

    Question. It appears that Treasury as a general matter is picking 
and choosing when it wants to use broad authority in regulations issued 
under the 2017 tax law.

    Could you please provide guidance on how you determine the 
expansiveness of your regulatory authority in interpreting the 2017 tax 
law?

    Answer. The scope of Treasury's regulatory authority under the Tax 
Cuts and Jobs Act (TCJA) is a matter of statutory interpretation. As a 
result, the answer to this question is highly context-dependent. It 
requires interpreting the terms of the particular grant of rulemaking 
authority being invoked and, as importantly, the language of the 
substantive Internal Revenue Code provision or provisions being 
implemented. Under title 26, Congress has provided general and specific 
grants of rulemaking authority. Section 7805 confers authority to 
``prescribe all needful rules and regulations for enforcement of [title 
26],'' including ``all rules and regulations as may be necessary by 
reason of any alteration of law in relation to internal revenue.'' 
Treasury has relied on these general grants of authority to implement 
some provisions of TCJA. In addition, Congress often includes specific 
grants of authority to implement particular provisions of the code; 
TCJA contains at least 72 such specific grants of authority. Some of 
those specific grants provide explicit indication of the nature of 
regulatory authority Congress expected Treasury to exercise, such as 
directives to adopt anti-abuse rules, to provide special rules for 
applying the purposes of a general rule to specified situations, or to 
implement new information reporting requirements.

    The attorneys of the Treasury Department's Office of Tax Policy 
(OTP) and the IRS Office of Chief Counsel have primary responsibility 
for legal analysis of tax regulatory actions; the Office of General 
Counsel relies on their analysis and expertise in the review of all tax 
regulatory actions. Our general approach to statutory interpretation is 
described in the response to the question below.

    Treasury's Office of Tax Policy and Office of General Counsel would 
be pleased to provide your staff with a briefing or additional 
information on any particular interpretation adopted in TCJA 
implementing regulations. If confirmed, I am committed to working with 
your staff to answer any questions that may arise concerning Treasury's 
interpretation of the Internal Revenue Code.

    Question. What principles of statutory interpretation are you 
applying in developing regulations under that law?

    Answer. The approach of the Treasury Office of General Counsel is 
to follow the Supreme Court's guidance governing agency interpretations 
of Federal statutes. The best evidence of congressional intent is the 
text of the statute. We also consider statutory context and structure, 
as well as how similar statutory language has been interpreted by 
Treasury in the past. The provisions of the Internal Revenue Code are 
often deeply interconnected, so we take particular care to analyze how 
Congress intended a new provision to work with existing code 
provisions. When the text does not resolve a question of 
interpretation, courts have indicated that a review of legislative 
history may help elucidate the meaning of a statutory provision.

    In some cases, even after applying all of the traditional tools of 
statutory construction, a statutory provision may remain ambiguous. In 
such cases, in the context of TCJA, Treasury's goal is generally to 
adopt the construction that best effectuates congressional intent, as 
Treasury's senior policymakers understand it.

    Question. I oppose any attempts to make it easier for illegal and 
foreign money to influence our political process. That's why I have 
been fighting the Treasury Department's rule change that stopped 
requiring dark money groups to disclose the identities of their major 
donors to the IRS.

    Last year, shortly after IRS issued its dark money rule, Senator 
Tester and I introduced a resolution to overturn the rule under the 
Congressional Review Act (CRA). It should have been a straightforward 
process--the Treasury Department even filed the paperwork with the 
Senate stating that this was a rule subject to the CRA.

    But when Treasury found out that Senator Tester and I were planning 
to overturn the rule, they sent us a letter asking for a ``do-over.'' 
They simultaneously claimed that they were eligible for the legal 
benefits of the Congressional Review Act, but also that we weren't 
allowed to challenge the rule under that same CRA provision.

    It was clear in my mind that Treasury was waging a frivolous legal 
battle in an attempt to obstruct congressional action. Treasury managed 
to tie up our CRA process for 5 weeks. Some months later, the GAO 
eventually weighed in with its own, independent legal opinion finding 
Treasury's ``do-over'' argument meritless.

    My concern is that the Treasury Department was clearly trying to 
impede Congress's right to vote on the dark money rule.

    My question is this: is it ever appropriate for the Treasury 
Department to play legal games to obstruct the Senate's right to 
legislate?

    Answer. No, it is not appropriate.

    Although the IRS may have views on whether a revenue procedure or 
other published guidance constitute a ``rule'' within the meaning of 
the Congressional Review Act (CRA), those views are not binding on 
Congress. The IRS's October 9, 2018 letter to the Government 
Accountability Office (GAO) provides an explanation of its CRA analysis 
with respect to Rev. Proc. 2018-38 and of its longstanding approach to 
CRA analysis more broadly. In its November 30, 2018 Opinion, the GAO 
concluded that, irrespective of whether Rev. Proc. 2018-38 is a 
``rule'' within the meaning of the CRA, the IRS's submission of the 
guidance pursuant to its longstanding approach allowed Congress to 
``fully exercise its review and oversight authorities under CRA.'' It 
is my understanding that the IRS Office of Chief Counsel has recently 
enhanced its review of IRS guidance prior to submission under the CRA 
process.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. As I have said to your predecessor, the Treasury serves 
as a powerful stabilizing force for our country. Part of that stability 
is preserved by insulating Treasury from politics, which is central to 
the role of the General Counsel.

    Do you agree that Treasury's work to combat illicit financial 
activity, impose sanctions, and conduct national security reviews 
through the CFIUS process should be free from political interference?

    Answer. Yes, I also share your view that the Treasury Department 
should be a source of stability for our economy and our Nation.

    Question. Do you believe the same is also true for tax 
administration and enforcement at the IRS?

    Answer. Yes.

    Question. In your previous role at Treasury, did anyone at the 
White House or the administration request that you or someone in your 
office intervene in a personal tax matter that was within the purview 
of IRS's tax administration or enforcement responsibilities?

    Answer. No, not that I recall.

    Question. Were you made aware of any instance in which an 
individual at the White House or the administration request that you or 
someone in your office intervene in a personal matter related to the 
work of Treasury's Office of Terrorism and Financial Intelligence, 
including the Office of Foreign Assets Control (OFAC) or Financial 
Crimes Enforcement Network (FinCEN)?

    Answer. No, not that I recall.

    Question. If appointed General Counsel, can you commit to doing 
everything within your power to protect the IRS from political 
interference generally, whether from the President, his family, or his 
associates?

    Answer. I will work to protect all Treasury functions, including 
those of the IRS, from improper political interference.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. As you know, Rev. Proc 2018-38 was issued on July 16, 
2018. When did you conduct your legal review of Rev. Proc 2018-38?

    Answer. The attorneys of the IRS Office of Chief Counsel and the 
Treasury Department's Office of Tax Policy have primary responsibility 
for legal analysis and review of tax rules and guidance. The Office of 
General Counsel relies heavily on their analysis and expertise in the 
review of tax matters. I believe I reviewed Rev. Proc. 2018-38 in June 
or July 2018 for legal issues, as I have reviewed dozens of tax rules 
and guidance projects. The Treasury Office of General Counsel is 
responsible for questions of legal authority, not analysis of tax 
administration needs and policies. The issuance of Rev. Proc. 2018-38 
was based on the IRS's determination that the collection of personally 
identifiable donor information on Form 990 is ``not necessary for the 
efficient administration of the internal revenue laws,'' Rev. Proc. 
2018-38 (quoting 26 CFR Sec. 1.6033-2(g)(6)), and the reasons for that 
determination are outlined in the revenue procedure.

    Question. Were you involved in the drafting of the response I 
received from the IRS on July 23, 2019 regarding Rev. Proc. 2018-38?

    Answer. I reviewed but did not draft the response letter.

    Question. If so, what sections did you draft, review, or provide 
advice on?

    Answer. I reviewed the entire response letter. I discussed your 
July 11, 2019 letter with the IRS Office of Chief Counsel to emphasize 
the importance of providing a clear, prompt response to all of your 
questions, based on the concerns conveyed directly to me by a member of 
your staff on July 9th regarding the inadequacy of a past response to 
your inquiry on Rev. Proc. 2018-38. If your concerns have not been 
fully addressed, I am sure the IRS Office of Legislative Affairs can 
work with your staff on your inquiry.

                                 ______
                                 
                 Question Submitted by Hon. Pat Roberts
    Question. According to figures published by the Treasury in June, 
the Department presently holds roughly $25 billion in matured unclaimed 
savings bonds on its books. These bonds have matured, yet their owner 
or heir has not claimed the funds. In many cases, the rightful 
individual has not claimed the bond or its proceeds because the paper 
document is missing or otherwise unavailable.

    Treasury has stated that the Department is making all necessary 
efforts to ensure that those who invested in U.S. savings bonds receive 
the return on their investment. For Treasury to fulfill its obligation 
to those with right to a U.S. savings bond, the Department should 
publish all necessary information for claimants who do not hold the 
physical bond. Treasury's contention has been that it is cost 
prohibitive to recover the information necessary so that individuals 
could claim a bond.

    Many States, including Kansas, have escheatment statutes allowing 
their agencies to undertake appropriate measures to reunite individuals 
with their unclaimed property. Certain States have gone further, 
offering to engage in a pilot program to recover and publish necessary 
information so that the Treasury does not incur the cost.

    Would you recommend Treasury engage in a pilot program? If not, 
could you please explain the policy and legal arguments for not 
honoring State escheatment laws?

    Answer. I have recused myself from this issue because my past 
employer represents several States in pending litigation concerning 
unredeemed savings bonds. As a result, regrettably, I am unable to 
respond to these questions. However, I will ensure that you receive a 
response to your questions from the appropriate Treasury officials.

                                 ______
                                 
              Prepared Statement of Hon. Chuck Grassley, 
                        a U.S. Senator From Iowa
    Today the Finance Committee will hear from four nominees, three 
nominees to the Treasury Department, and a nominee to the U.S. Tax 
Court.

    Before I give my full statement, I want to recognize the Majority 
Leader, who is with us this morning to introduce one of the nominees. 
Thank you, Leader McConnell.

    This morning we first will hear from Brent McIntosh, who is 
nominated to be Treasury Under Secretary for International Affairs. 
This position has a broad portfolio that includes working with many 
multinational organizations such as the World Bank and the IMF.

    Given this position is related to international affairs, let me 
take a moment to stress again that Treasury and the administration 
should use all available tools under U.S. law to encourage other 
countries to stop efforts to implement unilateral digital services 
taxes, like the ones in France and under consideration in the UK. 
Instead, our trading partners should focus on the multilateral efforts 
underway at the Organisation for Economic Co-operation and Development.

    I was pleased to see Treasury Secretary Mnuchin's reported comments 
after the G7 finance ministers' meeting last week indicating a two-
track process with respect to these issues--continuing the section 301 
investigation of the French digital services tax while also negotiating 
with the OECD Inclusive Framework members on a consensus solution to 
the tax challenges of the digital economy.

    Through multiple letters and other communications, Senator Wyden 
and I together have expressed our bipartisan interest in Treasury 
continuing its active participation in the OECD negotiations and using 
all tools available to prevent unilateral measures.

    I look forward to any comments our Treasury witnesses would like to 
provide on this matter.

    Our next nominee will be Brian Callanan, who is nominated to Mr. 
McIntosh's current position as Treasury General Counsel. Since the Tax 
Cuts and Jobs Act was enacted at the end of 2017, the Treasury 
Department has done a remarkable job of developing the regulations and 
other guidance to implement the bill. The Office of Treasury General 
Counsel has been an indispensable part of that process, while also 
fulfilling all its other legal responsibilities at Treasury and its 
bureaus.

    Next we will hear from Brian McGuire, nominated to be Treasury 
Assistant Secretary for Legislative Affairs. I've talked many times 
about how important it is that members of this committee are able to 
get their questions answered and responses to their letters. I'm 
heartened that Mr. McGuire has worked so many years for Leader 
McConnell, so I expect he's learned how important it is for the 
executive branch to cooperate and work with those of us here in the 
legislature.

    Finally, we will hear from Travis Greaves, nominated to a term of 
15 years on the U.S. Tax Court. The Tax Court is where taxpayers can 
turn to settle a disputed liability with the IRS, and without having to 
pay the disputed tax before their case is heard. If Mr. Greaves is 
confirmed, along with two other nominees who have already been reported 
from the committee in this Congress, 18 of the 19 positions on the Tax 
Court will be filled.

    Thank you all for your willingness to serve and for your testimony 
here today.

                                 ______
                                 

                              May 24, 2019

The Honorable Charles E. Grassley
Chairman
U.S. Senate
Committee on Finance
219 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Ron Wyden
Ranking Member
United States Senate
Committee on Finance
219 Dirksen Senate Office Building
Washington, DC 20510

    Re: Nomination of Travis Greaves to be a Judge on the United States 
Tax Court

    Dear Chairman Grassley and Ranking Member Wyden:

    We write in strong, bipartisan support of the appointment of Travis 
Greaves to be a judge on the United States Tax Court. We are a group of 
tax practitioners from across the country who are deeply familiar with 
the U.S. Tax Court and also with Travis Greaves. We have worked with 
him in various capacities: private practice, government, and 
professional organizations. No matter the role, he has demonstrated 
strong leadership, fairness, and integrity.

    The Tax Court is a forum to expeditiously resolve disputes between 
taxpayers and the Internal Revenue Service while ensuring uniform 
interpretation of the Internal Revenue Code. A judge on the Court must 
have deep substantive tax knowledge, an understanding of tax procedure, 
a strong work ethic, and integrity. Travis Greaves has all of these 
characteristics. He respects the history and role of the Court and its 
relationship with the Internal Revenue Service and the public.

    The Tax Court hears a wide variety of cases, and Mr. Greaves' 
experience in private practice, the Federal Government, State 
government, and in professional organizations makes him a strong 
addition to the Court. Mr. Greaves has represented some of the largest 
taxpayers in complex tax disputes involving numerous substantive areas 
of the tax law. He worked at the Tax Court as an Attorney Advisor to a 
judge and understands the intricacies of the Court from when a case 
arrives to decision. In his current role he leads some of the Nation's 
most elite tax attorneys in the Appellate Section of the Department of 
Justice Tax Division. In this role he manages some of the most complex 
cases and works with various interested parties to achieve fair and 
just results.

    Mr. Greaves is a thoughtful, fair-minded, and intelligent attorney 
who acts with integrity and holds the tax system and the Tax Court in 
the highest regard. We would point out that he has given significant 
amounts of his personal time to the enhancement of the tax profession 
and professional development of future tax leaders. From spending time 
teaching and mentoring law students as an adjunct professor at 
Georgetown University Law Center, to advocating for young professionals 
at the American Bar Association, to serving unrepresented taxpayers pro 
bono, Mr. Greaves has shown a clear desire to further tax 
administration. We all know how excited Mr. Greaves is to be considered 
for the Court and believe that he would serve with distinction.

    Based on our personal knowledge and experience, Mr. Greaves is a 
highly respected tax professional who would be an exceptional addition 
to the Court. We respectfully request that the Senate promptly consider 
and confirm the appointment of Travis Greaves to the United States Tax 
Court.

            Respectfully submitted,

    By the following individuals in their individual capacities 
(current affiliations are solely noted for purposes of identifying 
their relevant background).


 
 
 
Jeremy Abrams            Giovanni Alberotanza     Katie Amin
Reed Smith LLP           Rosenberg Martin         Groom Law Group
                          Greenberg, LLP
Washington, DC           Baltimore, MD            Washington, DC
 
Arielle M. Borsos        Bob Bowne                Andrew Brewster
Caplin and Drysdale      BDO                      Deloitte
Washington, DC           McLean, VA               McLean, VA
 
Mark Coscia              Drew Cummings            Jacob Dean
Cognizant                                         CCJ
New York, NY             Washington, DC           Wooster, OH
 
Jason Freeman            Glen E. Frost            Jeffrey M. Glassman
Freeman Law              Frost and Associates,    Meadows Collier
                          LLC
Frisco, TX               Annapolis, MD            Dallas, TX
 
Jeffrey Helm             Matthew Hicks            Austin Holt
EY                       Caplin and Drysdale      Cooley LLP
Ciudad de Mexico         Washington, DC           Santa Monica, CA
 
Paul Hynes, Jr.          Victor A. Jaramillo      Nehemiah Jefferson
Zuckerman Spaeder LLP    Caplin and Drysdale      The Jefferson Firm,
                                                   LLC
Washington, DC           Washington, DC           Tampa, FL
 
Steven P. Johnson        Ryan J. Kelly            Alexander Kugelman
                         Alston and Bird LLP      Kugelman Law, P.C.
Washington, DC           Washington, DC           San Francisco, CA
 
Elizabeth McGee          Bruce A. McGovern        Michael S. McGovern
Law Office of Elizabeth  South Texas College of   The Gober Group
 McGee                    Law
San Francisco, CA        Houston, TX              Austin, TX
 
Brian C. McManus         James E. McNair          Mark C. Milton
Latham and Watkins LLP   Reed Smith LLP           MCM Law LLC
Boston, MA               McLean, VA               St. Louis, MO
 
Jeffrey A. Neiman        Eli S. Noff              Stephen Pennartz
Marcus Neiman and        Frost and Associates,    Groom Law Group
 Rashbaum                 LLC
Fort Lauderdale, FL      Columbia, MD             Washington, DC
 
John Pontius             Bradley A. Ridlehoover   Charles M. Ruchelman
Pontius Tax Law, LLC     McGuireWoods             Caplin and Drysdale
Rockville, MD            Richmond, VA             Washington, DC
 
Ross R. Sharkey          Molly Sobhani            Daniel G. Strickland
Caplin and Drysdale      Klausner and Company,
                          P.C.
Washington, DC           Arlington, VA            Washington, DC
 
Shamik Trivedi           T. Joshua Wu
Grant Thornton LLP       Clark Hill PLC
Washington, DC           San Antonio, TX
 


                                 ______
                                 
                                                      July 24, 2019

The Honorable Charles Grassley      The Honorable Ron Wyden
Chairman                            Ranking Member
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
Washington, DC 20510                Washington, DC 20510

Re:  Nomination of Brent J. McIntosh to be Under Secretary of the 
Treasury for International Affairs

    Dear Chairman Grassley and Ranking Member Wyden:

    We write in strong support of the nomination of Brent J. McIntosh 
to be Under Secretary for International Affairs at the Department of 
the Treasury. Each of us served with Brent in government--at the White 
House, at the Department of the Treasury, at the Department of Justice, 
or in other capacities. We believe Brent to be a superb choice to lead 
International Affairs at Treasury.

    Brent's current service as Treasury's General Counsel, his prior 
public service, and his work in the private sector demonstrate that he 
is particularly well-suited to serve as Under Secretary for 
International Affairs. Brent has extensive experience in many subject 
matters central to Treasury's international work and possesses deep 
insight into how those matters affect our nation's position in the 
world. Brent has spent much of his career--both at Treasury and during 
his prior service at the White House and the Justice Department--
grappling with some of the toughest foreign policy and national 
security challenges our nation confronts, and we believe that his 
steady hand and strategic vision will serve the Department and the 
nation well. In particular, we believe that Brent has the judgment, 
acumen, integrity, and temperament necessary to serve our nation with 
distinction in the role of Under Secretary.

    Brent's nomination comes at a time when our nation faces increasing 
challenges across the globe, whether from strategic competitors such as 
Russia and China, or from regionalactors--such as Iran and North 
Korea--that are interested in playing a more aggressive role in the 
world. Indeed, at a time when U.S. leadership in the international 
economic and financial domain is needed more than ever, we believe 
that, if confirmed, Brent will bring energy, expertise, and vision to 
Treasury's role in shaping key international economic and financial 
relationships, norms, and initiatives. We also believe that, if 
confirmed, Brent will be able to use the skills and experiences he has 
gained serving in key roles throughout our government to skillfully 
pursue our national interest, while discharging the duties of the 
office to which he has been nominated with honor and dedication. Given 
this, and mindful of the critical role the Senate plays in the 
nomination process, we urge the members of the Committee on Finance, 
and the Senate, to consider swiftly--and approve--Brent's nomination to 
be Under Secretary for International Affairs for the Department of the 
Treasury.

            Sincerely,

        Tim Adams, former Under Secretary of the Treasury for 
        International Affairs, U.S. Department of the Treasury

        J. Michael Allen, former Special Assistant to the President and 
        Senior Director for Counter Proliferation Strategy, National 
        Security Council, The White House

        Stewart Baker, former Assistant Secretary for Policy, U.S. 
        Department of Homeland Security

        John F. Bash, former Special Assistant to the President and 
        Associate Counsel, Office of the Counsel to the President, The 
        White House

        Zina Bash, former Special Assistant to the President for 
        Regulatory Reform, Domestic Policy Council, The White House

        Joshua Bolten, former Chief of Staff to the President, The 
        White House

        Rachel L. Brand, former Assistant Attorney General, Office of 
        Legal Policy, U.S. Department of Justice

        Megan Brown, former Counsel to the Attorney General, U.S. 
        Department of Justice

        Reginald J. Brown, former Special Assistant to the President 
        and Associate Counsel, Office of the Counsel to the President, 
        The White House

        Dan Bryant, former Assistant Attorney General, Office of Legal 
        Policy, U.S. Department of Justice

        William A. Burck, former Deputy Assistant to the President and 
        Deputy Counsel, Office of the Counsel to the President, The 
        White House

        Jonathan W. Burks, former Chief of Staff, Office of the 
        Speaker, U.S. House of Representatives

        Elbridge Colby, former Deputy Assistant Secretary of Defense 
        for Strategy and Force Development, U.S. Department of Defense

        Shannen W. Coffin, former Counsel to the Vice President, The 
        White House

        Scott A. Coffina, former Associate Counsel to the President, 
        Office of the Counsel to the President, The White House

        Bryan N. Corbett, former Special Assistant to the President, 
        National Economic Council, The White House

        Grant M. Dixton, former Special Assistant to the President and 
        Associate Counsel, Office of the Counsel to the President, The 
        White House

        Michael Drummond, former Special Assistant to the President, 
        Office of the Staff Secretary, The White House

        Paul R. Eckert, former Special Assistant to the President and 
        Associate Counsel, Office of the Counsel to the President, The 
        White House

        John P. Elwood, former Deputy Assistant Attorney General, 
        Office of Legal Counsel, U.S. Department of Justice

        Mark Epley, former General Counsel, Office of the Speaker, U.S. 
        House of Representatives

        Fred F. Fielding, former Counsel to the President, The White 
        House

        Leslie Fahrenkopf Foley, former Special Assistant to the 
        President and Associate Counsel, Office of the Counsel to the 
        President, The White House

        Tony Fratto, former Assistant Secretary of the Treasury for 
        Public Affairs, U.S. Department of the Treasury

        Gregory G. Garre, former Solicitor General, U.S. Department of 
        Justice

        Brett Gerry, former Chief of Staff, Office of the Attorney 
        General, U.S. Department of Justice

        Blake L. Gottesman, former Deputy Chief of Staff to the 
        President, The White House

        Joseph Hagin, former Deputy Chief of Staff to the President, 
        The White House

        Amy Dunathan Hammer, former Associate Counsel to the President, 
        Office of the Counsel to the President, The White House

        Jeffrey M. Harris, former Associate Administrator, Office of 
        Information and Regulatory Affairs, The White House

        Sarah Harris, former Deputy Assistant Attorney General, Office 
        of Legal Counsel, U.S. Department of Justice

        Kevin A. Hassett, former Chairman, Council of Economic 
        Advisers, The White House

        Francis Q. Hoang, former Associate Counsel to the President, 
        Office of the Counsel to the President, The White House

        Robert F. Hoyt, former General Counsel, U.S. Department of the 
        Treasury

        Thomas G. Hungar, former General Counsel, U.S. House of 
        Representatives

        Jamil N. Jaffer, former Associate Counsel to the President, 
        Office of the Counsel to the President, The White House

        Myriah Jordan, former Special Assistant to the President for 
        Policy, Office of the Chief of Staff, The White House

        Daniel P. Kearney, Jr., former Special Assistant to the Legal 
        Adviser to the Secretary of State, U.S. Department of State

        Peter D. Keisler, former Assistant Attorney General, Civil 
        Division, U.S. Department of Justice

        Marc L. Kesselman, former General Counsel, U.S. Department of 
        Agriculture

        Dirk Kempthorne, former Secretary of the Interior

        Richard Klingler, former Senior Associate Counsel to the 
        President and Legal Adviser, National Security Council, The 
        White House

        V. Phillip Lago, former Executive Secretary, National Security 
        Council, The White House

        Michael E. Leiter, former Director, National Counterterrorism 
        Center

        Al Lambert, former Associate Counsel to the President, Office 
        of the Counsel to the President, The White House

        Paul Lettow, former Senior Director for Strategic Planning, 
        National Security Council, The White House

        Clay Lowery, former Assistant Secretary of Treasury for 
        International Affairs, U.S. Department of the Treasury

        Jeanie Mamo, former Deputy Assistant to the President and 
        Director of Media Affairs, Office of Communications, The White 
        House

        Roman Martinez, former Director for Iraq, National Security 
        Council, The White House

        Ashley Marquis, former Deputy Director, National Economic 
        Council, The White House

        Anita B. McBride, former Assistant to the President and Chief 
        of Staff to the First Lady, The White House

        Donald F. McGahn II, former Counsel to the President, The White 
        House

        Steve McMillin, former Deputy Director, Office of Management 
        and Budget, The White House

        Edward E. McNally, former United States Attorney for the 
        Southern District of Illinois, U.S. Department of Justice

        Dan Meyer, former Assistant to the President for Legislative 
        Affairs, The White House

        Harriet Miers, former Counsel to the President, The White House

        William E. Moschella, former Assistant Attorney General, Office 
        of Legislative Affairs, U.S. Department of Justice

        Michael B. Mukasey, former Attorney General of the United 
        States

        Stephen A. Myrow, former Chief of Staff to the Deputy Secretary 
        of the Treasury, U.S. Department of the Treasury

        Graham O'Donoghue, former Associate Counsel to the President, 
        Office of the Counsel to the President, The White House

        John C. O'Quinn, former Deputy Assistant Attorney General, 
        Civil Division, U.S. Department of Justice

        Matthew G. Olsen, former Director, National Counterterrorism 
        Center

        Elizabeth Papez, former Deputy Assistant Attorney General, 
        Office of Legal Counsel, U.S. Department of Justice

        Neil Patel, former Assistant to the Vice President for Economic 
        and Domestic Policy, The White House

        Jake Phillips, former Senior Counsel to the Deputy Attorney 
        General, U.S. Department of Justice

        Bobby J. Pittman Jr., former Deputy Assistant Secretary for 
        International Finance and Debt, Office of International 
        Affairs, U.S. Department of the Treasury

        Michael S. Piwowar, former Commissioner and Acting Chairman, 
        U.S. Securities and Exchange Commission

        Benjamin A. Powell, former General Counsel, Office of the 
        Director of National Intelligence

        John I. Pray, Jr., former Executive Secretary, National 
        Security Council, The White House

        Daniel M. Price, former Assistant to the President and Deputy 
        National Security Advisor for International Economic Affairs, 
        The White House

        Kristi Remington, former Deputy Assistant Attorney General, 
        Office of Legal Policy, U.S. Department of Justice

        Karl Rove, former Senior Advisor and Deputy Chief of Staff to 
        the President, The White House

        Kyle Sampson, former Chief of Staff, Office of the Attorney 
        General, U.S. Department of Justice

        Schuyler J. Schouten, former Special Assistant to the 
        President, Senior Associate Counsel to the President, and 
        Deputy Legal Advisor, National Security Council, The White 
        House

        Rebecca Seidel, former Deputy Assistant Attorney General, 
        Office of Legislative Affairs, U.S. Department of Justice

        Kristen Silverberg, former United States Ambassador to the 
        European Union, U.S. Department of State

        Luke Sobota, former Attorney-Adviser, Office of Legal Counsel, 
        U.S. Department of Justice

        Charles D. Stimson, former Deputy Assistant Secretary of 
        Defense for Detainee Affairs, U.S. Department of Defense

        Jordan Stoick, former Senior Advisor, Office of Legislative 
        Affairs, U.S. Department of the Treasury

        Chad C. Sweet, former Chief of Staff, Office of the Secretary 
        of Homeland Security, U.S. Department of Homeland Security

        Jeffrey A. Taylor, former United States Attorney for the 
        District of Columbia, U.S. Department of Justice

        Ronald J. Tenpas, former Assistant Attorney General, 
        Environment and Natural Resources Division, U.S. Department of 
        Justice

        Marc A. Thiessen, former Assistant to the President for 
        Speechwriting, The White House

        Tevi Troy, Ph.D., former Deputy Secretary, U.S. Department of 
        Health and Human Services

        Ted Ullyot, former Chief of Staff to the Attorney General, 
        Office of the Attorney General, U.S. Department of Justice

        Kenneth L. Wainstein, former Assistant to the President for 
        Homeland Security and Counterterrorism, The White House

        Matthew C. Waxman, former Deputy Assistant Secretary of Defense 
        for Detainee Affairs, U.S. Department of Defense

        Jared Weinstein, former Special Assistant to the President and 
        Personal Aide, The White House

        Clete Willems, former Deputy Assistant to the President for 
        International Economics and Deputy Director, National Economic 
        Council, The White House

        Alden Wood, former Deputy Chief of Staff, Office of the 
        Secretary of the Treasury, U.S. Department of the Treasury

        Julie Myers Wood, former Assistant Secretary for Immigration 
        and Customs Enforcement, U.S. Department of Homeland Security

        Raul F. Yanes, former Staff Secretary to the President, The 
        White House

        Juan C. Zarate, former Deputy National Security Advisor and 
        Deputy Assistant to the President for Counterterrorism, 
        National Security Council, The White House

                                 ______
                                 
         Prepared Statement of Travis Greaves, Nominated to be 
                 a Judge of the United States Tax Court
    Thank you, Mr. Chairman, Ranking Member Wyden, and distinguished 
members of the committee.

    I am honored and grateful to have been nominated by President Trump 
to be a judge on the U.S. Tax Court, the place where I began my career 
as a tax attorney. I learned early on the important role the Tax Court 
plays in our society, serving as the primary judicial forum for 
taxpayers challenging IRS determinations before paying the disputed 
tax. Most taxpayers appearing in the Tax Court are pro se and have 
little if any legal background. During my time at the court, I saw 
firsthand how daunting appearing in court can be for pro se litigants. 
If I am confirmed, I will make every effort to balance the need to help 
these taxpayers understand the Court's rules and procedures with my 
duty to remain independent and impartial.

    Over my career I have worked on almost every side of a tax 
controversy matter, and I have had the good fortune to learn from many 
great practitioners. As an attorney adviser at the Tax Court, judges, 
including some here today, taught me the importance of keeping an open 
mind in each case and of adjudicating cases in a fair and timely 
manner. If confirmed, these are lessons that I will take with me to the 
bench. In private practice, I worked at firms ranging in size from 
1,500 attorneys to 2 attorneys, and I represented all types of clients. 
No matter the firm or client, I learned something every day from my 
colleagues. I'd like to thank the attorneys at Reed Smith, Caplin and 
Drysdale, and my former law partner Josh Wu for constantly challenging 
me to be a better attorney.

    I now serve in government as Deputy Assistant Attorney General in 
the Department of Justice's Tax Division. In this role, I work with 
dedicated career lawyers and professionals in our Appellate Section and 
Office of Review, as well as with division and departmental leadership. 
It has been a true honor and privilege to work with such an amazing 
group of public servants.

    On a personal note, the Lord has blessed me with amazing family and 
friends, to whom I owe a great deal of gratitude. First, I'd like to 
thank my wife Holly and our children; you have taught me patience, 
humility and compassion. My mother, Jan Fisher Greaves, is the best 
judge I have ever known. She was the first female judge in Ector 
County, TX and the only judge when it came to resolving disputes 
between me and my siblings. To my father Randy, my sisters Amber and 
Shelby, brother Jackson, brother-in-law Clayton, and all my extended 
family, thank you for all your support over the years.

    I look forward to answering the committee's questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Travis Austin Greaves, 
Travis Austin Marshall.

 2.  Position to which nominated: Judge, United States Tax Court.

 3.  Date of nomination: August 28, 2018.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: May 13, 1983, Odessa, Texas.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Name and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        1997-2001, Maryville High School; high school diploma, May 
        2001.

        2001-2005, University of Tennessee; B.A. in communication 
        studies, May 2005.

        2005-2008, South Texas College of Law; J.D., May 2008.

        2008-2009, Georgetown University Law Center; LL.M. in taxation, 
        May 2009.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Fourteenth Court of Appeals for the State of Texas, Houston, 
        Texas; judicial intern (2007).

        Ebanks, Smith, and Carlson, Houston, Texas; summer associate 
        (Summer 2007).

        Fletcher and Springer, Dallas, Texas; summer associate (Summer 
        2007).

        Tax Foundation, Washington, DC; law clerk (2008-2009).

        United States Court of Appeals for the Third Circuit, 
        Wilmington, Delaware; judicial intern (Summer 2009).

        United States Tax Court, Washington, DC; attorney advisor 
        (2009-2011).

        Georgetown University Law Center, Washington, DC; adjunct 
        professor (2010-2015).

        Reed Smith, Falls Church, Virginia; attorney (2011-2013).

        Office of the Louisiana Governor, Baton Rouge, Louisiana; tax 
        policy advisor (2013).

        Caplin and Drysdale, Washington, DC; attorney (2013-2016).

        Greaves Wu, Washington, DC; attorney (2017).

        Department of Justice, Washington, DC; Deputy Assistant 
        Attorney General (2017-present).

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        Office of Congressman John Duncan, Washington, DC; intern 
        (2002).

        Secretary of the United States Senate, Washington, DC; intern 
        (2003).

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partner, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        Greaves Wu LLP, Washington, DC; partner (2017).

        GH Partnership, Washington, DC; limited partner (2016-2018).

        Rodeo Kings, LLC, Washington, DC; sole proprietor (2015-2017).

        Mojo Music Management, Knoxville, TN; sole proprietor (2004-
        2005).

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        American Bar Association Tax Section, vice chair, membership 
        outreach and diversity (2014-2017); Young Lawyers Division 
        liaison (2012-2016); member (2010-2018).

        District of Columbia Bar, member (2010-present).

        Federal Bar Association Tax Section, steering committee (2015-
        2017); vice chair, Annual Tax Conference (2017); member (2015-
        present).

        Federalist Society, member (2014-present).

        J. Edgar Murdock Inns of Court, member (2011-present).

        National Association of Enrolled Agents, member (2016-2017).

        Phi Gamma Delta, liaison to national office (2003-2004); member 
        (2001-present).

        Republican National Lawyers Association, member (2017).

        South Texas College of Law National Security Law Society, 
        president (2007-2006).

        University of Tennessee. Alumni Association, Washington, DC 
        chapter, treasurer (2012-2013); member (2008-present).

        State Bar of Texas, member (2008-present).

        University of Tennessee Student Government Association, member 
        (2004-2005).

        University of Tennessee College of Communications Honor 
        Society, treasurer (2004-2005); member (2004-2005).

        Virginia State Bar, member (2012-present).

        Young Life, leader (2002-2004).

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       Volunteered to assist with phone bank and door-to-door 
campaigning for Jill Homan for RNC Committeewomen (2012).

       Volunteered to assist with campaign phone bank for Romney for 
President (2012).

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior the date of your nomination.

       DC Republican Committee, $175, March 9, 2016.

       Romney for President, $500, October 11, 2011.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        University of Tennessee: Phi Gamma Delta Lincoln Fund 
        Scholarship (approx. 2004); Omicron Delta Kappa National 
        Leadership Society (approx. 2004); Phi Sigma Theta National 
        Honor Society (approx. 2004).

        South Texas College of Law: Graduated cum laude (2008); dean's 
        list (2007-2008); Phi Delta Phi Honor Society (2006-2008); 
        Walker Memorial Mock Trial Competition Finalist (2006).

        Georgetown University Law Center: Graduated with distinction 
        (2009); dean's list (2009).

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published material you have written):

        ``IRS Establishes Small Business/Self-Employed Fast Track 
        Settlement Program,'' Greaves and Wu LLP Blog, March 20, 2017, 
        http://www.jwlawdc.com/fast-track-settlement-program/.

        ``GOP Releases Proposal to Repeal Portions of Affordable Care 
        Act,'' Greaves and Wu LLP Blog, March 6, 2017, http://
        www.jwlawdc.com/gop-proposal-repeal-affordable-care-act/.

        `` `Border Adjustment Tax' Explained,'' Greaves and Wu LLP 
        Blog, February 14, 2011, http://www.jwlawdc.com/border-
        adjustment-tax/.

        ``OMB Memo Clarifies Trump Administration's Executive Order on 
        Reducing Regulations,'' Greaves and WU LLP Blog, February 9, 
        2017, http://www.jwlawdc.com/ombtrumpexecutiveorder/.

        ``As the IRS Prepares to Fight Identity Theft in Filing Season 
        Some Refunds May Be Delayed,'' Greaves Wu LLP Blog, February 3, 
        2017, http://www.jwlawdc.com/irsidentitytheft/.

        ``Swiss Bank Allegedly Violated DOJ Non-Prosecution Agreement; 
        Potential Stiff Penalties,'' Greaves and Wu LLP Blog, February 
        1, 2017, http://www.
        jwlawdc.com/swiss-bank-allegedly-violated-doj-non-prosecution-
        agreement/.

        ``IRS Releases Partnership Audit Regs,'' Greaves and Wu LLP 
        Blog, January 19, 2017, http://www.jwlawdc.com/
        proposedpartnershipregs/.

        ``Tax Claims,'' Court of Federal Claims: Jurisdiction, 
        Practice, and Procedure, Bloomberg BNA, December 2016.

        ``The IRS Is Coming: What Your Partnership Should Do Now to 
        Prepare,'' National Society of Accountants, Main Street 
        Practitioner magazine, November 15, 2016, http://
        mainstreetpractitioner.org/feature/the-irs-is-coming-how-to-
        prepare
        -for-the-new-irs-partnership-audit-rules/.

        ``Tax Section and YLD Join Forces on Day After Tax Day 
        Program,'' American Bar Association Tax Quarterly, July 16, 
        2015, https://www.americanbar.org/content/dama/aba/publishing/
        aba_tax_times/15sum/news-greaves-spotlight-on-young-lawyers-
        day-after-tax-day-nq-summer-2015.authcheckdam.pdf.

        ``Quietly Finding a Home in the Voluntary Disclosure World,'' 
        with T. Joshua Wu, Tax Notes, Volume 148, Number 2, July 13, 
        2015.

        ``Jurisdictional Uncertainty in Trust Fund Recovery Penalty 
        Cases,'' with Charles M. Ruchelman, Tax Notes, p. 963, December 
        16, 2013.

        ``The Rescission Decision,'' Tax Talk, Section of Taxation, 
        Maryland State Bar Association, spring 2013.

        ``Is the Limited Scope Marketed Opinion Preparing for a 
        Comeback?'', Tax Talk, Section of Taxation, Maryland State Bar 
        Association, fall 2012.

        ``Prostitutes, Pet Food, Body Oil, and Other Bizarre Claimed 
        Tax Deductions,'' Tax Foundation Blogpost, September 15, 2009, 
        https://taxfoundation.org/prostitutes-pet-food-body-oil-other-
        bizarre-claimed-tax-deductions/.

        ``Sotomayor Record Indicates Penchant for Protectionist State 
        Tax Policies,'' State Tax Notes, July 20, 2009, https://
        taxfoundation.org/press-release/sotomayor-record-indicates-
        penchant-protectionist-state-tax-policies/.

        ``Justice Souter's Tax Opinions Show Steady Erosion of Respect 
        for Commerce Clause,'' Tax Notes, June 6, 2009, https://
        taxfoundation.org/justice-souters-tax-opinions-show-steady-
        erosion-respect-commerce-clause/.

        ``From the House That Ruth Built to the House the IRS Built,'' 
        Tax Foundation Fiscal Facts, No. 167, April 6, 2009, https://
        taxfoundation.org/house-ruth-built-house-irs-built/.

        ``States Use Gentle Hand in Taxing Timberland,'' Tax Foundation 
        Fiscal Facts, No. 14, March 25, 2009, https://
        taxfoundation.org/states-use-gentle-hand-taxing-timberland/.

        ``Charging Taxpayers for Tax Collection Is a Tax: Weisblat v. 
        City of San Diego,'' Tax Foundation Fiscal Facts, No. 160, 
        February 6, 2009, https://tax
        foundation.org/charging-taxpayers-tax-collection-tax-Weisblat-
        v-city-san-diego/.

        ``Permitting Class Refund Actions Is Key to Effective 
        Challenges of Illegal Taxes: Ardon v. City of Los Angeles,'' 
        Tax Foundation Fiscal Facts, No. 156, November 24, 2008, 
        https://taxfoundation.org/permitting-class-refund-actions-key-
        effective-challeges-illegal-taxes-ardon-v-city-los-angeles/.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates. Provide the committee with one digital copy of each 
formal speech and presentation).

        I have not given any formal speeches; however, I have often 
        participated in bar association panels or continuing education 
        seminars. I do not use prepared remarks, but the discussions 
        are often accompanied by outlines or slide presentations. 
        Attached are digital copies of the slides or outlines, if any, 
        that accompanied the discussions identified below, regardless 
        of authorship.

        Current Developments, American Bar Association Tax Section (May 
        11, 2018).

        Fundamentals of Tax Litigation: Choice of forum, American Bar 
        Association Tax Section (April 13, 2018).

        Current Developments, American Bar Association Tax Section 
        (September 15, 2017).

        New Partnership Audit Rules, 83rd Annual API Federal Tax Forum 
        (April 24, 2017); Petroleum Accountants Society of Houston 
        (February 16, 2017); Virginia Society of CPAs (January 26, 
        2017); CPA Academy (multiple dates 2016-2011).

        Ethics for Tax Lawyers; American Bar Association Tax Section 
        (April 7, 2017).

        Taxing the Sharing and Freelance Economies, CPA Academy (March 
        30, 2017).

        Worker Classification Litigation in the U.S. Tax Court, 
        Maryland State Bar Association Tax Controversy Study Group 
        (March 16, 2017).

        Tax Penalties, Federal Bar Association (March 3, 2017).

        Meeting in the Middle: Offers in Compromise, American Society 
        of Tax Problem Solvers (February 23, 2017); Georgia, 
        Association of Accounting and Tax Professionals (November 11, 
        2016).

        Death and Taxes: Estate Planning Fundamentals for Accountants, 
        CPA Academy (multiples dates 2016-2017).

        Challenging the Tax Man, Part I, CPA Academy (multiple dates 
        2016-2017).

        Challenging the Tax Man, Part II, CPA Academy (multiple dates 
        2016-2017).

        Nuts and Bolts of a Non-Profit Audit, Virginia Society of CPAs 
        (January 31, 2017).

        From Bad to Worse: When Audit Goes Criminal, National 
        Association of Enrolled Agents (January 27, 2017); Independent 
        Association of Accountants of New York (September 14, 2016); 
        Pennsylvania Society of Tax and Accounting Professionals (July 
        29, 2016); CPA Academy (July 6, 2016); San Antonio CPA Society 
        (June 8, 2016); Austin CPA Society (June 7, 2016); CPA Academy 
        (multiple dates 2016-2017).

        Nowhere to Hide: Offshore Tax Filing Requirements, CPA Academy 
        (January 24, 2017).

        Insure Yourself: How the New Captive Insurance Rules Impact 
        Your Clients, CPA Academy (January 13, 2017).

        U.S. Tax Court 101, Clear Law Institute (December 15, 2016); 
        American Bar Association Tax Section (April 16, 2015).

        Challenging IRS Property Valuations, North Carolina Association 
        of CPAs (December 8, 2016).

        Distressed Taxpayers; From Voluntary Disclosure to Bankruptcy, 
        North Carolina Association of CPAs (December 8, 2016).

        Wading Through Murky Waters: How to Successfully Represent Your 
        Client in IRS Collection Matters, Mississippi Society of CPAs 
        (December 1, 2016); American Society of Tax Problem Solvers 
        (November 17, 2016).

        Business Tax Planning Fundamentals for CPAs, Clear Law 
        Institute (November 30, 2016).

        Sensitive Business Audits, Online Compliance Panel (November 
        22, 2016); Compliance Online (October 22, 2016).

        Tax Penalties and Tax Procedures, North Carolina Association of 
        CPAs (November 16, 2016); Georgia Association of Accounting and 
        Tax Professionals (November 11, 2016); California Society of 
        CPAs (November 8, 2016).

        Challenges at the IRS, North Carolina Association of CPAs 
        (November 16, 2016).

        Missed a Tax Election, Now What?, North Carolina Association of 
        CPAs (November 14, 2016).

        Nuts and Bolts of an IRS Audit, Georgia Association of 
        Accounting and Tax Professionals (November 11, 2016); 
        Massachusetts Society of Enrolled Agents (September 22, 2016).

        Offshore Enforcement, California Society of CPAs (November 8, 
        2016).

        IRS Sensitive Audits and Criminal Enforcement, California 
        Society of CPAs (November 8, 2016).

        International Tax Transparency, California Society of CPAs 
        (November 8, 2016); San Francisco Bank Attorneys Association 
        (November 7, 2016).

        Ethical Issues With Respect to Tax Opinions, Clear Law 
        Institute (October 13, 2016); CPA Academy (multiple dates 2016-
        2017).

        Employment Taxes and Criminal Prosecutions, American Bar 
        Association Tax Section (September 30, 2016).

        International Tax Issues Affecting Athletes and Entertainers, 
        American Bar Association Tax Section (September 30, 2016).

        Understanding Stages and Strategies in a Criminal Tax Case, 
        American Academy of Attorney-CPAs (August 3, 2016); Bloomberg 
        BNA Webinar (July 27, 2016); AICPA Webinar (July 19, 2016).

        Federal Tax Updates: How Tax Changes in DC Affect Your Clients, 
        San Antonio CPA Society (August 12, 2016): Austin CPA Society 
        (August 11, 2016); Dallas CPA Society (August 10, 2016); CPA 
        Academy (multiple dates 2016-2017).

        Business Tax Update and Recent Developments, Grand Prairie 
        Chamber of Commerce (August 8, 2016).

        Current Developments in International Tax, American Bar 
        Association Tax Section (February 17, 2016). No slides were 
        used for this presentation.

        When Disaster Strikes: Tax Implications and Relief, Lorman Live 
        Webinar (July 15, 2015).

        Up in Smoke: The Ethical and Tax Implications of the 
        Legalization of Marijuana, American Bar Association Young 
        Lawyers Division (May 15, 2015).

        Hot Topics in International Tax, American Bar Association Tax 
        Section (May 8, 2015).

        Reducing the Client Who Failed to Plan or File the Required 
        Forms, 27th Annual Estate Planning and Real Property Spring 
        Symposia (May 1, 2015).

        The Tough Compliance Issues Associated With Taxing Services, 
        2015 ABA/IPT Advanced Tax Seminar (March 17, 2015).

        Current Developments in International Tax Enforcement, Federal 
        Bar Association Tax Section (February 24, 2014). No slides were 
        used for this presentation.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        My deep experience in tax controversy, including working with 
        and observing the U.S. Tax Court in both government and private 
        practice, make me qualified to serve on the bench. In my roles 
        as Deputy Assistant Attorney General at the Department of 
        Justice, Attorney Advisor at the U.S. Tax Court, and private 
        practitioner, I have been involved in over 50 cases before the 
        U.S. Tax Court, Federal district courts, and courts of appeal. 
        As Deputy Assistant Attorney General, I supervise the largest 
        single section in the Tax Division and oversee all Federal tax 
        appeals, including those from the U.S. Tax Court. This position 
        has taught me how to manage both numerous cases of varying 
        complexity as well as competing views of interested parties, a 
        skill that I believe is necessary for any judge. In my role as 
        Attorney Advisor at the U.S. Tax Court, I was involved in all 
        daily office matters, observed trials, and drafted opinions. I 
        learned first-hand the intricacies of the U.S. Tax Court from 
        pre-trial discovery to briefing, as well as the important role 
        that the Court plays in providing taxpayers a pre-payment forum 
        for challenging tax disputes.

        I also spent many years in private practice, where I advised 
        clients involved in civil and criminal tax controversies. I 
        gained valuable experience on IRS administrative matters and 
        represented clients in litigation in different Federal courts. 
        My clients consisted of individuals and businesses from across 
        the country and from all types of backgrounds. No matter the 
        client or issue, I learned how important it is for government 
        agencies and courts to provide taxpayers with fair and 
        impartial decisions expeditiously. If confirmed, these are 
        lessons that I will take with me to the bench.

        I also lecture on significant and often-litigated tax issues. I 
        spent several years as an adjunct professor at Georgetown 
        University Law Center, where my courses focused on tax 
        penalties and tax opinions. In addition, I speak to tax 
        professional organizations across the country on substantive 
        and procedural tax issues. I have also been active in the tax 
        bar, holding leadership positions with both the American Bar 
        Association Tax Section and Federal Bar Association Tax 
        Section. Through these activities and engagements, I have 
        gained a greater understanding for the concerns and challenges 
        faced by taxpayers and their return preparers as they seek to 
        comply with tax laws.

        In sum, these experiences have taught me the skills and 
        instilled in me the temperament necessary to serve as a U.S. 
        Tax Court judge, if confirmed.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations, if you are confirmed by the Senate? If 
not, provide details.

        Yes; however, I anticipate holding passive investments and 
        maintaining an active membership in bar and legal associations, 
        and I will ensure that these relationships are permissible 
        under the rules of the U.S. Court, the Code of Conduct for 
        United States Judges, and 28 U.S.C. sec. 455.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        None; however; I have represented clients in tax matters that 
        could potentially be brought to the U.S. Tax Court. If this 
        were to occur, I would take whatever steps were necessary or 
        appropriate under the rules of the U.S. Tax Court, the Code of 
        Conduct for United States Judges, or 28 U.S.C. sec. 455, to 
        resolve the conflict, including recusal.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        None. In addition, please see the response to Question C.1.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
Government need not be listed.

        As the Tax and Economic Policy Advisor to Louisiana Governor 
        Bobby Jindal, I advocated for bills in the Louisiana State 
        legislature that the Governor supported.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        I will take whatever steps are necessary or appropriate under 
        the rules of the U.S. Tax Court, the Code of Conduct for United 
        States Judges, or 28 U.S.C. sec. 455, to resolve any potential 
        conflict of interest, including recusal.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        See Ethics Disclosure (Financial Disclosure Report).

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
          Questions Submitted for the Record to Travis Greaves
               Questions Submitted by Hon. Maria Cantwell
                           pro se plaintiffs
    Question. If confirmed as a judge to the United States Tax Court, 
you will be responsible for resolving difficult tax controversies 
brought before you--in large and small cases. Judges for the U.S. Tax 
Court travel around the country and hear cases in 75 cities.

    Oftentimes, volunteer tax practitioners provide assistance to 
unrepresented taxpayers as they navigate the process of petitioning the 
IRS. These cases are often brought by small businesses, innocent 
spouses, or low-income taxpayers.

    As a judge for the U.S. Tax Court, what role would play to ensure 
that cases for pro se plaintiffs are being adjudicated in a fair and 
timely manner?

    Answer. I believe that all parties, taxpayers and the government, 
should be treated with courtesy and respect, and that judges should act 
promptly in addressing issues brought before the Court. From my 
experience working at the U.S. Tax Court and from my time representing 
clients pro bono in private practice, I know that many litigants and 
witnesses lack any experience litigating cases, much less tax 
litigation experience. If confirmed, I would ensure that such litigants 
are made aware the various resources at the website of the Tax Court 
and of pro bono services both pretrial and at calendar call, and I 
would also take the time to explain to them the general rules and 
procedures of the court, many of which are designed with pro se 
litigants in mind. I would also assure them that I intend to keep an 
open mind, attentive to each parties' arguments, and work diligently to 
apply the laws enacted by Congress to the facts established in the 
case.
                              new tax law
    Question. If confirmed as a judge to the United States Tax Court, 
you will be responsible for interpreting how our tax laws apply to a 
wide variety of plaintiffs--everything from multinational corporations 
with large legal teams to small businesses and individuals who appear 
before court without counsel.

    As the Internal Revenue Service continues to review and publish new 
regulations implementing the 2017 tax bill, differences are emerging 
regarding the interpretation of these tax provisions.

    Some of these issues may result in future litigation, and the Tax 
Court will be in a unique position to help settle interpretation of 
many issues arising from the 2017 tax bill.

    As a judge for the U.S. Tax Court, what role would you give to 
legislative intent, conference report language, or statements from 
members as you interpret and apply the previously unlitigated tax law?

    Answer. If confirmed as a U.S. Tax Court judge, I would look to the 
written statute and rely upon the traditional tools of statutory 
construction. Moreover, I would follow Supreme Court and circuit court 
precedent on the role agency guidance and legislative history should 
play in statutory interpretation.

                                 ______
                                 
                  Question Submitted by Hon. Ron Wyden
                        tax court qualifications
    Question. When the Finance Committee receives a nomination for the 
U.S. Tax Court, it typically receives a recommendation letter from the 
Tax Section of the American Bar Association--and with respect to your 
nomination, we did not receive such a letter.

    Though not alarming, it does stand out as past nominees for the Tax 
Court have substantial amounts of both tax and litigation experience, 
including a letter from the ABA stating they are well-qualified for a 
15-year term.

    Could you please explain for the record why you believe your 
experience in tax law is sufficient for this nomination?

    Answer. For more than a decade I have worked in the tax controversy 
space, including as an attorney adviser at the U.S. Tax Court, private 
practitioner, adjunct law professor at Georgetown University Law 
Center, and now as Deputy Assistant Attorney General overseeing all 
appeals from the U.S. Tax Court. Over this period of time I have been 
involved in more than 100 cases before the U.S. Tax Court, Federal 
district courts, courts of appeal, and U.S. Supreme Court. As Deputy 
Assistant Attorney General, a position previously held by three current 
U.S. Tax Court judges, I supervise the largest single section in the 
Tax Division. This position has taught me how to manage both numerous 
cases of varying complexity as well as competing views of interested 
parties, a skill that I believe is necessary for any judge. In my role 
as an attorney adviser at the U.S. Tax Court, I was involved in all 
daily office matters, observed trials, and drafted opinions. I learned 
first-hand the intricacies of the U.S. Tax Court from pre-trial 
discovery to briefing, as well as the important role that the Court 
plays in providing taxpayers a pre-payment forum for challenging tax 
disputes.

    I also spent many years in private practice, where I advised 
clients involved in civil and criminal tax controversies. I gained 
valuable experience on IRS administrative matters and represented 
clients in litigation in different Federal courts. My clients consisted 
of individuals and businesses from across the country and from all 
types of backgrounds. No matter the client or issue, I learned how 
important it is for government agencies and courts to provide taxpayers 
with fair and impartial decisions expeditiously. If confirmed, these 
are lessons that I will take with me to the bench.

    I also lecture on significant and often-litigated tax issues. I 
served as an adjunct professor at Georgetown University Law Center, 
where my courses focused on tax penalties and tax opinions. In 
addition, I speak to tax professional organizations across the country 
on substantive and procedural tax issues. Through these activities and 
engagements, I have gained a greater understanding for the concerns and 
challenges faced by taxpayers and their return preparers as they seek 
to comply with tax laws. The sum of these experiences have taught me 
the skills and instilled in me the temperament necessary to serve as a 
U.S. Tax Court judge, if confirmed.

                                 ______
                                 
              Prepared Statement of Hon. Mitch McConnell, 
                      a U.S. Senator From Kentucky
    Chairman Grassley, Ranking Member Wyden, fellow Senators, thank you 
for allowing me to join you today. This is actually somewhat of a rare 
occasion for me: I'm introducing a nominee who isn't from the great 
Commonwealth of Kentucky. His loss.

    Nevertheless, I could hardly be a bigger fan of Brian McGuire, the 
President's nominee for Deputy Under Secretary of the Treasury for 
Legislative Affairs, to be designated as Assistant Secretary for 
Legislative Affairs.

    I first met Brian in 2007 when I was interviewing prospective 
speechwriters. A resume crossed my desk: a son of Albany, NY with a 
background in newspaper journalism.

    Perhaps not ``central casting'' for the staff of a newly chosen 
Republican leader from Kentucky. But--as my distinguished colleagues 
either already know or are about to find out--you can't help but be 
impressed by Brian McGuire.

    Brian served my office with excellence for 10 years. First he 
proved his skills and savvy as my speechwriter. He combined a 
sophisticated understanding of policy with a knack for making it 
understandable.

    Then I asked him to take his talents to the Russell Building and 
serve as chief of staff in my personal office. He ran the whole 
operation, and he did a great job. He got along with everybody. He 
built coalitions. He got results for Kentuckians.

    Now, I know you aren't focused on the years of service that Brian 
rendered to me and my constituents. You're focused on what kind of 
service he will render, to our Nation, at the Treasury Department.

    Well, take it from me, this is not somebody who will let you down.

    Brian commands a big-time intellect, a truckload of integrity, 
dedication, and a dogged work ethic.

    At this point in his career, Brian brings the perspective of a 
seasoned public servant to his work. After my office, he worked in the 
private sector and now serves as Counselor to Secretary Mnuchin.

    But all this experience has not brought even a hint of complacency. 
The intensity, the focus, and the drive to serve are there every single 
day.

    As far as I've seen, there are only two things Brian takes more 
seriously than work: his faith and his lovely family.

    I know Brian's proud to have his wife Ashley here today; their 
oldest daughter Stella; his parents, David and Veronica; and Brian's 
older sister Annemarie.

    The post to which Brian has been nominated is a big job. Its being 
done well is vital not only for the smooth functioning of Treasury, but 
also for Congress's ability to fulfill our own responsibilities--to 
conduct oversight and advocate for our constituents.

    Bridges need to be built. Channels of communication need to remain 
open. So this is a key position.

    Secretary Mnuchin and the President must really like what they've 
seen from Brian since he joined the Department to tap him for this 
promotion. And I can't say I'm even a little surprised.

    I'm confident the members of this committee will find Brian a 
highly capable nominee--and a helpful, reliable team player and an 
asset to everyone once he's on the job.

                                 ______
                                 
    Prepared Statement of Brian McGuire, Nominated to be Assistant 
     Secretary for Legislative Affairs, Department of the Treasury
    Chairman Grassley, Ranking Member Wyden, distinguished members of 
the committee, I am honored to appear before you this morning and 
grateful to the President and to Treasury Secretary Mnuchin for 
recommending me for the position of Assistant Secretary for Legislative 
Affairs.

    I am conscious as I sit here of the great responsibility and 
privilege that being nominated for this position represents. And I am 
humbled to stand in the company of those who have served in this role 
before me.

    I am grateful to be joined this morning by my parents, David and 
Veronica McGuire, who made the trip from Albany, NY to be here. Without 
their generous support and example of service, I would not be sitting 
here today.

    My father moved to Capitol Hill after graduating from college in 
1958, but almost immediately returned home at the urging of his older 
brother to, quote, get a real job. He went on to spend nearly 4 decades 
as a public middle and high school principal in Albany, NY. I often 
reflect that I am living vicariously the life he dreamed of when he 
moved here 61 summers ago. My mother, meanwhile, spent nearly 3 decades 
working full-time as a secretary at Albany's only VA hospital. True 
partners, together they raised four children on a tight budget, making 
many sacrifices along the way for each of us. They will be married 55 
years next month.

    I am also grateful to be joined by my big sister Annemarie, who 
also made the trip from Albany; the oldest of my three children, 
Stella, who's playing hooky from music camp to get a civics lesson this 
morning; and by my wife Ashley, an author and native Coloradan, whose 
encouragement and many sacrifices have made it possible for me to 
consider a return to public service.

    I would like to take a moment to thank the Senators and staff who 
have given of their time to meet with me in preparation for today's 
hearing, and to share with me their priorities and concerns. If I am 
fortunate enough to be confirmed, I pledge to continue the dialogue we 
have begun, and to be as available and responsive to members and staff 
from both parties in both chambers as I can possibly be.

    As a former Senate staffer, I believe I am uniquely alert to the 
perspective, the demands, and the deadlines of Senators and their 
staffs, and I commit to you this morning that, if confirmed, my door, 
and my mind, will always be open. It is my sincere intention, if 
confirmed, to spend far more time listening than talking, and to be an 
accessible and dependable source of prompt and honest feedback.

    In reflecting on the decade I spent working in both the Senate 
Republican leadership office and in the personal office of Leader 
McConnell, I can't help but acknowledge the debt I owe to him. I 
cherish the memory of my years in both offices and am grateful for the 
mentorship and the opportunities that Leader McConnell gave to this 
native New Yorker in the midst of so many other pressing 
responsibilities.

    Treasury is a special place with a storied past and vital role in 
ensuring the growth and stability of an increasingly complex domestic 
economy; in reinforcing our Nation's central role in the international 
financial system; and, crucially, in developing and aggressively 
implementing complex policies and strategies to combat terrorist 
financing and financial crimes both here and around the globe.

    I have long admired the work of the Department and the many 
remarkable career and non-career professionals who have carried out 
this complicated work and who have brought their creativity to bear on 
the various crises and challenges of our day. As a graduate student in 
Manhattan in 2001, I watched as Treasury grappled with the post-9/11 
order; and as a Senate staffer in 2008, I watched from a slightly 
closer vantage point as Treasury wrestled with a terrible financial 
crisis that few saw coming.

    If confirmed, I cannot promise to bring the same intellectual gifts 
as many of these heroic public servants. But I pledge to bring the same 
seriousness and sense of purpose to my job that so many others have 
brought to the Department before me. Thank you again for your 
consideration. I look forward to your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name: Brian Thomas McGuire.

 2.  Position to which nominated: Deputy Under Secretary, designated 
Assistant Secretary for Legislative Affairs.

 3.  Date of nomination: February 25, 2019.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: December 9, 1974, Albany, NY.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Columbia University, April 2001-August 2002, masters in 
        journalism received February 2006; University of Dallas; August 
        1996-March 1999, masters in philosophy received May 2000; St. 
        John's College, Annapolis, August 1992-May 1996, bachelors in 
        liberal arts received May 1996; Albany High School, August 
        1988-June 1992, diploma received June 1992.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Counselor for Legislative Affairs, U.S. Treasury; Washington, 
        DC, 2019. Advise Treasury Secretary on Legislative Affairs.

        Policy Director, Brownstein Hyatt Farber Schreck; Washington, 
        DC, 2017-2019. Advised clients on legislative matters before 
        Congress.

        Chief of Staff, U.S. Senator Mitch McConnell; Washington, DC, 
        2014-2017. Managed Senator McConnell's personal office; oversaw 
        legislative and communications effort, as well as constituent 
        service.

        Acting Staff Director, U.S. Senate Republican Communications 
        Center; Washington, DC, 2014. Managed communications staff for 
        Senate Republican leadership office.

        Consultant, National Republican Senatorial Committee (NRSC); 
        Scottsdale, AZ, 2012. Helped oversee communications strategy 
        for Jeff Flake for Senate campaign.

        Deputy Communications Director, Senator Mitch McConnell; 
        Washington, DC, 2009-2014. Helped oversee communications for 
        Senate Republican leadership office.

        Chief Speechwriter, Senator Mitch McConnell; Washington, DC, 
        2007-2014. Oversaw and drafted speeches, op-eds, and other 
        written communications.

        Chief Speechwriter, Secretary of Housing and Urban Development; 
        Washington, DC, 2006. Oversaw speechwriting for Secretary 
        Alphonso Jackson.

        Reporter, The New York Sun; Albany, NY and Washington, DC, 
        2005-2006. Reported on New York State and Washington, DC 
        politics and wrote a weekly opinion column.

        Business Reporter, The Daily Gazette; Schenectady, NY, 2002-
        2005. Reported on local and regional business.

        Temporary work, various employers; Albany, NY, 2002-2002, 
        Performed manual labor at various local businesses on a 
        temporary basis while looking for work as a reporter.

        Office assistant, Scepter Publishers; Princeton, NJ, 2002-2002. 
        Performed clerical work and data entry while in graduate 
        school.

        Staff reporter, National Catholic Register; Hamden, CT, 1999-
        2001. Reported on national stories of general interest to 
        subscribers of this Catholic weekly.

        Office assistant, Spence Publishing; Dallas, TX, 1998-1999. 
        Assisted with clerical work and shipping fulfillment.

        Waiter, Treaty of Paris Restaurant; Annapolis, MD, 1996-1996. 
        Waited and bussed tables.

        Sales, Long Fence and Home; Annapolis, MD, 1996-1996. Door-to-
        door salesman during summer after college graduation.

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        All positions listed above.

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partner, non-
voting; etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        All relationships listed above.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        Cleveland Park Club, member; 2018 present.

        Kentucky Business Council, member; 2017-present.

        116 Club, member; 2014-present.

        Churchill Society, former member; 2015-2016.

        New York State Society, former member; 2008-2009.

        Knights of Columbus, former member; 1993-1996.

        National Trust for Historic Preservation, former member; 1996-
        1997.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       Consultant, National Republican Senatorial Committee, 
Washington, DC, 2012.

       Speaker, National Republican Senatorial Committee. Spoke pro 
bono three times to campaign officials at the NRSC in the 2012-2014 and 
2014-2015 election cycles.

       Volunteer, McConnell for Senate campaign, 2014.

       Blackburn for Senate Campaign, 2018.

       Steering Committee member; Blackburn for Senate, 2016-2018.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.

       Please find below all contributions attributed to the nominee in 
the FEC database as of May 16, 2019. The nominee did not keep his own 
records of his political contributions but believes this is a complete 
list of all political contributions of $50 or more that he made in the 
past 10 years.


 
        Recipient                 Amount                   Date
 
BHFS PAC                  $416.66                 12/28/2018
 
BHFS PAC                  $416.66                 11/30/2018
 
BHFS PAC                  $416.66                 10/31/2018
 
NRSC                      $1,250                  10/5/2018
 
BHFS PAC                  $416.66                 9/28/2018
 
BHFS PAC                  $416.66                 8/31/2016
 
Marsha for Senate         $2,700                  8/24/2018
 
Friends of John Barrasso  $250                    8/1/2018
 
TENN PAC                  $500                    7/31/2018
 
BHFS PAC                  $416.36                 7/31/2018
 
NRSC                      $1,250                  7/10/2018
 
BHFS PAC                  $416.66                 6/29/2018
 
Braun for Senate          $1,000                  6/26/2018
 
BHFS PAC                  $416.66                 5/31/2018
 
BHFS PAC                  $416.66                 4/30/2018
 
NRSC                      $1,250                  4/26/2018
 
Scott for Senate          $1,000                  4/25/2018
 
BHFS PAC                  $416.66                 3/30/2018
 
BHFS PAC                  $416.66                 2/28/2018
 
NRSC                      $1,250                  1/31/2018
 
BHFS PAC                  $416.66                 1/31/2018
 
BHFS PAC                  $416.06                 12/29/2017
 
BHFS PAC                  $416.66                 11/30/2017
 
BHFS PAC                  $416.66                 10/31/2017
 
BHFS PAC                  $416.66                 9/29/2017
 
BHFS PAC                  $416.66                 8/31/2017
 
Scalise Leadership Fund   $250                    8/2/2017
 
Brady for Congress        $1,000                  3/26/2018
 
Friends of John Barrasso  $1,000                  2/28/2018
 
Marsha for Senate         $2,700                  12/29/2017
 
McConnell for Senate      $1,650                  12/06/2017
 
Heller for Senate         $1,000                  11/03/2017
 
Deb Fischer for Senate    $500                    9/15/2017
 
McConnell tor Senate      $2,500                  9/11/2017
 
Gillespie for Governor    $1,000                  9/11/2017
 
BHFS PAC                  $416.66                 8/31/2017
 
Scalise for Congress      $250                    7/24/2017
 
Strange for Senate        $1,250                  7/24/2017
 
McConnell for Senate      $1,250                  7/24/2017
 
Romney for President      $500                    10/19/2012
 


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        Honorary Kentucky Colonel.

        Honorary Duke of Hazard.

        National Review Institute, fellow.

        Heritage Foundation congressional fellow.

        Catholic Press Association, second place, best feature article.

        Elected class day speaker, St. John's College, Annapolis.

        University of Dallas; Institute for Philosophical Studies, 
        tuition scholarship.

15.  Published writings (list the titles, publishers, dates and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        In my previous career as a reporter, my reporting appeared in 
        three publications: The New York Sun, The Daily Gazette in 
        Schenectady, NY, and the National Catholic Register in Hamden, 
        CT.

        At the Sun, my reporting primarily covered State and, to some 
        extent, national politics. At least some of this is available 
        at following link, https://www.nysun.com/authors/Brian+McGuire.

        At the Gazette, my reporting covered local and regional 
        business issues almost exclusively. The Gazette does not appear 
        to maintain an archive for that time period.

        At the Register, my reporting covered a variety of topics of 
        general interest to the paper's subscribers. I do not have 
        those articles, but at least some of my articles appear on the 
        publication's website. I also wrote two articles on a freelance 
        basis after leaving the Register, http://www.ncregister.com.

        At the Sun, I also wrote opinion columns, all of which are 
        listed below. These do not appear to be available on the 
        publication's website.


 
                 Title                                 Date
 
    An Exit Strategy for Pataki          January 24, 2005
    Embarrassment for the MTA            February 7, 2005
    Lifting the Cap                      February 14, 2005
    The Legality of Empire Zones         February 22, 2005
    The National Conversation and Local  February 28, 2005
     Labor
    New York's Stem Cell Misstep         March 7, 2005
    Morningside and its Money            March 14, 2005
    Losing Choices                       March 14, 2005
    Charging Away in Albany              March 21, 2005
    New Tax Code Will Boost State        March 28, 2005
     Business
    Why the State Budget Was On Time     April 7, 2005
    Union Made Stadium                   April 11, 2005
    Pataki Meets the Budget Gap          April 18, 2005
    Advancing a Spitzer-proof Budget     April 25, 2005
    How to Pick a Governor               May 2, 2005
    Trial Lawyers Come to Albany         May 9, 2005
    GOP Likes Lazio for State A.G.       May 16, 2005
    Bruno, Silver Call Time-Out on       March 3, 2005
     Stadium
    Bloomberg for Governor               June 6, 2005
    A Dickensian View of Mr. Spitzer     June 13, 2005
    Another Albany Power Broker          June 20, 2005
    Hevesi's Heft in Albany              June 27, 2005
    Schumer on the Sidelines             July 7, 2005
    Hamilton's Lessons for Pataki        July 11, 2005
    Edward Cox Takes on Mrs. Clinton     July 25, 2005
    Pataki's Party on the Ropes          August 1, 2005
    Spitzer's Dean Streak                August 8, 2005
    Weld's Flash                         August 22, 2005
    Clinton's Campaign of Silence        August 15, 2005
    Democrats Line Up Behind Dean        September 26, 2005
    Bush's Next High Court Nominee       September 19, 2005
    Democrats' Supreme Adviser           October 10, 2005
    Governor Bredesen's Advantage        October 3, 2005
    Ready, Aim, Miers                    October 18, 2005
    Redacting Barrett                    January 16, 2005
 


        One of my graduate school classes at Columbia University hosted 
        a blog titled ``Finding Faith'' about a class trip to the 
        former Soviet Union for which I wrote two online feature 
        stories. These do not appear to be available online.


 
                 Title                                 Date
 
    Notes From Underground               March 22, 2002
    Russia's Past Present                April 26, 2002
 


        As a student at Columbia and shortly after, I wrote four 
        articles for The Wall Street Journal. These do not appear to be 
        available on the publications website.

 
                 Title                                 Date
 
    A Church in the Limelight            March 22, 2002
    Don't Call it a Religion!            May 17, 2002
    My Summer School                     July 19, 2002
    Play, Win, Give                      January 10, 2003
 


        My previous employer, Brownstein Hyatt Farber Schreck, self-
        published and distributed a piece of political analysis I co-
        authored with a colleague on the 2018 midterm elections titled 
        ``The Day After the Midterms'' and dated November 7, 2018, 
        https://www.bhfs.com/insights/alerts-articles/2018/the-day-
        after-the-midterms-post---election-analysis-outlook.

        I have published one opinion piece since 2005 which is titled 
        ``Humility, Good of the GOP, Underpin McConnell Milestone'' and 
        appeared in RealClearPolitics on June 12, 2018, https://
        www.realclearpolitics.com/articles/2018/06/12/
        humility_good_of_the_gop_underpin_mcconnell_milestone_137256.htm
        l.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates. Provide the committee with one digital copy of each 
formal speech and presentation):

        Since my departure from the U.S. Senate in May 2017, I have 
        given no formal speeches.

        I spoke to the Republican Women's Federal Forum in November 
        2018. I do not have a copy of my remarks.

        I have made four political presentations to various client 
        groups, per below. I do not have the PowerPoint slides 
        referenced below, all of which were political in nature.

        Presentation on midterm election for members of the U.S. Travel 
        Association; Washington, DC, November 2018.

        Presentation on midterm election for clients, with Drew 
        Littman; Las Vegas, NV and Los Angeles California; August 16-
        18, 2018.

        Presentation on midterm election with Elizabeth Gore for Denver 
        Water Conference; Denver, CO; Fall 2017.

        Presentation on Political State-of-Play with Drew Littman; 
        Denver; CO; August 17, 2017.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I believe my decade of work in the U.S. Senate Republican 
        leadership office, the Senate Minority Leader's ``personal'' 
        office has prepared me to serve as Assistant Secretary for 
        Legislative Affairs. As a chief of staff, I worked diligently 
        to understand and prioritize the immediate and long-term 
        concerns of constituents and helped our legislative team to do 
        the same. Identifying and seizing opportunities to advance 
        legislative or regulatory solutions to some of these concerns 
        was the highest priority for my office and something we prided 
        ourselves on doing well. Whether it was working with U.S. 
        embassies overseas to help unite parents with their adoptive 
        children in foreign countries; helping retired mine workers 
        secure medical benefits they had worked hard for and deserved; 
        or helping small and large businesses in Kentucky secure more 
        favorable tax treatment that enabled them to invest in the 
        State and its workers, my role was to be open to the concerns 
        and criticisms of our constituents, exercise judgement in 
        evaluating and prioritizing legislative solutions, and working 
        with all parties on both sides of the aisle in the House and 
        Senate to drive legislative outcomes that were achievable. I 
        view the position to which I have been nominated similarly in 
        the sense that it has important internal and external facing 
        components, both aimed at achieving favorable results for 
        taxpayers and the government those taxpayers have elected to 
        serve them.

        The Secretary of the Treasury has a complex and vital role to 
        play in ensuring that the needs and concerns of the various 
        agencies he oversees as well as the taxpayers he serves are 
        heard and understood on Capitol Hill. He also has a vital role 
        to play in ensuring the safety and stability of our complex 
        domestic and international financial and banking system, and a 
        key responsibility for helping ensure our Nation's national 
        security by identifying and acting on illicit terrorist 
        financing networks. I would view it as my solemn duty to ensure 
        that lines of communication in all these areas are open, fluid, 
        and effective in advancing sound policy through the relevant 
        congressional committees, leadership offices, and among 
        interested rank and file members on both sides of the aisle in 
        both houses of Congress. Another high priority is ensuring that 
        the Treasury Secretary has all the best information and input 
        from relevant committee members in both parties from both 
        chambers as well. Playing the role of an intermediary and 
        advisor whose daily goal is to ensure smooth and productive 
        relations between the Hill and Treasury is a responsibility my 
        current and previous jobs have prepared me for very well, and 
        one I would be honored and privileged to carry out.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firm, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        I am currently employed at the Department of the Treasury. Note 
        that consistent with government ethics rules, I continue to 
        maintain a 401(k) from one former private employer, Brownstein 
        Hyatt Farber Schreck, as disclosed on Form 278, but do not 
        accrue any benefits under this plan following my resignation 
        from the firm.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? It 
so, provide details,

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        My family situation will dictate how long I am able to serve in 
        this role.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by a letter to Brian Sonfield, Designated Ethics 
        Official and Assistant General Counsel for General Law, Ethics, 
        and Regulation. Should any potential conflict arise in the 
        future, I will seek guidance from a Treasury ethics official.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by a letter to Brian Sonfield, Designated Ethics 
        Official and Assistant General Counsel for General Law, Ethics, 
        and Regulation. Should any potential conflict arise in the 
        future, I will seek guidance from a Treasury ethics official.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
Government need not be listed.

        I represented Abbvie Pharmaceuticals before the Department of 
        Homeland Security and the Executive Office of the President on 
        issues related to pharmaceutical manufacturing on the island of 
        Puerto Rico.

        I represented the Alvin Ailey American Dance Theater Foundation 
        on a pro bono basis before the U.S. Department of Education in 
        its efforts to maintain accreditation for a proprietary degree-
        granting course of studies at Fordham University.

        I represented Amgen Pharmaceuticals before the U.S. Senate in 
        relation to the 340B Drug Discount Program and drug pricing 
        more generally.

        I represented Assicurazioni Generali before the Senate in 
        opposition to the Holocaust Insurance Accountability Act (S. 
        258).

        I represented Athene Holding before the Senate, Treasury, and 
        IRS in support of the BEAT provision of the Tax Cuts and Jobs 
        Act (H.R. 1).

        I represented Blue Cross Blue Shield before the Executive 
        Office of the President in relation to Cost Sharing Reduction 
        (CSR).

        I represented the Consumer Healthcare Products Association 
        before the House in support of the DXM Abuse Prevention Act of 
        2017 (H.R. 1271).

        I represented Early Learning Ventures before the Executive 
        Office of the President in support of greater support for early 
        childhood education through the tax code.

        I represented Edison International before the Department of 
        Transportation and the Executive Office of the President in 
        relation to an Environmental Protection Agency CAFE waiver for 
        the State of California.

        I represented FedEx Corporation before the House, Senate, 
        Executive Office of the President, Treasury, Department of 
        Transportation, and Executive Office of the Vice President in 
        support of existing Open Skies agreements; the House, Senate, 
        and Department of Transportation in support of a 
        reauthorization of the Federal Aviation Administration 
        reauthorization bill; and the Department of Transportation in 
        support of Federal approval of Twin 33, trailers.

        I represented Freeport LNG before the Federal Energy Regulatory 
        Commission in support of permitting for the final train of 
        their natural gas liquefaction facility in Brazos, TX.

        I represented Jackson Family Wines before the Senate in support 
        of revising the H-2A visa program to cover workers on horse 
        farms (S. 1578), and in support of H.R. 5971 which would set 
        aside acreage in Sonoma, California for the Lytton Tribe of 
        Native Americans.

        I represented The Jockey Club before the House and Senate in 
        support of the Horse racing Integrity Act (H.R. 2651).

        I represented The Northeast Maglev before the Senate, Commerce 
        Department, and the U.S. Department of Transportation in 
        support of its effort to secure Federal funding for a high-
        speed train.

        I represented Ligado Networks before the Department of 
        Transportation to support Ligado's application for spectrum 
        approval.

        I represented Liggett/Vector brands before the Senate in 
        support of modifications to the Cole-Bishop Amendment to H.R. 
        3268, the Agriculture and Rural Development Appropriations 
        Bill.

        I represented Lightstone before the U.S. Department of 
        Transportation in support of a BUILD grant application for an 
        infrastructure project related to a residential development in 
        Coachella, California (La Entrada).

        I represented Merrill Law on behalf of Soaren Management before 
        the U.S. House of Representatives in its efforts to establish/
        maintain a call center on tribal land.

        I represented McDonalds before the U.S. Senate in relation to 
        National Labor Relations Board decisions related to franchisee 
        model.

        I represented the National Cable and Telecommunication 
        Association in opposition to a Congressional Review Act 
        resolution of disapproval related to ``Net Neutrality'' and in 
        support of broadband language included in the Senate version of 
        the Farm Bill (H.R. 2).

        I represented the National Collegiate Athletic Association 
        before the U.S. Senate in relation to its concerns about the 
        impact of sports wagering on collegiate athletics.

        I represented the Patients Rights Action Fund in support of a 
        resolution, H. Con. Res. 80, expressing the sense of the 
        Congress that assisted suicide puts vulnerable citizens at 
        risk.

        I represented RELX Inc. in support of a delay in the public 
        release of its scientific publications and in support of its 
        effort to introduction of the Federal Aviation Administration 
        to its aviation research offerings.

        I represented SafeRx before the Executive Office of the 
        President in its efforts to promote an innovative, lockable 
        storage container for prescription drugs.

        I represented Synack, a Palo-Alto, California-based 
        cybersecurity firm, before several Federal agencies, including 
        the Department of Treasury, with the goal of helping Synack 
        obtain cybersecurity work, and in support of modifications to 
        S. 1761, the Intelligence Authorization Act of 2018, that would 
        limit the use of ``bug bounty'' programs to firms that vet and 
        monitor ethical hackers used to test U.S. systems.

        I represented the U.S. Travel Association before the House and 
        Senate and Office of Management and Budget in support of 
        reauthorizing Brand USA.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by a letter to Brian Sonfield, Designated Ethics 
        Official and Assistant General Counsel for General Law, Ethics, 
        and Regulation. Should any potential conflict arise in the 
        future, I will seek guidance from a Treasury ethics official.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's Office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than minor traffic offense? 
If so, provide details.

        No.

 5.  Please advise the committee or any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
Prepared Statement of Hon. Brent James McIntosh, Nominated to be Under 
    Secretary for International Affairs, Department of the Treasury
    Chairman Grassley, Ranking Member Wyden, and members of the 
committee, thank you for the opportunity to appear before you today. I 
am honored to be the President's nominee to be Under Secretary of the 
Treasury for International Affairs, and I am grateful to the Secretary 
for his confidence in recommending me for this position.

    Before proceeding, I would like to take a moment to acknowledge my 
family here with me today: my beloved wife of 18 years, Laura, who 
graces my life; as well as my parents Carl and Shirley McIntosh, who 
have always brought a quiet ethic of community service to all they do. 
Both of my parents grew up on farms in the thumb of Michigan, and they 
have driven in from that great State for today's hearing. My wonderful 
children, Mia, Rhys, and Ethan, could not be here today, as they are 
enjoying summer camps in New England.

    As Treasury's General Counsel for the past 2 years, I have 
appreciated the opportunity to work with many of you and your staffs. 
Since being nominated to be Under Secretary, I have met with several of 
you, and I am grateful for the courtesies you afforded me in those 
meetings. I take seriously the priorities that committee members 
outlined during our visits, and those meetings only reinforced to me 
the importance of a close working relationship with the Congress. Over 
the past 2 years, I have endeavored to foster that relationship, and I 
look forward to working with you and your staffs to strengthen and 
deepen it, should I be confirmed as Under Secretary.

    When I appeared here 2 years ago, I observed that the challenges 
Treasury confronts are daunting in both breadth and complexity. My 
service as General Counsel has driven home just how true that is. It 
has been a privilege to confront these challenges standing arm-in-arm 
with the immensely talented and dedicated career attorneys and staff of 
Treasury's Legal Division. Their hard work and insight benefit our 
department--and our Nation--every day.

    I have seen firsthand that many of Treasury's most pressing 
challenges manifest themselves in our economic and financial 
relationships with other countries and with various international 
institutions. These issues run the gamut: ensuring our Nation's voice 
is clearly heard in coordinating international financial regulation; 
negotiating economic agreements with foreign partners; advancing U.S. 
interests in multilateral bodies such as the World Bank and the IMF; 
and providing valuable technical assistance to developing countries. 
Treasury's International Affairs division has a special responsibility 
to effectively implement last year's bipartisan legislation modernizing 
our CFIUS investment security regime, a task that has profound 
implications for both our economy and our national security. Serving as 
General Counsel has afforded me the opportunity to work toward solving 
these challenges alongside former Under Secretary David Malpass and his 
team--especially the hardworking experts who make up IA's career staff.

    It is an honor to be nominated to lead IA's continued efforts on 
behalf of the American people. The international issues in Treasury's 
remit may at times seem esoteric or far-flung, but as David Malpass 
said during his confirmation hearing, and as I've seen regularly 
throughout my time in government, those issues have significant, real-
world impacts on the citizens of every State in the Union. That reality 
demands unwavering focus on the effects international matters have on 
individual Americans, and it must be a guiding principle for those who 
are charged with advancing our Nation's interests abroad. I pledge 
that, if confirmed, it will guide my every action.

    Thank you again for the opportunity to appear today. I look forward 
to your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Brent James McIntosh.

 2.  Position to which nominated: Under Secretary of the Treasury for 
International Affairs.

 3.  Date of nomination: May 23, 2019.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: September 28, 1973, Lansing, Michigan.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Yale Law School (1996-1999), Juris Doctor, May 1999.

        University of Michigan (1992-1996), bachelor of arts, May 1996.

        London School of Economics (1994-1995).

        Williamston High School (1988-1992), diploma, June 1992 
        (certain classes taken at Michigan State University (1988-1990) 
        and Lansing Community College (1990-1991)).

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job.)

        General Counsel for the Department of the Treasury, Washington, 
        DC (2017-present).

        Partner, Sullivan and Cromwell LLP, Washington, DC (2011-2017).

        Special Counsel, Sullivan and Cromwell LLP, Washington, DC 
        (2009-2010).

        Deputy Assistant to the President and Deputy Staff Secretary, 
        The White House, Washington, DC (2007-2009).

        Associate Counsel to the President, The White House, 
        Washington, DC (2006-2007).

        Deputy Assistant Attorney General, Office of Legal Policy, U.S. 
        Department of Justice, Washington, DC (2005-2006).

        Counselor to the Assistant Attorney General, Office of Legal 
        Policy, U.S. Department of Justice, Washington, DC (2005).

        Senior Counsel, Office of Legal Policy, U.S. Department of 
        Justice, Washington, DC (2005).

        Counsel, Office of Legal Policy, U.S. Department of Justice, 
        Washington, DC (2004-2005).

        Associate, Sullivan and Cromwell LLP, New York, New York (2001-
        2004).

        Law clerk, Honorable Laurence H. Silberman, U.S. Court of 
        Appeals for the District of Columbia Circuit, Washington, DC 
        (2000-2001).

        Law clerk, Honorable Dennis Jacobs, U.S. Court of Appeals for 
        the Second Circuit, New York, New York (1999-2000).

        Summer law clerk, Kirkland and Ellis, Washington, DC (1999).

        Research assistant, Professor William Eskridge, Jr., Yale Law 
        School (1998-1999).

        Summer associate, Davis, Polk, and Wardwell, New York, New York 
        and London, England (1998).

        Research assistant, Professor Henry B. Hansmann, Yale Law 
        School (1997-1998).

        Legal intern, Special Prosecutions Group, U.S. Attorney's 
        Office for the Eastern District of New York, Brooklyn, New York 
        (1997).

        Administrative assistant, Alumni Association of the University 
        of Michigan, Ann Arbor, Michigan (1996).

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        Romney-Ryan Readiness Team (pre-election presidential 
        transition team) (2012).

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partner, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        Partner, Sullivan and Cromwell LLP (2011-2017).

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        To the best of my recollection, I am or have been a member of, 
        or hold or have held another position with, the following 
        organizations:

        Ahn Family Foundation, Grants Committee (2001-2016).

        Alexander Hamilton Society (2010-present), co-chair, DC Chapter 
        (2012-2017); DC Chapter Steering Committee (2010-2012).

        All Saints Church (approx. 2004-2009, 2017-present).

        Alumni and Friends of the London School of Economics, life 
        member (2000-present).

        Alumni Association of the University of Michigan, life member 
        (2000-present).

        American Bar Association (2001-2006, 2009-present).

        American Society of International Law (2001-2005, 2009-
        present).

        Association of the Bar of the City of New York (2001-2005); Pro 
        Bono Society (2002, 2003).

        Bannockburn Swim Club (neighborhood pool) (2005-2011).

        Bretton Woods Committee (2015-present).

        Chevy Chas Club (2016, 2017-present).

        Christ and St. Stephen's Episcopal Church (2001-2004).

        Council on Foreign Relations (2005-2011, 2019).

        Entomological Society of America (2011-2012).

        Federalist Society (1997-present); International and National 
        Security Law Practice Group Executive Committee (2010-2017).

        Heritage Foundation/Chertoff Group National Security Law 
        Working Group (2014-2017).

        International Bar Association (2015-2017).

        International Churchill Society (2018-present).

        International Institute for Strategic Studies (2009-present).

        John Hay Initiative, International Law Working Group (2015-
        2017).

        Links Club (2017-present).

        London School of Economics Intercollegiate Basketball Team 
        (1994-1995).

        Metropolitan Club of the City of Washington (2008-present).

        Michigan Daily, writer and editor (1993-1996).

        Montgomery County Recreation, youth basketball coach (2016-
        present).

        New York State Bar Association (2001-2004).

        Pilgrims of the United States (2017-present).

        Republican National Lawyers Association (2013-present).

        S.A.F.E.WALK (approx. 1992-1994).

        St. Albans School Fathers' Committee (2016-present).

        St. Columba's Episcopal Church (2009-2017); Gratitude and 
        Resources Strategic Initiative Team (2016); lay reader (2016-
        2017).

        Supreme Court Historical Society (2011-present).

        U.S. Chamber Litigation Center, U.S. Chamber of Commerce, 
        Financial Services Advisory Committee (2015-2017).

        Yale Club of New York City (2009-present).

        Yale Law and Policy Review (approx. 1996-1998).

        Yale Law Journal (1997-1999), articles editor (1998-1999).

        Yale Law School Association, Executive Committee (2012-2015); 
        Nominating Committee (2015).

        Yale Law School class of 1999, class secretary (2013-present).

        Yale Law School class representative (1998-1999).

        Yale Law School reunion gift campaign, co-chair (2003-2004); 
        class committee (2013-2014).

        Bar admissions:

        State of New York (admitted 2001).

        District of Columbia (admitted 2009).

        Supreme Court of the United States (admitted 2005).

        U.S. Court of Appeals for the District of Columbia Circuit 
        (admitted 2010).

        U.S. Court of Appeals for the Second Circuit (admitted 2010).

        U.S. Court of Appeals for the Third Circuit (admitted 2015).

        U.S. Court of Appeals for the Fourth Circuit (admitted 2001).

        U.S. Court of Appeals for the Fifth Circuit (admitted 2016).

        U.S. Court of Appeals for the Ninth Circuit (admitted 2006).

        U.S. District Court for the District of Columbia (admitted 
        2010).

        U.S. District Court for the Eastern District of New York 
        (admitted 2002).

        U.S. District Court for the Southern District of New York 
        (admitted 2002).

        U.S. District Court for the Southern District of Texas 
        (admitted 2003).

        U.S. Court of Federal Claims (admitted 2009).

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       Romney Justice Advisory Committee (2011-2012).

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.


------------------------------------------------------------------------
                Recipient                      Date           Amount
------------------------------------------------------------------------
John Adams for Virginia                        6/08/2016         $803.46
------------------------------------------------------------------------
Matthew Berry for Congress                    11/18/2009         $250.00
------------------------------------------------------------------------
George P. Bush Land Commissioner               1/04/2013         $250.00
 campaign
------------------------------------------------------------------------
Jeb 2016 (Jeb Bush)                           10/05/2015       $2,700.00
------------------------------------------------------------------------
Capito for West Virginia (Shelley Moore        4/24/2013         $500.00
 Capito)
                                               7/22/2014       $1,000.00
------------------------------------------------------------------------
Cotton for Senate (Thomas Cotton)             10/24/2013         $250.00
------------------------------------------------------------------------
Mike Crapo for U.S. Senate                     8/06/2015       $1,000.00
------------------------------------------------------------------------
Ted Cruz for Senate                            6/30/2011         $300.00
------------------------------------------------------------------------
Robert L. Ehrlich, Jr. gubernatorial           7/28/2010         $250.00
 campaign
------------------------------------------------------------------------
Foley for Connecticut (Thomas C. Foley)        4/22/2014         $100.00
------------------------------------------------------------------------
Freedom First PAC                              7/29/2010         $250.00
------------------------------------------------------------------------
Ed Gillespie for Governor                      1/23/2017       $2,000.00
------------------------------------------------------------------------
Ed Gillespie for Senate                        3/06/2014       $2,600.00
                                               7/17/2014         $500.00
                                               9/25/2014       $1,000.00
------------------------------------------------------------------------
Adam Laxalt Attorney General campaign          5/14/2014         $250.00
------------------------------------------------------------------------
Friends of Mike Lee                            6/19/2015       $1,000.00
------------------------------------------------------------------------
Josh Mandel Senate Victory Committee           9/21/2012         $300.00
------------------------------------------------------------------------
Justice for All                               10/04/2013         $300.00
------------------------------------------------------------------------
NRCC                                           7/19/2010         $250.00
------------------------------------------------------------------------
NRSC/NRCC Victory Committee                   11/13/2013         $250.00
------------------------------------------------------------------------
Portman for Senate Committee (Rob              6/16/2009         $250.00
 Portman)
                                               8/15/2010         $250.00
                                               5/14/2015       $1,500.00
                                               9/27/2016         $500.00
------------------------------------------------------------------------
David A. Pepper mayoral campaign               6/01/2009         $250.00
                                               9/29/2010         $150.00
------------------------------------------------------------------------
Prosperity Action                              6/30/2011       $1,000.00
------------------------------------------------------------------------
Romney for President (Mitt Romney)             5/09/2011       $1,000.00
                                               1/31/2012       $1,500.00
------------------------------------------------------------------------
Romney Victory                                 5/24/2012       $2,500.00
------------------------------------------------------------------------
Ben Sasse for U.S. Senate                      9/16/2013       $1,000.00
                                               3/31/2014       $1,000.00
                                              11/28/2016       $1,000.00
                                              12/31/2018       $1,000.00
------------------------------------------------------------------------
Shelby for U.S. Senate (Richard C.            10/13/2015      $1 ,000.00
 Shelby)
------------------------------------------------------------------------
Elise for Congress (Elise M. Stefanik)        11/21/2013         $250.00
                                               9/21/2016         $500.00
------------------------------------------------------------------------
Sullivan for U.S. Senate (Dan Sullivan)       10/28/2013         $250.00
------------------------------------------------------------------------


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        Alvin and Arvella Bentley Scholar (University of Michigan).

        Benedek London Scholarship (University of Michigan).

        Distinguished Alumni Award (Williamston High School).

        Distinguished Legal Writing Award 2016, Burton Awards for Legal 
        Achievement.

        Horace Rackham Scholar (University of Michigan).

        James B. Angell Scholar (University of Michigan).

        National Merit Scholar.

        New York Law Journal 2013 ``Rising Star.''

        Phi Beta Kappa (University of Michigan).

        Pi Sigma Alpha political science honor society (University of 
        Michigan).

        Presidential Scholar (U.S. Department of Education).

        U.S. Department of State Superior Honor Award (group award).

        Yale Law Journal, articles editor (Yale Law School).

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        ``City Fair Housing Suits May Have Unfortunate Consequences,'' 
        Law360 (November 15, 2016). https://www.law360.com/articles/
        860830/city-fair-housing-suits-may-have-unfortunate-
        consequences.

        ``D.C. Circuit Invalidates CFPB Structure as Unconstitutional; 
        Rejects `Flawed' Statutory Application in Enforcement 
        Proceeding,'' Columbia Law School Blue Sky Blog (October 20, 
        2016) (with Steven Meyer et al.), http://clsbluesky
        .law.columbia.edu/2016/10/20/sullivan-cromwell-discusses-d-c-
        circuit-ruling-invalidating-cfpb-structure/.

        ``On Apple, the FBI, and Old iPhones,'' Federalist Society Blog 
        (February 18, 2016), https://fedsoc.org/commentary/bloq-posts/
        on-apple-the-fbi-and-old-iphones.

        ``A Guide to the Cybersecurity Act of 2015,'' Law360 (January 
        12, 2016) (with John Evangelakos et al.), https://
        www.law360.com/articles/745523/a-guide-to-the-cybersecurity-
        act-of-2015.

        ``The Cybersecurity Act of 2015,'' Columbia Law School Blue Sky 
        Blog (January 6, 2016) (with John Evatigelakos et al.), http://
        clsbluesky.law.columbia.edu/2016/01/06/sullivan-cromwell-
        discusses-the-cybersecurity-act-of-2015/.

        ``SEC Enforcement: SEC Issues Guidance on Approach to Forum 
        Selection in Contested Actions,'' Columbia Law School Blue Sky 
        Blog (June 15, 2015) (with Nicolas Bourtin et al.), http://
        clsbluesky.law.columbia.edu/2015/06/15/Sullivan-cromwell-
        discusses-sec-guidance-on-approach-to-forum-selection-in-
        contested-actions/.

        ``How Cybercriminals Are Targeting Corporate Transactions,'' 
        Law360 (May 19, 2015) (with Judson Littleton), https://
        www.law360.com/articles/657836/how-cybercriminals-are-
        targeting-corporate-transactions.

        ``President Obama Issues Executive Order Authorizing Sanctions 
        for Malicious Cyber Activities,'' Columbia Law School Blue Sky 
        Blog (April 17, 2015) (with Eric Kadel, Jr.), http://
        clsbluesky.law.columbia.edu/2015/04/17/sullivan-cromwell-
        discusses-president-obamas-executive-order-authorizing-
        sanctions-for-malicious-cyber-activities/.

        `` `The FBI Followed You': Why Twitter's Surveillance-
        Disclosure Lawsuit Puts U.S. Intel Agencies in a Quandary,'' 
        Law.com (April 16, 2015), https://www.law.com/sites/
        brentmcintosh/2015/04/16/twitter-surveillance-lawsuit/
        ?slreturn=20190429112917.

        Perez v. Mortgage Bankers Association, Harvard Law School Forum 
        on Corporate Governance and Financial Regulation (March 29, 
        2015) (with Jeffrey Wall et al.), https://
        corpgov.law.harvard.edu/2015/03/29/perez-v-mortgage-bankers-
        association/.

        ``Supreme Court Clarifies Liability for Opinions in 
        Registration Statements,'' Harvard Law School Forum on 
        Corporate Governance and Financial Regulation (March 28, 2015) 
        (with Robert Giuffra Jr. et al.), https://corpgov.
        law.harvard.edu/2015/03/28/supreme-court-clarifies-liability-
        for-opinions-in-registration-statements/.

        `` `An Emblem of a Deeper Pathology in the Criminal Code': 
        Thoughts on the Supreme Court's Ruling That, Sometimes, Fish 
        Aren't Tangible Objects,'' Law.com (March 4, 2015), https://
        www.law.com/sites/brentmcintosh/2015/03/04/fish_
        are_not_tangible_objects/.

        Judicial Review of SEC Consent Judgments, 47 Review of 
        Securities and Commodities Regulation 275 (December 3, 2014) 
        (hyperlink not found).

        ``Second Circuit Adopts Bright-Line Rule for Determining 
        Customer Status for Mandatory FINRA Arbitration,'' Business Law 
        Today (September 2014) (with Robert Giuffra Jr. et al.) 
        (hyperlink not found).

        ``As End of Supreme Court Term Looms, High-Profile Business 
        Disputes Remain,'' Law.com (May 24, 2014) (hyperlink not 
        functional; see https://www.law.com/sites/brentmcintosh/).

        Class of 1999 Class Notes, Yale Law Report (2013-present) (with 
        Brad Snyder) (hyperlinks not found).

        ``Patriot Act Protects U.S.,'' Lansing State Journal (March 19, 
        2006) (hyperlink not found).

        ``The Revolutionary Second Amendment,'' 51 Alabama Law Review 
        673 (2000), https://www.law.ua.edu/pubs/lrarticles/Volume%2051/
        Issue%202/McIntosh.pdf.

        As a student journalist in college (1993-1996), numerous 
        articles in the Lansing State Journal; The Michigan Daily 
        (University of Michigan student newspaper), and The Alumnus 
        (University of Michigan alumni magazine), primarily regarding 
        University of Michigan and mid-Michigan sports.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates. Provide the committee with one digital copy of each 
formal speech and presentation).

        To the best of my recollection, the formal speeches or 
        presentations I have given that might be considered relevant to 
        the position for which I have been nominated are as follows 
        (remarks provided are as prepared for delivery).

        Reviewing the Office of Information and Regulatory Affairs, 
        U.S. Senate, Subcommittee on Regulatory Affairs and Federal 
        Management, April 2018.

        Regulatory Reform, the Treasury Department, and More, 
        Federalist Society DC Chapter, March 2018.

        Hearing to Consider the Nominations of Eric D. Hargan, David 
        Malpass, Andrew K. Maloney, and Brent James McIntosh, U.S. 
        Senate, Committee on Finance, June 2017.

        I have also occasionally participated in panels, question-and-
        answer sessions, and moderated discussions without prepared 
        remarks. To the best of my recollection, those that might be 
        considered relevant to the position for which I have been 
        nominated are the following:

        Regulatory Reform Report Card: Agency General Counsel 
        Perspective, Federalist Society Executive Branch Review 
        Conference, May 2019 (panelist).

        Leaders in Finance: A Conversation to Strengthen America's 
        Economy, Milken Institute Global Conference, April 2019 
        (panelist).

        Women in Housing and Finance Annual Symposium, April 2019 
        (moderated discussion).

        American Bankers Association Government Relations Council, 
        April 2019 (moderated discussion).

        Treasury's Role in Advancing U.S. National Security, George 
        Mason University Antonin Scalia Law School National Security 
        Institute Distinguished Speaker Series, March 2019 (moderated 
        discussion).

        The Role of Financial Institutions in National Security, 
        Institute of International Bankers Annual Washington 
        Conference, March 2019 (moderated discussion).

        Dollars and Diplomacy: Treasury's Role in U.S. Foreign Policy, 
        Alexander Hamilton Society New York Initiative, March 2019 
        (moderated discussion).

        Dollars and Diplomacy: Treasury's Role in U.S. Foreign Policy, 
        Columbia Law School National Security Program/Alexander 
        Hamilton Society Columbia University Chapter, March 2019 
        (moderated discussion).

        Financial Tools and the National Security, Yale Law School 
        Federalist Society, March 2019 (moderated discussion).

        Stability vs. Growth: Unintended Consequences of Post Crisis 
        Financial Regulations, Milken Institute London Summit, December 
        2018 (panelist).

        FinTech: Regulators Take the Stage, U.S. Chamber of Commerce 
        Center for Capital Markets Competitiveness/Chamber Technology 
        Engagement Center, November 2018 (moderated discussion).

        How Should Our Existing Regulatory Structure Be Applied to 
        Support an 
        Activities-Based Approach? U.S. Department of the Treasury 
        Office of Financial Research/University of Michigan Center on 
        Finance, Law, and Policy Conference on Functions and Firms: 
        Using Activity- and Entity-Based Regulation to Strengthen the 
        Financial System, November 2018 (panel moderator).

        ICOs, Air Drops and the Future of Regulating Decentralized 
        Money, Money 20/20 conference October 2018 (panelist).

        American Banker RegTech 2018 conference, October 2018 
        (moderated discussion).

        The Future of Financial Regulation; Manhattan Institute/George 
        Mason University Antonin Scalia Law School Center for the Study 
        of the Administrative State, October 2018 (panelist).

        Tax and Regulatory Reform, American Swiss Foundation Building 
        Bridges Conference, September 2018 (panelist).

        Fintech, a Double-edged Sword for AML/CFT, International 
        Monetary Fund 2018 Law and Financial Stability High-Level 
        seminar, September 2018 (panelist).

        Reg Reference Center, sponsored by the American Action Forum; 
        the Mercatus Center, and the George Washington University 
        Regulatory Studies Center, July 2018 (panelist).

        Interagency Functions, Alexander Hamilton Society National 
        Institute 2018, June 2018 (panelist).

        Financial Regulation in the 21st Century: Perspectives From the 
        Treasury Department, Financial Services Roundtable Spring 
        Meeting of Lawyers Council, May 2018 (question-and-answer 
        session).

        Cryptocurrencies: Irrational Exuberance or Brave New World?, 
        Milken Institute Global Conference, May 2018 (panelist).

        Decrypting Crypto: Policy, Security, and Regulatory Challenge, 
        YPO-George Mason University National Security Institute 
        Blockchain Technologies Summit, March 2018 (panelist).

        American Bankers Association Regional General Counsels Meeting, 
        November 2017 (moderated discussion).

        Regulatory Reform Update, U.S. Department of the Treasury, 
        October 2017 (panelist).

        Prospects for Cybersecurity in the Donald J. Trump 
        administration, Council on Foreign Relations roundtable, March 
        2017 (presider).

        Financial Markets in the Aftermath of Cyberattacks, University 
        of Virginia Symposium on Impediments to the Global Economy, 
        February 2016 (panelist).

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        Serving for nearly 2 years as the Senate-confirmed General 
        Counsel for the Treasury Department has afforded me the 
        invaluable opportunity to advise on and participate in the work 
        of Treasury's Office of International Affairs. I have been 
        fortunate to work closely with former Under Secretary David 
        Malpass, Acting Under Secretary Heath Tarbert, and the 
        talented, dedicated professionals in International Affairs. 
        This close working relationship has brought me to be deeply 
        involved in many of the key issues that International Affairs 
        confronts, including international financial regulatory 
        matters, Treasury's work with multilateral development banks, 
        issues relating to currency and monetary policy, bilateral and 
        multilateral economic relationships with our foreign partners, 
        sovereign debt, trade, and investment security. As to the last 
        of these, one paramount challenge the next Under Secretary will 
        confront is implementing the Foreign Investment Risk Review 
        Modernization Act of 2018 while ensuring the continued 
        effective functioning of the CFIUS process. I have worked 
        extensively with International Affairs colleagues on 
        implementation of this landmark legislation and on CFIUS 
        matters more generally.

        In addition, my prior service in government and in private 
        practice should provide important background and experience, if 
        I am confirmed. My law practice focused on the resolution of 
        difficult, often novel disputes, including analyzing 
        complicated problems, advocating for my clients' positions, and 
        negotiating workable solutions to complex problems. Much of my 
        professional career involved advising multinational entities 
        participating in the global financial system, affording me 
        substantial familiarity with many financial, regulatory, and 
        economic issues International Affairs handles. While in 
        government at the Treasury Department, the White House, and the 
        Department of Justice, I worked extensively with interagency 
        colleagues and foreign partners on a wide variety of foreign 
        affairs and national security matters. Finally, both in 
        government and in private practice, I have managed large teams 
        of professionals.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        The position for which I have been nominated is with my present 
        employer, and I have no other such employment relationships.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by letter to Brian J. Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, l will seek guidance from a Treasury ethics 
        official.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of my 
        ethics agreement with the Department of the Treasury, which is 
        documented by letter to Brian J. Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
government need not be listed.

        Other than as a lawyer representing clients in adversarial or 
        regulatory proceedings, none.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        Any potential conflicts of interest have been identified and 
        resolved in accordance with the terms and conditions of any 
        ethics agreement with the Department of the Treasury, which is 
        documented by letter to Brian J. Sonfield, Designated Agency 
        Ethics Official and Assistant General Counsel for General Law 
        and Ethics. Should any potential conflict of interest arise in 
        the future, I will seek guidance from a Treasury ethics 
        official.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        None.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        In 1994, when I was a sophomore in college, I was charged with 
        one misdemeanor count of ``Receiving stolen property--$100 or 
        less.'' The charge was subsequently dropped.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.


 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                      E TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
    Questions Submitted for the Record to Hon. Brent James McIntosh
                 Questions Submitted by Hon. Ron Wyden
             salt workaround regulations and inconsistent 
                     interpretation of 2017 tax law
    Question. The 2017 Republican tax law partially paid for massive 
tax cuts for corporations, the wealthy, and passthrough businesses by 
limiting the deduction for State and local taxes to $10,000.

    This was a rifle-shot at constituents in high cost of living States 
like Oregon, Washington, New York, New Jersey, and others.

    While I wasn't a fan of the SALT cap, I am even more concerned 
about recent Treasury regulations that reach far beyond what was 
contained in the 2017 Republican tax law. These regulations effectively 
extend the $10,000 SALT cap to include State tax credit programs.

    These regulations reversed the long-standing IRS position that 
taxpayers are entitled to a full charitable deduction, even if they 
receive State tax credits in return for their contribution.

    Could you please tell me where in the 2017 tax law it instructs the 
Treasury Department to limit charitable deductions for donations for 
State tax credit programs?

    Answer. The Tax Cuts and Jobs Act did not amend section 170 of the 
Internal Revenue Code. The proposed and final regulations to which your 
question refers are based on the application of longstanding Federal 
income tax principles under section 170. Specifically, under section 
170, any benefit received or expected to be received by a donor in 
return for making a donation to a charitable organization reduces the 
amount of any Federal charitable contribution deduction for such 
donation.

    On September 5, 2018, Secretary Mnuchin announced these regulations 
wouldn't apply to businesses that make donations to private school 
voucher programs, with the strong backing of Republican Senators.

    Question. Could you tell me where in the 2017 tax law it said that 
school voucher programs should get a special deal?

    Answer. The Tax Cuts and Jobs Act does not make distinctions among 
State tax credit programs. Likewise, Treasury and IRS regulations and 
guidance on this issue apply equally to all such programs.

    It appears that Treasury as a general matter is picking and 
choosing when it wants to use broad authority in regulations issued 
under the 2017 tax law.

    Question. Could you please provide guidance on how you determine 
the expansiveness of your regulatory authority in interpreting the 2017 
tax law?

    Answer. The scope of Treasury's regulatory authority under the Tax 
Cuts and Jobs Act (TCJA) is a matter of statutory interpretation. As a 
result, the answer to this question is highly context-dependent. It 
requires interpreting the terms of the particular grant of rulemaking 
authority being invoked and, as importantly, the language of the 
substantive Internal Revenue Code provision or provisions being 
implemented. Under title 26, Congress has provided general and specific 
grants of rulemaking authority. Section 7805 confers authority to 
``prescribe all needful rules and regulations for enforcement of [title 
26],'' including ``all rules and regulations as may be necessary by 
reason of any alteration of law in relation to internal revenue.'' 
Treasury has relied on these general grants of authority to implement 
some provisions of TCJA. In addition, Congress often includes specific 
grants of authority to implement particular provisions of the code; 
TCJA contains at least 72 such specific grants of authority. Some of 
those specific grants provide explicit indication of the nature of the 
regulatory authority Congress expected Treasury to exercise, such as 
directives to adopt anti-abuse rules, to provide special rules for 
applying a general rule to specified situations, or to implement new 
information reporting requirements.

    The attorneys of the Treasury Department's Office of Tax Policy 
(OTP) and the IRS Office of Chief Counsel have primary responsibility 
for legal analysis of tax regulatory actions; the Office of General 
Counsel relies on their analysis and expertise in the review of all tax 
regulatory actions. Our general approach to statutory interpretation is 
described in the response to the question below.

    Treasury's Office of Tax Policy and Office of General Counsel would 
be pleased to provide your staff with a briefing or additional 
information on any particular interpretation adopted in TCJA 
implementing regulations.

    Question. What principles of statutory interpretation are you 
applying in developing regulations under that law?

    Answer. The approach of the Treasury Office of General Counsel is 
to follow the Supreme Court's guidance governing agency interpretations 
of Federal statutes. The best evidence of congressional intent is the 
text of the statute. We also consider statutory context and structure, 
as well as how similar statutory language has been interpreted by 
Treasury in the past. The provisions of the Internal Revenue Code are 
often deeply interconnected, so we take particular care to analyze how 
Congress intended a new provision to work with existing code 
provisions. When the text does not resolve a question of 
interpretation, courts have indicated that a review of legislative 
history may help elucidate the meaning of a statutory provision.

    In some cases, even after applying all of the traditional tools of 
statutory construction, a statutory provision may remain ambiguous. In 
such cases, in the context of TCJA, Treasury's goal is generally to 
adopt the construction that best effectuates congressional intent, as 
Treasury's senior policymakers understand it.
        treasury obstruction of dark money congressional review
    Question. I oppose any attempts to make it easier for illegal and 
foreign money to influence our political process. That's why I have 
been fighting the Treasury Department's rule change that stopped 
requiring dark money groups to disclose the identities of their major 
donors to the IRS.

    Last year, shortly after IRS issued its dark money rule, Senator 
Tester and I introduced a resolution to overturn the rule under the 
Congressional Review Act (CRA). It should have been a straight-forward 
process--the Treasury Department even filed the paperwork with the 
Senate stating that this was a rule subject to the CRA.

    But when Treasury found out that Senator Tester and I were planning 
to overturn the rule, they sent us a letter asking for a ``do-over.'' 
They simultaneously claimed that they were eligible for the legal 
benefits of the Congressional Review Act, but also that we weren't 
allowed to challenge the rule under that same CRA provision.

    It was clear in my mind that Treasury was waging a frivolous legal 
battle in an attempt to obstruct congressional action. Treasury managed 
to tie up our CRA process for five weeks. Some months later, the GAO 
eventually weighed in with its own, independent legal opinion finding 
Treasury's ``do-over'' argument meritless.

    My concern is that the Treasury Department was clearly trying to 
impede Congress's right to vote on the dark money rule.

    My question is this: is it ever appropriate for the Treasury 
Department to play legal games to obstruct the Senate's right to 
legislate?

    Answer. No, that would not be appropriate. It is my understanding 
that in connection with Rev. Proc. 2018-38, the IRS explained to GAO 
the IRS's approach to Congressional Review Act analysis both with 
respect to Rev. Proc. 2018-38 and more broadly, and that, in response 
to several developments including GAO's 2018 opinion, the Office of 
Chief Counsel has enhanced its review of IRS guidance prior to 
submission under the CRA process.
                           g7/g20 leadership
    Question. The United States has long played a crucial role in the 
global economy by confronting systemic challenges and working with 
like-minded partners to address the tough problems. We know that the 
big stuff requires collective action.

    At the summits like the G7 and G20, consensus-based statements 
reflect the collective views of the United States and our allies on 
major issues such as monetary policy, security, and multilateral rules-
based trading. Rather than working with allies to find areas of 
agreement and make progress toward addressing our collective 
challenges, the Trump administration has a record of unnecessarily 
isolating the United States on everything from climate change to trade.

    Do you agree with me that it is critical for the United States to 
refocus our efforts with our allies in the G7, G20, APEC and other 
international fora to find solutions to the major issues facing the 
United States and the world?

    Answer. The United States continues to play a lead role in 
international fora such as the G7, G20, and APEC. As part of this 
engagement, Treasury is advancing a robust international policy agenda 
on issues such as risks and challenges to global growth, a 
comprehensive solution to the taxation of digital companies, measures 
to enhance debt transparency and sustainability for low-income 
countries, and the application of anti-money laundering standards to 
virtual assets and crypto-currencies. Greater international cooperation 
on these issues will lead to stronger global growth, which in turn will 
directly benefit the U.S. economy.
                            treasury ethics
    Question. As General Counsel, you oversee the Treasury Department's 
ethics office. During your tenure, the Office of Government Ethics 
(OGE) refused to certify Secretary Mnuchin's 2018 Financial Disclosure 
report because he acted on advice that Department ethics officials 
provided without consulting OGE. The Director of OGE--a Trump 
appointee--determined that your ethics office essentially told the 
Secretary he could ignore his own Ethics Agreement. Government ethics 
experts say it is extremely rare for cabinet officials not to have 
their financial records certified. Yet, that happened on your watch.

    What does that say about your enforcement of ethics rules at the 
Treasury Department? What message does that send to the Department's 
employees when the Secretary of the Treasury fails to comply with 
ethics rules?

    Answer. This question addresses advice that Treasury's career 
ethics officials gave prior to my arrival at Treasury. With regard to 
the Secretary's 2018 financial disclosure report, it is my 
understanding that the Secretary's disclosures were complete and 
accurate and that the Secretary was in compliance with all applicable 
ethics laws. Although the underlying events occurred prior to my 
arrival at Treasury, I have come to understand that prior to the 
Secretary's 2017 confirmation, the Office of Government Ethics listed a 
particular asset for divestiture in the Secretary's Ethics Agreement, 
and the Secretary in fact divested that asset. At a later date in early 
2017, prior to the Secretary's wedding, the Secretary sought the advice 
of the Department's then-serving career ethics official because his 
fiancee held the same asset, meaning her interest would be imputed to 
the Secretary once they married. The Department's career ethics 
officials reviewed the asset in question and correctly determined that 
it presented no conflict with the Secretary's official duties, and so 
advised that his fiancee need not divest her interest in that asset. 
(Treasury's ethics attorneys had initially identified this asset for 
divestiture only out of an abundance of caution, and subsequent review 
established that it presented no conflict.) The Secretary relied on 
this advice, and his fiancee did not divest her interest. Upon learning 
of this advice, OGE acknowledged that it was not aware of any conflict 
posed by the asset in question or of any violation of any ethics law as 
a result of the imputed interest, but nonetheless declined to certify 
the Secretary's financial disclosure. With OGE's consent, the 
Secretary's Ethics Agreement was subsequently amended to reflect the 
advice of Treasury's career ethics officials. I have immense respect 
for Treasury's career ethics officials, I rely heavily on their advice 
as to the requirements of applicable ethics laws, and I believe that it 
is appropriate for the Department's senior officials to seek and rely 
on those career ethics officials' guidance.
                      china/currency negotiations
    Question. USTR has publicly stated that Treasury is leading the 
currency negotiations that were reportedly concluded with respect to 
Korea and are ongoing with China. If confirmed, you will be leading the 
team negotiating the China currency agreements.

    Will you commit to brief Congress in a timely manner on the 
substance of these and any other currency negotiations?

    Answer. If confirmed, I commit to keeping Congress appropriately 
apprised of ongoing currency negotiations.

    Question. Is it appropriate to agree to binding obligations on the 
United States with regard to monetary policy, as part of a negotiation 
intended to settle claims regarding China's unfair trade practices? If 
it is appropriate, please explain why.

    Answer. No, that would not be appropriate. It is my understanding 
that no agreement with China would result in binding obligations with 
regard to U.S. monetary policy. The ability of an independent Federal 
Reserve to pursue its dual objectives of low inflation and high 
employment should not be restricted.

    Question. If confirmed, will you commit to immediately make the 
currency agreement with Korea public?

    Answer. If confirmed, I intend to be as transparent as possible, 
consistent with our international commitments and national interest.

    It is critical that allies support our views on China's unfair 
trade practices and reiterate our concerns regarding intellectual 
property theft, forced technology transfer, and steel and aluminum 
overcapacity to China. However, it is difficult for our allies to 
support our attempts to address China's unfair trade practices when we 
are also placing tariffs on their imports in order to gain leverage in 
other, unrelated negotiations.

    Question. If confirmed, how will you seek support from our allies 
to address China's unfair trade practices, and what would you ask 
allies to do, to demonstrate their support?

    Answer. If confirmed, I will continue our efforts to seek support 
from allies to address our shared concerns with respect to China's 
unfair trade and investment policies. China's use of subsidies for 
State-owned enterprises and other forms of industrial policies create 
distortions in the global economy. The market access and structural 
reforms that we are pushing China to undertake would benefit U.S. firms 
as well as foreign firms. I will continue efforts to coordinate with 
allies through the G7 as well as through bilateral engagement.
                                 cfius
    Question. In its dealings with Huawei, ZTE, and others, this 
administration has demonstrated its willingness to put national 
security issues on the table when seeking economic or trade deals from 
our trading partners. As chairman of the Committee on Foreign 
Investment in the United States (CFIUS), Secretary Mnuchin is 
responsible for evaluating the national security implications of 
specific foreign investments and recommending whether to modify or 
reject them. In this capacity, CFIUS is intended to focus solely on 
genuine national security concerns raised by a covered transaction, and 
not on other national interests.

    Do you agree that genuine national security concerns should be the 
key factor when determining whether to reject or modify a proposed 
investment? What steps will you take to mitigate the risk of other 
factors, including geopolitical concerns, trade policy, or other 
conflicts, influencing the Secretary's decisions on CFIUS matters?

    Answer. The Committee on Foreign Investment in the United States 
(CFIUS) evaluates each covered transaction notified to CFIUS for the 
sole purpose of determining whether any threat to the national security 
of the United States would arise from the transaction. Consistent with 
section 721 of the Defense Production Act, CFIUS produces a risk-based 
analysis of any risks to the national security that would arise as a 
result of the transaction, considering in each case the particular 
threat, vulnerabilities, and consequences associated with the 
transaction. As Chair of CFIUS, Treasury is committed to ensuring this 
rigorous analysis is conducted for each covered transaction, as 
required by law.
                     digital sales tax/oecd process
    Question. During the nominations hearing on July 24, 2019, you 
recognized the importance of a multilateral approach and, in 
particular, the Organisation for Economic Co-operation and Development 
(OECD) process, in addressing the tax challenges created by the 
digitalization of the economy.

    Please describe the concrete steps you will take to identify and 
implement a strategy for engagement at the OECD on resolving the DST 
issue. Please describe the interagency and international engagement 
necessary to achieve a successful outcome at the OECD.

    Answer. The Treasury Department believes all companies--regardless 
of nationality or economic sector--should pay fair rates of taxation. 
Treasury recognizes that changes in business practices in the 
increasingly digitalized, 21st-century global economy are challenging 
the decades-old global consensus on the rules for allocating taxing 
rights among countries. As a result, the United States--in particular, 
the Treasury Department--is leading efforts in the OECD to reach 
consensus on new international tax rules. In the OECD, we are working 
with 131 countries on a multilateral solution. We seek a global 
consensus for new rules that will ensure all companies pay fair rates 
of taxation while also (i) providing certainty to taxpayers; (ii) 
minimizing administrative burdens; (iii) avoiding double taxation; and 
(iv) addressing transfer pricing and nexus issues that arise with 
respect to digital and non-
digital businesses.

    Treasury is fully committed to seeing the multilateral OECD process 
succeed. We believe that the ongoing work is on a good course and that 
the Program of Work approved by the Inclusive Framework provides a path 
to deliver a global consensus on new rules by the end of 2020. While we 
are addressing important and complicated issues in the OECD, we are 
unfortunately also seeing a disturbing trend of some governments, 
especially in Europe, politicizing the complex issue of achieving 
genuine fairness in the rules for allocating taxing rights. This 
regrettable trend is seen most clearly in unilateral DSTs.

    With regard to this engagement, Treasury is coordinating closely 
with all critical stakeholders in the executive branch, including the 
Department of State and relevant embassies, the Department of Commerce, 
and the U.S. Trade Representative, through an interagency policy 
coordination committee process. The Department also believes a robust 
engagement with the Congress is vital to achieving these ends, and, if 
confirmed, I look forward to working with members of the committee on 
this vital issue.

                                 ______
                                 
           Questions Submitted by Hon. Catherine Cortez Masto
    Question. On July 16, 2018, the Treasury Department issued Rev. 
Proc. 2018-38, which eliminated the requirement for tax-exempt ``dark 
money'' organizations to report the identities of major donors. This 
rule change will significantly hamper the ability of the IRS, law 
enforcement, and intelligence organizations to police the laundering of 
funds through our political system. The Office of General Counsel 
provides legal and policy advice to the Treasury Secretary, and 
Secretary Mnuchin decided he would no longer collect donor information 
for certain nonprofit organizations that may engage in political 
activities. The Treasury Secretary relied on General Counsel's legal 
analyses to justify these actions.

    Please provide me with exactly and specifically what role you had 
in that decision and the drafting of the legal justification.

    Answer. I was aware that the Internal Revenue Service intended to 
relieve certain categories of 501(c) organizations of the obligation to 
report donor information, while still maintaining that information for 
inspection upon IRS request. I do not recall having had any role in 
preparing the IRS's legal justification for doing so, but I believe 
that the IRS issued Revenue Procedure 2018-38 based on the IRS's 
determination that the inclusion of personally identifiable donor 
information on Form 990 is ``not necessary for the efficient 
administration of the internal revenue laws,'' Rev. Proc. 2018-38 
(quoting 26 CFR Sec. 1.6033-2(g)(6)).

    Question. Who lobbied or engaged the Department for Rev. Proc. 
2018-38? Please provide me and this committee a list of organizations 
and interest groups that the Department met with, either publicly or 
privately, before the decision was released?

    Answer. I do not recall having had any involvement in or awareness 
of any engagement with external parties regarding Rev. Proc. 2018-38.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. During your time as General Counsel, did anyone at the 
White House or the administration request that: (a) you or someone in 
your office intervene in a personal tax matter that was within the 
purview of IRS's tax administration or enforcement responsibilities; 
(b) you or someone in your office intervene in a personal matter 
related to the work of Treasury's Office of Terrorism and Financial 
Intelligence, including the Office of Foreign Assets Control (OFAC) or 
Financial Crimes Enforcement Network (FinCEN); (c) a staff member at 
the Treasury Department intervene in a personal tax matter that was 
within the purview of IRS's tax administration or enforcement 
responsibilities; (d) a staff member at the Treasury Department 
intervene in a personal matter related to the work of Treasury's Office 
of Terrorism and Financial Intelligence, including the Office of 
Foreign Assets Control (OFAC) or Financial Crimes Enforcement Network 
(FinCEN)?

    If yes to any of the above, please provide information about those 
contacts to the committee--including the person contacting you or 
another Treasury employee, the reason for the contact, and the nature 
of the request.

    Answer. I am not aware of any such requests.

    Question. If you are confirmed as Under Secretary, will you be 
committed to remaining independent of the administration, and keep the 
Department free from outside political influence?

    Answer. Under Article II of the Constitution and the laws 
establishing the Department of the Treasury, each Under Secretary of 
the Treasury is an officer of the executive branch. If confirmed, I 
would fulfill those duties assigned to me in a manner consistent with 
the Constitution and laws, without regard to any improper political 
influence.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. If confirmed, you will play an important role in 
implementing America's foreign policy priorities. One such priority is 
the fight against human trafficking. Human trafficking is a $150 
billion a year crime with over 20 million victims around the world. The 
Trafficking Victims Protection Reauthorization Act of 2017, which I 
authored and was passed unanimously by both houses of Congress, 
requires the Department of the Treasury to advocate for better anti-
trafficking safeguards and interventions in multilateral development 
bank projects. If confirmed as Under Secretary for International 
Affairs, you will have the ability to exert influence on the 
multilateral development banks, to get them to leverage their projects 
in smart ways that prevent trafficking and to encourage borrowing 
countries to increase their own efforts to combat trafficking.

    If confirmed, will you commit to making this a priority and to 
working with my office to ensure effective implementation of the law?

    Answer. Yes. If confirmed, I look forward to working with you and 
your staff on this important matter.

    I am increasingly concerned that the United States is not well 
positioned to engage in economic statecraft for the 21st century--
including promoting U.S. jobs, business and economic interests, 
engaging in development financing for infrastructure and other needs, 
including climate change-related resiliency, and setting standards for 
emergent technologies and the digital economy.

    Question. Can you expand upon how you would view your role, if 
confirmed, in helping to renew and replenish U.S. economic statecraft 
instruments?

    Answer. The Treasury Department, including in particular its 
International Affairs division, is committed to advancing American 
interests abroad in all matters within its remit. Doing so requires 
well-considered strategic shepherding of the various economic and 
financial matters committed to Treasury's care, ensuring at all times 
that Treasury's authorities are deployed judiciously, with a clear-eyed 
focus on the effects that actions abroad will have on individual 
Americans. For International Affairs, this includes ensuring that the 
CFIUS process is focused vigilantly and precisely on national security 
threats posed by inbound transactions, all while preserving the open 
investment environment that has made the United States the best place 
in the world to invest; that Treasury's engagement with the World Bank, 
the IMF, and other multilateral bodies is consistent with and designed 
to advance American national interests; that those portions of trade 
negotiations that fall within Treasury's authorities result in 
arrangements that benefit Americans and the American economy; that 
international taxing arrangements are fair to American taxpayers and 
American companies, and do not discriminate against them; and that 
economic agreements and technical assistance are deployed in ways that 
foster partnerships with foreign countries that are broadly beneficial 
to American interests.

    Question. Where do you see the biggest challenges and biggest 
opportunities?

    Answer. While challenges and opportunities with regard to America's 
economic interests are constantly evolving with world events, 
International Affairs is--and must be--focused on certain issues that 
present both challenges and opportunities. For one, the modernization 
of America's CFIUS investment security regime pursuant to the recent 
bipartisan FIRRMA legislation must satisfy dual imperatives: preventing 
the weaponization of foreign investment in U.S. companies while 
preserving the open investment environment that has made the United 
States the world's most attractive investment destination. For another, 
confronting market-distorting policies advanced by certain competitors 
so as to protect American jobs, American technological leadership, and 
American competitiveness is a challenge that must be contested on a 
wide variety of fronts, including through bilateral negotiations and 
through U.S. influence at multilateral bodies. For yet another, pushing 
for high-standard lending to low-income countries--lending that is 
transparent and sustainable and in the best interests of the borrowing 
country--presents both an opportunity to secure greater economic 
stability around the world and a challenge to bring about reform in the 
lending and borrowing practices of those countries that have not 
adopted best practices and thus have had a derogatory effect on 
international economic stability. If addressed prudently and 
effectively, all of these matters have the potential to benefit 
individual Americans.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. As you know, Rev. Proc. 2018-38 was issued on July 16, 
2018. When did you conduct your legal review of Rev. Proc. 2018-38?

    Answer. I am aware that lawyers in the Office of General Counsel 
reviewed the IRS's Rev. Proc. 2018-38 for any legal issues, as they do 
for many tax rules and guidance, but I do not recall having myself 
reviewed that revenue procedure.

    Question. Were you involved in the drafting of the response I 
received from the IRS on July 23, 2019 regarding Rev. Proc. 2018-38?

    Answer. Not that I recall.

    Question. If so, what sections did you draft, review, or provide 
advice on?

    Answer. I do not recall having been involved in the drafting of the 
response in question.

                                 ______
                                 
                 Question Submitted by Hon. John Cornyn
    Question. The North American Development Bank has helped finance a 
total of 257 infrastructure projects in its 25 year history. In Texas, 
the Bank has financed 56 projects providing $605 million in loans and 
grants, and has leveraged that amount for $1.76 billion in total 
investment. The Bank continues to provide critical resources that help 
improve the quality of life for a total of 17 million U.S.-Mexico 
border residents. I have introduced legislation that would authorize 
the Bank moving forward and further support its activities.

    Do you support the effort to further capitalize and expand the 
North American Development Bank?

    Answer. At Treasury, we support the North American Development 
Bank's mission to foster growth and development on our shared border 
with Mexico. I am confident that in carrying out its mission, NADB can 
do more to advance the economic well-being of the people of the United 
States and Mexico. We are committed to working with our Mexican 
partners on the development of a new strategy for NADB to boost its 
ability to create economic opportunities, enrich communities, and 
improve the quality of life along both sides of the border. We 
recognize that a new strategy could benefit from greater resources and 
will consider whether additional capital would improve the NADB's 
ability to realize our ambitions. I understand that the administration 
has asked Congress to authorize a $10-million purchase of shares, 
having already appropriated the funds, so that the U.S. can maintain 
its 50-percent ownership share of NADB.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. I believe the United States must work with other 
countries to address concerns about China--from theft of intellectual 
property to barriers to market access. Both bilateral and multilateral 
dialogue are very important.

    The office you were nominated to lead heads up Treasury's role in 
bilateral discussions with China. It previously led the Strategic and 
Economic Dialogue (S&ED), the U.S.-China Joint Commission on Commerce 
and Trade (JCCT), and the U.S.-China Comprehensive Economic Dialogue. 
Unfortunately, these dialogues were frozen by the Trump administration.

    How will you ensure that the United States maintains regular 
ongoing dialogue with China on commercial and economic issues?

    Answer. The United States and China have resumed dialogue on an 
enforceable trade deal, as President Trump and President Xi agreed to 
do during their meeting at the G20 in Osaka, Japan. Our discussions 
will center on protecting intellectual property, stopping forced 
technology transfers, opening China's markets, and other needed 
structural reforms. With respect to non-trade economic issues, Treasury 
also regularly engages with its counterparts from the Chinese Ministry 
of Finance, the People's Bank of China, and other Chinese financial 
regulators at multilateral meetings such as the G20, IMF, World Bank, 
APEC, and the Financial Stability Board.

    Question. How will you coordinate with other allies like Europe and 
Japan on China?

    Answer. Through Treasury's regular bilateral engagements with our 
European and Japanese counterparts, as well as our active participation 
in multilateral forums such as the G7, G20, and the Paris Club, 
Treasury routinely coordinates with our European and Japanese 
counterparts on economic issues of mutual concern related to China, 
such as investment security, debt sustainability and transparency, and 
overseas development finance, as well as market barriers and China's 
distortive economic and trade policies, which affect firms in all of 
our countries.

                                 ______
                                 
                  Question Submitted by Hon. Tim Scott
    Question. As Under Secretary for International Affairs at the 
Treasury Department, you will be responsible for leading the U.S. 
delegation in and determining policy for a number of multi-lateral 
regulatory bodies like the Financial Stability Board (FSB) and the 
International Association of Insurance Supervisors (IAIS). Sometimes 
these multilateral bodies develop different standards or regulations 
that might not be compatible with the United States or could have 
negative repercussions for U.S. consumers and it will be your job to 
assertively and effectively stand up for U.S. interests.

    One current issue that could use your attention immediately is the 
ongoing development of an insurance International Capital Standard 
(ICS) by the IAIS. The current draft of the ICS closely resembles the 
EU's approach to solvency regulation and is widely agreed to not be 
equivalent with the U.S. system of insurance regulation. The ICS is 
expected to be finalized in November at a meeting in Abu Dhabi and the 
IAIS has not yet agreed to provide mutual recognition to the U.S. 
system of insurance regulation as part of the completion of this 
proposal. I, with 41 of my colleagues, recently sent a letter to 
Federal Reserve Governor Randal Quarles expressing these concerns.

    Will you commit that you will make achieving formal recognition of 
the equivalency of the U.S. insurance system a top priority?

    Answer. Treasury strongly supports the state-based system of 
insurance regulation and is committed to continued engagement in the 
international standard-
setting work at the IAIS to advance U.S. interests. Treasury is working 
closely on this issue with the other members of ``Team USA''--the U.S. 
States, the National Association of Insurance Commissioners, and the 
Federal Reserve Board. It is important to note that international 
standards issued by the IAIS and other standard-setting bodies are non-
binding in the United States, and they will only become law in the 
United States if implemented by the relevant State or Federal 
authorities. Treasury will continue to coordinate with other members of 
Team USA on the work at the IAIS, and we will continue to advocate, 
both now and during the ensuing 5-year monitoring period, that the 
ultimate outcome of the ICS accommodates the diverse approaches to 
solvency regulation taken by various jurisdictions around the world, 
including consideration of our State-based regulatory system.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    This morning the Finance Committee meets to discuss four important 
nominations.

    Mr. Brent McIntosh is nominated to be Treasury Under Secretary for 
International Affairs. Mr. Brian Callanan is nominated to be Treasury 
General Counsel. Mr. Brian McGuire is nominated to be a Deputy Under 
Secretary of the Treasury for Legislative Affairs. And Mr. Travis 
Greaves is nominated to be a judge of the United States Tax Court.

    I'll start my remarks with the Treasury nominees. There's been a 
pattern among some of the Trump nominees who've come before this 
committee. In this room they swear up and down that they'll serve with 
independence on behalf of all Americans. But after they're confirmed, 
blind loyalty to Donald Trump takes precedence over following the law.

    The nominees before the committee today are experienced--there's no 
question about that. But with the Trump administration defying nearly 
all congressional oversight, the right resumes are not enough. The 
Finance Committee should have confidence that nominees would be able to 
resist pressure to make politically expedient decisions that help 
Donald Trump personally at the expense of typical American families.

    In that vein, I want to turn to the Treasury Department's handling 
of the Ways and Means Committee's request for Donald Trump's tax 
returns under section 6103 of the tax code.

    From where I sit, the Department has tossed aside the law and 
decades of precedent to protect the President from congressional 
scrutiny.

    In May, I began investigating whether there was political 
interference in the decision to withhold the tax returns. I asked the 
Treasury a series of questions about the involvement of political 
appointees, and the initial response was misleading and inaccurate. I 
went back and demanded concrete answers.

    After working with the Treasury to get them, the set of facts the 
Department agreed upon shows the unprecedented nature of its actions.

    This type of inquiry has never been political. Now the Trump 
Treasury Department is politicizing it--top officials there are 
trampling all over a process that's always been routine.

    The Treasury Secretary has never before been involved in responding 
to a request for tax returns under section 6103. Secretary Mnuchin is 
the first.

    Second, the Treasury Department has never before formally consulted 
the Office of Legal Counsel on whether to comply with a specific 6103 
request. OLC's opinion read like it was written by Rudy Giuliani to 
justify the decision Treasury had already made. The analysis put 
forward by the Justice Department has already been laughed out of court 
by judges who have noted that the Congress has broad investigative 
authority.

    And third, the Treasury Department has never before formally 
considered whether there is a legitimate legislative purpose behind a 
6103 request--not even for Chairman Grassley's investigation into 
ACORN.

    Taken together, it's impossible to conclude that any of what the 
Treasury did was on the level. That's why I have deep concerns about 
the nominations of Brent McIntosh and Brian Callanan, who played 
central roles in the Department's response. They were also right in the 
middle of the Trump administration's decision to allow more foreign 
money and dark money groups like the NRA to buy their desired outcomes 
in American elections. That was a terrible decision, and the damage was 
compounded when the Treasury Department then made a frivolous argument 
to attempt to thwart congressional review of the rule.

    I cannot ignore those facts. Mr. McIntosh and Mr. Callanan are 
currently the top lawyers at the Treasury. It has appeared that 
Treasury's leadership is more interested in protecting Donald Trump and 
party interests than guaranteeing that the Department follows the law. 
In my judgement, that conduct does not warrant promotions.

    Switching gears for a moment to the U.S. Tax Court, Travis Greaves 
has been nominated to serve a 15-year term and would help ensure 
taxpayers get a fair shake in resolving tax disputes.

    It's true that this nominee has 2 years of experience at the 
Justice Department's Tax Division, as well as time spent in private 
practice. However, Mr. Greaves's nomination to the committee was not 
accompanied by a recommendation letter from the American Bar 
Association's Tax Section. This is the first time in many years such a 
letter was not included with the paperwork of a Tax Court judge. It 
could be because Mr. Greaves' experience is far more limited than other 
nominees to the Tax Court. So I look forward to hearing from him as to 
why he feels he is qualified for this important role.

                                  [all]


</pre></body></html>
